<html>
<title> - FOCUSED ISSUES ON DIGNIFIED BURIALS: A NATIONAL CEMETERY UPDATE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    FOCUSED ISSUES ON DIGNIFIED BURIALS: A NATIONAL CEMETERY UPDATE

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, OCTOBER 30, 2013

                               __________

                           Serial No. 113-40

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PRINTING OFFICE 

85-865                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





























                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
DAVID P. ROE, Tennessee              CORRINE BROWN, Florida
BILL FLORES, Texas                   MARK TAKANO, California
JEFF DENHAM, California              JULIA BROWNLEY, California
JON RUNYAN, New Jersey               DINA TITUS, Nevada
DAN BENISHEK, Michigan               ANN KIRKPATRICK, Arizona
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MARK E. AMODEI, Nevada               GLORIA NEGRETE MCLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana

                       Jon Towers, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking 
GUS M. BILIRAKIS, Florida            Minority Member
MARK AMODEI, Nevada                  BETO O'ROURKE, Texas
PAUL COOK, California                RAUL RUIZ, California
                                     GLORIA NEGRETE MCLEOD, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






























                            C O N T E N T S

                               __________

                            October 30, 2013

                                                                   Page

Focused Issues On Dignified Burials: A National Cemetery Update..     1

                           OPENING STATEMENTS

Hon. Jon Runyan, Chairman, Disability Assistance and Memorial 
  Affairs........................................................     1
    Prepared Statement of Hon. Runyan............................    39
Hon. Dina Titus, Ranking Minority Member, Subcommittee on 
  Disability Assistance and Memorial Affairs.....................     3
    Prepared Statement of Hon. Titus.............................    40

                               WITNESSES

Patrick K. Hallinan, Executive Director of Army National 
  Cemeteries Program, U.S. Department of Defense.................     5
    Prepared Statement of Mr. Hallinan...........................    41
Glenn Powers, Deputy Under Secretary for Field Programs, National 
  Cemetery Administration, U.S. Department of Veterans Affairs...    11
    Prepared Statement of Mr. Powers.............................    45
Todd Kleismit, Director of Community & Government Relations, Ohio 
  Historical Society.............................................    27
    Prepared Statement of Mr. Kleismit...........................    48
Ray Kelley, Director of National Legislative Service, Veterans of 
  Foreign Wars...................................................    29
    Prepared Statement of Mr. Kelley.............................    49
Ami Neiberger-Miller, Director of Outreach and Education, Tragedy 
  Assistance Program for Survivors...............................    31
    Prepared Statement of Ms. Neiberger-Miller...................    51
Diane M. Zumatto, National Legislative Director, AMVETS..........    32
    Prepared Statement of Ms. Zumatto............................    61

                       STATEMENTS FOR THE RECORD

Mr. Paul LaRue, Washington High School Educator/Researcher, 
  Washington Court House, Ohio...................................    63
Mr. Jeff Richman, Green-Wood Cemetery Historian..................    71

                   MATERIALS SUBMITTED FOR THE RECORD

Letter From: Steve L. Muro, Department of Veterans Affairs, Under 
  Secretary for Memorial Affairs, Washington, DC.................    75
 
    FOCUSED ISSUES ON DIGNIFIED BURIALS: A NATIONAL CEMETERY UPDATE

                      Wednesday, October 30, 2013

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:11 a.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Titus, O'Rourke, Negrete-
McLeod.
    Also Present: Representatives Stivers, Daines, Brooks.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Good morning and welcome, everyone. This 
oversight hearing in the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    We are here today to examine the issue facing our military 
and veteran cemeteries. Our goal in this hearing is to learn 
more about the operations of the National Cemetery 
Administration in recent months as well as seek the 
administration's commentary on several focus issues that I will 
highlight momentarily.
    We also wish to welcome Mr. Hallinan in his new role as the 
executive director of the Army National Military Cemeteries and 
to hear about his work and his vision for continuing the 
honorable mission of Arlington National Cemetery.
    Previously Mr. Hallinan worked side by side with former 
director, Ms. Katherine Condon, and together they provided 
revitalization, leadership, and structure to an operation that 
had been plagued by mismanagement.
    Prior to that, he worked alongside Under Secretary Muro 
with the National Cemetery Administration where he developed 
various positions from laborer to cemetery director.
    So, Mr. Hallinan, welcome and we look forward to hearing 
from you today.
    The endeavors of the NAC and ANC are among the most 
honorable in government. People within these organizations work 
day in and day out to honor our veterans and servicemembers 
with dignified burials, to assist families and loved ones who 
must deal with their loss and tremendous grief.
    I would like to take a moment to acknowledge a few people 
that have come to sit in the audience for our hearing here 
today. Ms. Lauri Laychak who lost her husband, Dan Laychak, on 
9/11 in the Pentagon is here today.
    Through Tafts, Lauri mentors other widows whose spouses 
have been buried within Section 60 of Arlington National 
Cemetery.
    Ms. Paula Davis is a surviving mother who lost her only 
child, army private Justin Davis, in Afghanistan in 2006 at age 
19. He is also buried in Section 60 of Arlington National 
Cemetery.
    And Ms. Rose Duval who is a Vietnam veteran herself, a 
surviving mother of an air force technical sergeant, Scott 
Duffman, who died in Afghanistan in 2007, who is also buried in 
Section 60 of Arlington National Cemetery.
    Ms. Laychak, Ms. Davis, Ms. Duval, we truly thank you for 
engaging in this issue not only for your loved ones in 
Arlington National Cemetery but also for the interest of so 
many families and friends who have suffered tragic loss and who 
in earnest Arlington National Cemetery and the National 
Cemetery Administration to assist them in honoring and 
memorializing their loved ones.
    As I have said before, the Nation's solemn obligation to 
honor those who have served does not cease at the end of their 
service, retirement, or ultimately upon death. It is the 
responsibility of the National Cemetery Administration and the 
Arlington National Cemetery to see this commitment through.
    Significantly today this Committee is interested in hearing 
from the National Cemetery Administration and several focused 
areas of which is the burial access initiative for rural 
veterans in an attempt to provide service to veterans who do 
not live in close proximity to a national cemetery.
    The NCA has proposed to establish national veterans' burial 
grounds in rural areas where veterans' populations is at least 
25,000 within a 75 mile area. This initiative targets Idaho, 
Montana, Nevada, North Dakota, Maine, Utah, Wisconsin, and 
Wyoming.
    I look forward to hearing more about the progress of this 
initiative.
    In addition, other issues have come to light since our last 
hearing, one of which is a matter of great sensitivity. The 
Subcommittee has been made aware of a terrible incident that 
occurred in Indiana in May of 2013 that a veteran shot and 
killed a woman in what was reported as a random act of 
violence. He wounded several others and ultimately took his own 
life.
    Although the law restricts an individual who commits a 
capital crime from being buried in an NCA cemetery or within 
Arlington National Cemetery, this murderer was interred in Fort 
Custer National Cemetery. This has understandably been engaged 
in deeply and hurt many people including those injured as well 
as the murder victim's family.
    What can be done in situations such as this and what 
authority should exist to correct the unlawful interments and 
occur by way of errors? This is a matter that the Committee 
seeks information upon today.
    One other area that will be addressed in today's hearing is 
the concern that we hear from volunteer historians, local 
governments, and funeral professionals who seek to identify and 
recognize veterans buried with no next of kin.
    In April, we held a hearing and spoke about the NCA 
regulation that has prevented these groups from obtaining 
headstones and markers for veterans. At that time, the 
Committee was informed that NCA was looking at regulation 
rewrite to correct what had become an overly restrictive policy 
that prevents well-intentioned volunteers or government 
entities from obtaining these markers.
    This is a matter of ongoing concern and we will hear 
testimony on this today.
    I would like to welcome our witnesses. As noted, these 
panelists play significant roles in ensuring that the Nation 
fulfill its responsibilities to honor those who have served us 
all.
    We hope throughout discussion and questioning such will 
occur today. We work collectively not only to meet the 
challenges, but to exceed the standards.
    Mr. Patrick Hallinan is representing the Army National 
Cemetery Program which includes perhaps the most recognizable 
site in honor of our fallen at Arlington National Cemetery.
    Mr. Glenn Powers, deputy under secretary of Field Programs 
is here on behalf of the National Cemetery Administration which 
oversees 131 cemeteries nationwide.
    We will also be hearing from Mr. Todd Kleismit, director of 
Community and Government Relations for the Ohio Historical 
Society; Mr. Ray Kelley who is the director of National 
Legislative Services with the VFW; Ms. Amy Neiberger-Miller who 
is the director of Outreach and Education with the Tragedy 
Assistance Program for Survivors; and Ms. Diane Zumatto who is 
the legislative director for AMVETS.
    Finally, statements for the record have been received from 
Washington High School educator Mr. Paul LaRue and Greenwood 
Cemetery historian, Mr. Jeff Richman.
    With those introductions complete, I also thank Members who 
are not on this Committee but who have expressed an interest in 
today's hearing. I would like to ask unanimous consent 
Representatives Stivers, Brooks, and Daines be allowed to 
participate in the hearing today. Hearing no objection, so 
ordered.
    I thank all of you for being here today and I now yield to 
the Ranking Member for her opening statement.

    [The prepared statement of Chairman Runyan appears in the 
Appendix]

              OPENING STATEMENT OF HON. DINA TITUS

    Ms. Titus. Thank you, Mr. Chairman, and thank you for 
holding a hearing on this important topic.
    I also want to thank the witnesses who have come today and 
for their tireless advocacy on this issue.
    It is my belief like yours, Mr. Chairman, that option of a 
burial in a VA national cemetery in one's home state is a 
solemn obligation that our government should fulfill.
    The National Cemetery Administration has grown dramatically 
since its creation in 1986 when 14 cemeteries were established 
to provide a permanent resting place for those killed during 
the Civil War.
    On July 17th of that year, Congress enacted legislation 
that authorized the President to purchase additional cemetery 
grounds to be used as national cemeteries for our servicemen 
and women.
    In 1873, all honorably discharged veterans became eligible 
for burial in these sacred places. Since then, the NCA has 
expanded its geographic diversity to better serve veterans 
across the country and currently operates 131 national 
cemeteries in the United States.
    New York has seven active national cemeteries. Three other 
states have six each and Puerto Rico has two.
    While access has grown significantly and we do appreciate 
that, there is still a very large population of veterans who do 
not have the option of being buried in one of our Nation's 
prestigious national cemeteries in the state that they call 
home.
    The state with the largest veterans' population without a 
national cemetery happens to be my state of Nevada which is 
home to a growing population of over 300,000 veterans and I 
represent Las Vegas where 170,000 veterans reside.
    In total, there are 11 states with a combined veteran 
population of 1.8 million that are not served by a national 
cemetery. Now, more than half of those states are in the west, 
Nevada, Idaho, Utah, Montana, Wyoming, and North Dakota.
    Now, that sounds bad enough, but if you look at a map, 
those states are very large states. So it is a huge swath of 
the country where there is no access to a national cemetery or, 
if there is, it is very, very, very far away.
    Now, while I applaud the VA's efforts to reach under-served 
populations, I am also concerned that the NCA is not working 
closely enough with local veterans' communities as they 
determine new locations for the so-called rural initiative.
    For example, I wonder has the VA asked the Nevada and Idaho 
veteran communities if they agree that the rural initiative 
should be out in Elko or in Twin Falls. I am hopeful that the 
NCA will engage our local veterans with regards to the 
placement of these shrines, especially in western states that 
have been overlooked for far too long by the NCA.
    It is also very concerning to me that the NCA surveys only 
the families of veterans who have chosen to utilize a national 
cemetery while totally ignoring those who chose a different 
option to a final resting place.
    This is going to skew the results of any so-called poll 
that you do. If the NCA hopes to offer options that serve all 
veterans and their families, the self-selecting survey is going 
to fail to provide any honest feedback for those 
determinations.
    So I hope to hear an update from NCA on any plans you have 
to better address our western veterans' lack of an option to be 
buried in a national cemetery.
    Let's remember all these veterans and servicemembers served 
our Nation not just those kind of east of the Mississippi.
    As such, with over 130 national cemeteries, I think it is 
time that we look very seriously about opening one that is 
going to be available to the 1.8 million, 1.8 million veterans 
who do not have this option.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Hon. Dina Titus appears in the 
Appendix]

    Mr. Runyan. Thank the gentle lady.
    At this time, I would like to welcome our first panel to 
the witness table. And first we are going to hear from Mr. 
Hallinan and then we will hear from Mr. Powers. Your complete 
written statements have been entered into the hearing record.
    And, Mr. Hallinan, I know we had a conversation. Your 
testimony is a little long and I will be lenient with the red 
light because we really do want to hear what you have to say. 
So with that, you are now recognized.

 STATEMENTS OF PATRICK K. HALLINAN, EXECUTIVE DIRECTOR OF ARMY 
NATIONAL CEMETERIES PROGRAM, U.S. DEPARTMENT OF DEFENSE; GLENN 
  POWERS, DEPUTY UNDER SECRETARY FOR FIELD PROGRAMS, NATIONAL 
  CEMETERY ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                STATEMENT OF PATRICK K. HALLINAN

    Mr. Hallinan. Mr. Chairman, I appreciate your leniency and 
that of the Subcommittee.
    Chairman Runyan, Ranking Member Titus, and distinguished 
Members of the Subcommittee, thank you for the opportunity to 
provide an update on operations at Arlington National Cemetery 
and our efforts to sustain the sacred trust of our veterans and 
their families.
    Since Ms. Condon provided her final testimony as executive 
director of Army National Military Cemeteries to this 
Subcommittee a year ago, I have been honored and humbled by my 
selection as the new executive director.
    The transition of leadership has been smooth and effective, 
providing a continuity of operations as we build upon the 
successes of our recent past to better serve veterans, 
families, and the visiting public.
    I am pleased to testify alongside my former colleague, Mr. 
Glenn Powers, deputy under secretary for Field Programs of the 
National Cemetery Administration.
    I would also like to thank Mr. Steve Muro, the under 
secretary for Memorial Affairs, my friend and colleague for 
many years, for his support of Arlington National Cemetery.
    Through the positive working relationship of Arlington 
National Cemetery, the National Cemetery Administration, we 
have trained staff, shared ideas and best practices, and 
provided opportunities for employees to permanently move across 
organizational boundaries.
    Building upon the foundation of dedicated efforts, each of 
us are privileged to serve the Nation as caretakers of our 
Nation's sacred shrine at Arlington.
    We remain committed to the constant improvement of 
operations. During the past seven months, my team has 
identified and created industry leading standards with laudable 
business practices and institutionalized them at Arlington.
    We have designed and implemented stringent chain of custody 
controls and multiple points of redundancy to ensure 
accountability and zero defect tolerance.
    We have instituted processes that have reduced the time for 
the placement of headstones from multiple months after service 
to an average of 45 days.
    We continue to perfect information technology and provide 
interactive capabilities to the general public.
    In August of this year, I approved the 2013 Arlington 
National Cemetery master plan which identifies the way forward 
to repair and replace our aging infrastructure and complete two 
significant expansion projects to increase burial capacity at 
Arlington and extend the active life of the cemetery.
    We continue to perfect our organizational inspection 
program which will capture army doctrine, the current standards 
and practices in place at Arlington, and facilitate the 
implementation of those standards and practices at all 40 army 
post cemeteries nationwide.
    My team is dedicated to improving the Arlington experience 
for our visitors and perfecting our logistical and 
administrative best practices. We are focused on our core 
mission.
    The pace of requests and burials at Arlington remains at an 
all time high and our workforce is meeting that challenge.
    Arlington will fill our current vacancies to include key 
positions, refine cemetery operations, expand our robust 
training program, and institutionalize cemetery experience.
    As the director of the Army National Military Cemeteries, I 
will provide training and assistance to our post cemeteries 
while implementing an inspection program across those army 
cemeteries in keeping with the high standards of Arlington.
    The progress we have made at Arlington could not have been 
achieved without the excellent support and assistance of the 
secretary of the army and the big army.
    Additionally I wish to acknowledge the military district of 
Washington joint forces, our army, navy, marine corps, air 
force, and coast guard for their superb service day in and day 
out.
    With the guidance of the advisory council at Arlington 
National Cemetery along with the invaluable efforts of our 
chaplains and Arlington ladies, we form a committed and united 
team, providing our Nation's fallen with the honors they have 
earned through their service to our Nation.
    Arlington National Cemetery team is building on the 
foundation of success achieved with the 100 percent 
accountability for all decedents interred or inurned at 
Arlington National Cemetery and the soldier and airmen's home 
national cemetery.
    Using established accountability process and geospatial 
mapping, an intensive two-year effort to achieve 100 percent 
accountability efforts at Arlington were completed in the 
summer of 2012.
    Our personnel certify each burial service-conducted daily 
using a duplicative verification of grave location and decedent 
remains. Additionally, we digitally photograph every remain's 
container and digitally associate that image with the burial 
record in our authoritative system of record.
    To sustain 100 percent accountability and export our best 
practices to other army cemeteries, Arlington is perfecting and 
expanding our organizational inspection program.
    Arlington National Cemetery continues to use and refine our 
detailed inspection program as well as standards and measures 
program to self-evaluate operations, performance measures at 
Arlington, and the soldier and airmen's home national cemetery.
    Our team began our detailed effort in 2013 to transform the 
Arlington National Cemetery, focus process and programs into an 
appropriate inspection program applicable to the other 40 army 
post cemeteries.
    We have an expected completion date 31 December 2013. Upon 
completion of the inspection program, we will begin a 
systematic train and assist and inspection program across all 
army cemeteries.
    The Army National Military Cemetery led inspection program 
will complement and not replace the local installation 
commander's programs.
    With our ongoing work with the organizational inspection 
program, updates to our authoritative regulations and policies, 
we also look to improve and expand our training programs.
    Arlington National Cemetery established a training program 
for new employees in 2013. This recurring training program 
centered on ANC's standard measures and programs which will 
form the backbone of the Army National Military Cemeteries 
Program.
    The training will be conducted at Arlington National 
Cemetery and will provide authoritative training and best 
practices, standards and procedures, complementing the 
information found in the army regulations and Department of 
Army pamphlet.
    This in-person, on-the-ground training will provide a clear 
picture of operational standards and norms for our national 
military cemetery.
    Attendees that successfully complete the training will 
receive Army National Military Cemeteries' certificate of 
training.
    In March of 2013, Arlington National Cemetery began 
directly ordering government headstones and niche covers from 
the Department of Veterans Affairs' contractors to result in a 
more timely and accurate ordering of headstones.
    Prior to conducting a funeral service, cemetery 
representatives work with the family and primary next of kin or 
a person designated to direct disposition of remains using an 
automated headstone designer tool to create a proposed 
headstone template.
    After the template is agreed upon, we wait two weeks from 
the date of the service to allow families the opportunity to 
change the terms of endearment or other items of personal 
preference on a headstone.
    Following this designed intentional wait time, our 
interment service branch staff reviews, approves, and submits 
the order to the Department of Veterans Affairs' contractor. 
The average time from date of interment to the setting of 
headstones is now 45 days. Previously it took four to six 
months.
    Ongoing planning and design for cemetery expansion and the 
infrastructure in the future, the army remains committed to 
maintaining Arlington National Cemetery as an active cemetery 
for as long as possible to continue to honor and serve our 
Nation's military heroes.
    In support of that commitment last year, we completed the 
construction of Columbarium Court 9. This new columbarium added 
20,296 burial niches for cremated remains and extended the 
cemetery's projected capability to access cremated remains from 
2016 to 2024.
    During our May 9th, 2013 Columbarium Court 9 dedication, 
Arlington National Cemetery with the support of the Missing 
American Project inurned with honor six unclaimed remains from 
all branches of our Armed Forces, a most fitting tribute to 
these deserving servicemembers.
    This columbarium was special in two ways. Not only is it 
the largest columbarium court at the cemetery, but it was 
constructed and funded entirely from the recovery of 
unliquidated prior year funds, demonstrating our commitment to 
appropriately manage and utilize all available funding to 
improve the cemetery.
    Thus far, we have been honored to place over 225 
servicemembers or family members in Court 9.
    Working closely with the U.S. Army Corps of Engineers, 
National Park Service, Commission of Fine Arts, and the 
National Capital Planning Commission, our advisory committee, 
we have completed planning for the millennium project, the 
expansion project in the northern part of the cemetery.
    There were several iterations of design concepts for this 
project as the cemetery tried to balance the need for 
increasing burial capacity while at the same time being 
environmentally responsible, incorporating and protecting the 
area's natural beauty and historic nature into the design.
    A construction contract was awarded in September and work 
will commence shortly. When construction is completed, it will 
add approximately 27,282 new burial opportunities.
    With the millennium project construction on the way, we 
have begun planning an expansion on the southern side of the 
cemetery into land formerly occupied by the navy annex. We are 
in the early stages of the project planning and the demolition 
of previous facilities not scheduled to be completed until 
early 2014.
    As evidenced with the millennium project, the dedication of 
the project team, continuous stakeholder involvement, we will 
create a project concept that is both appropriate to the 
expansion of the cemetery and a place of honor for our veterans 
and their families.
    Although it is too early to tell what the final development 
will yield for the navy annex, we project that with the 
millennium expansion and the re-purposed former navy annex 
site, the cemetery will have the first interment space 
available through the mid 2050s.
    Arlington continues to work diligently to complete the most 
critical repairs to our aging infrastructure. Previously we 
know to work on water lines, flagstones, heating and cooling 
systems, but much work still needs to be accomplished.
    We have recently begun work on the second of five phases of 
our water line replacement. We have work on the way to address 
several years of deferred maintenance on our parking garage and 
we will begin shortly to address additional phases of flagstone 
replacement, both of which improve the safety and appearance of 
the cemetery.
    Our priorities for maintenance and repair work continue to 
focus on the mission, safety, and environmental protection.
    With your great support, we have been able to make many 
improvements to the aging infrastructure of the cemetery, 
improving the safety of our grounds and protecting the 
environment.
    More work is required, some of which may be emergent. For 
instance, on May 30th, my staff arrived at the cemetery to find 
a sinkhole in the middle of one of our roads. Investigation of 
the sinkhole revealed an area of many previous superficial 
repairs over time that resulted in the undermining of a culvert 
and ultimately failure of the roadway.
    We were fortunate in this case that this was not an active 
part of the cemetery. It is these unexpected issues that we 
continue to find which impact our priorities and, fortunately, 
with your strong support, we have been able to address.
    Technology at Arlington, Arlington National Cemetery 
continues to implement technology to streamline cemetery 
operations, improve our visitors' ability to explore the rich 
history of this national shrine.
    We have made improvements to Arlington's interment 
scheduling and geographic information systems to manage day-to-
day operations.
    Just over a year ago, Arlington launched ANC Explorer, a 
free web-based application that has transformed how visitors 
explore the cemetery. ANC Explorer allows families and the 
public to locate grave sites, events and other points of 
interest throughout the cemetery, to generate front and back 
photos of headstones or monuments, and to receive directions to 
these locations.
    We have installed kiosks with ANC Explorer in our welcome 
center and have one outdoor kiosk in the cemetery with the 
intention to add additional outdoor kiosks later this year.
    I am excited to report that in less than one year, we have 
reached over 60,000 downloads of our first version of this app.
    This spring as part of Arlington National Cemetery's 150th 
anniversary commemoration, we will be releasing an updated 
version of ANC Explorer that will include enhanced 
functionality and tours that could be customized by the user.
    Our GAS operational technology and application received a 
number of awards from the Federal Computing Week, Computer 
World, Government Computer News. ANC Explorer was named app of 
the year at the 2013 Federal Computing mobile summit.
    We are always looking for opportunities for families and 
the public to explore this national treasurer. Arlington has 
partnered with Google to include Arlington National Cemetery in 
their street view construction and collection.
    On October 20th, Google street view team collected images, 
walking paths, and driving the roads of the cemetery. Once the 
images are stitched together, visitors can take a 360 degree 
virtual tour of the entire cemetery on their SmartPhone or 
their computer.
    Section 60, on Sunday, October 6, 2013, my senior staff and 
I conducted a roundtable discussion with 21 Gold Star families. 
The discussion addressed issues associated with cemetery 
maintenance and Section 60's memento pilot program.
    The meeting was positive and generated several suggestions 
for improving communications between the family and Arlington 
National Cemetery.
    We have agreed to hold a Gold Star family roundtable twice 
a year. We are working to identify flexibilities in the 
existing policies.
    For example, as the cemetery enters the non-growing season 
where mowing of the grounds is less frequent, the cemetery will 
allow small photographs and small hand-crafted items not 
affixed to the headstones to be left at the grave sites.
    Arlington National Cemetery policy which is similar to that 
of other national cemeteries allows artificial flowers to be 
left at the grave site October 10th through April 15th. 
Allowing additional items to be left at the grave site during 
this time period is consistent with that policy.
    We will continue standard grounds maintenance during the 
time period and remove decayed flower items, items that are 
affixed to the headstone, or those that pose a safety hazard to 
visitors and staff such as tobacco, alcohol, and ammunition, 
glass items.
    Every other Friday, cemetery personnel will also remove 
items considered to detract from the dignity and decorum of 
Arlington National Cemetery.
    I am committed to keeping the Gold Star families informed 
and provide notice prior to the implementation of any changes.
    Our core mission is to take care of the families at their 
time of need and to schedule services desired with appropriate 
honors as quickly as possible. This process requires working 
with the families to document eligibility and with the services 
to schedule resources.
    We have implemented several measures to streamline the 
eligibility determination and scheduling process to reduce the 
amount of time families must wait between first contact and the 
actual service.
    Since December 2010, we have collected a metrics and data 
to better understand the interment services demand at Arlington 
National Cemetery. Requests for burial at Arlington National 
Cemetery occur at a robust pace and we expect the demands will 
remain constant as veterans and eligible servicemembers from 
conflicts during the late 20th century reach advanced age.
    Over the last year, Arlington experienced significant 
personnel turnover in the scheduling branch and despite our 
best efforts to fill all vacancies, the temporary loss of 
personnel significantly impacted our ability to schedule a 
funeral service particularly inurnments.
    In March 2013, we noted an increase in the scheduling delay 
due to this loss of personnel. In response, Arlington sought 
and received authorization to hire against the vacant 
positions.
    By late June, the vacant positions were filled and when 
requested the secretary of the army approved the use of 
overtime pay and temporarily assigned personnel to assist in 
reducing the growing volume of requests.
    To reduce the impact to families, the secretary of the army 
authorized me to direct reallocation of additional personnel 
from existing end strength. This leadership focus significantly 
reduced the total of those pending scheduling.
    The lapse of appropriation has caused Arlington National 
Cemetery to utilize available prior year funding to continue 
burial operations for our veterans and their families at our 
normal level.
    Available prior year funds allowed for the continued burial 
operations during the 16-day shutdown. Visitor operations 
continued with only minimal impacts.
    While NCA did not have to furlough employees during this 
period, it did have an impact on our day-to-day operations, 
halted travel, training and purchasing.
    However, sustainment, restoration, modernization of 
facilities continued as well as construction or design of 
Arlington's major construction projects.
    In conclusion, Mr. Chairman, through diligent efforts, 
adherence to established policies, the standard operating 
procedures and by leveraging technology, Arlington will do all 
it can within its power to sustain the sacred trust we have 
recently reclaimed.
    In conjunction with our partners at the military district 
of Washington, with the great support of the services, the 
Arlington staff can assure the Nation of this. Every burial 
service at Arlington National Cemetery will be conducted with 
the honor and dignity our servicemembers have earned and their 
families will be treated with respect and compassion.
    I appreciate the support of the Subcommittee and I look 
forward to answering any questions you may have. Thank you.

    [The prepared statement of Patrick K. Hallinan appears in 
the Appendix]

    Mr. Runyan. Thank you, Mr. Hallinan.
    And next we will hear from Deputy Under Secretary Powers. 
You are now recognized.

                   STATEMENT OF GLENN POWERS

    Mr. Powers. Thank you, Mr. Chairman.
    Before I begin, I would just like to let you know that I 
talked to Under Secretary Muro today and, as you know, he had 
to return to California for some family issues, but he 
apologizes and wanted to be here.
    Mr. Runyan. Understood, because we had some scheduling 
conflicts in the past few weeks.
    Mr. Powers. Chairman Runyan, Ranking Member Titus, and 
distinguished Members of the Subcommittee, I appreciate this 
opportunity to provide an update on initiatives that directly 
support our historic mission of honoring veterans and their 
families with final resting places in national shrines.
    Ensuring veterans have access to the benefits they have 
earned remains one of Secretary Shinseki's top priorities. To 
that end, we continue to lead the largest expansion of the 
national cemetery system since the Civil War.
    Before the end of this decade, NCA will open 18 new 
facilities. Together these sites will offer burial options to 
over 680,000 currently unserved veterans, better serve over two 
million more, and bring us closer to our strategic target of 
providing 95 percent of veterans with a burial option within 75 
miles of their homes.
    In fiscal year 2013, NCA acquired land for and began 
designing new national cemeteries in central east Florida, 
Tallahassee, Florida, and Omaha, Nebraska.
    Over the next few months, we expect to acquire land for 
planned sites in western New York State and southern Colorado, 
and we are planning new columbarium only cemeteries in Los 
Angeles and Alameda, California, Chicago, Indianapolis, and New 
York.
    To meet the needs of rural veterans, we are establishing 
national veterans' burial grounds in Idaho, Maine, Montana, 
Nevada, North Dakota, Utah, Wisconsin, and Wyoming.
    In areas without a national cemetery presence, we have 
joined with states, tribes, and territories to build, expand, 
or improve veterans' cemeteries managed by those entities.
    There are now 89 VA grant funded cemeteries in 44 states, 
Guam and Saipan. These cemeteries performed over 32,000 burials 
in the last fiscal year. Another six are under construction.
    We also partner and share best practices with our 
colleagues at Arlington National Cemetery, the National Park 
Service, and the American Battle Monuments Commission.
    This morning, I am pleased to be testifying alongside my 
colleague, Pat Hallinan. As Executive Director of Army 
Cemeteries, he shares our commitment to honoring and 
memorializing the men and women who have worn the Nation's 
uniform.
    We uphold the sacred trust on behalf of all Americans who 
insist on high standards of appearance and customer service in 
veteran cemeteries and who ask us to be caretakers of history, 
as well.
    At NCA, we are stewards of the graves of union and 
confederate dead at over 100 Civil War era properties and we 
provide perpetual care for grave sites of more than 3.9 million 
veterans, family members, and the fallen from every conflict.
    Making certain their resting places are properly identified 
is one of our most important responsibilities. We provide 
historically accurate headstones to mark graves and we replace 
headstones that become unreadable or get damaged.
    We are actively reviewing and rewriting regulations that 
impact the headstone and marker benefit with an eye towards 
making the definition of applicant less limiting while ensuring 
that family members are included in the decision-making process 
when possible.
    The public will have an opportunity to comment on these 
proposed revisions.
    In addition to serving veterans, we remain dedicated to 
employing them. Nearly three-quarters of NCA employees are 
veterans and since 2009, we have hired more than 450 returnees 
from the wars in Iraq and Afghanistan.
    On November 15th, we will graduate our first class of 
cemetery caretaker apprentices who are formerly homeless 
veterans. Having completed the successful pilot, we are making 
this a permanent avenue for competitive employment of homeless 
veterans in our national cemeteries.
    We appreciate your enduring support which has enabled us to 
make significant progress towards our strategic goals. With 
your continued help, we can remain dedicated guardians of those 
buried in our national cemeteries, ever mindful of the fact 
that they gave their tomorrows, so that we might have today.
    Thank you again for the opportunity to appear before the 
Committee and for your support of our national cemeteries. I am 
ready for any questions.

    [The prepared statement of Glenn Powers appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Powers.
    And I am probably going to give Mr. Hallinan my first 
question and it will probably take up my whole five minutes, 
but he has probably heard me ask the same thing of Ms. Condon 
in the past.
    We have taken note of the tremendous improvements through 
your and Ms. Condon's leadership at Arlington and I think one 
of the greatest concerns is the ongoing trajectory of the 
improvements and, frankly, I think when we go back to the 
discussions we had a couple years ago, the operating procedures 
that you and Ms. Condon have put in place.
    So basically three questions. First, what challenges do you 
face in your new role as executive director? Secondly, how will 
you work to sustain and improve on the gains made at Arlington? 
And, third, we hope you have a long tenure in your current 
position, but what recommendations would you give to set up for 
the next person that would take your place?
    Mr. Hallinan. Mr. Chairman and Ranking Member Titus, 
Members of the Subcommittee, when it comes to challenges, I see 
the most serious pending challenge now to be the deferred 
maintenance at Arlington National Cemetery and the issues we 
have with the infrastructure.
    As I noted in my opening statement, just yesterday, I had a 
water line break. We encounter issues that are emergent, we are 
not aware of. We have identified an estimated $75 million in 
infrastructure repair that is needed. I believe that to be a 
conservative estimate. We have reduced that number by $25 
million. So basically we are looking at $50 million, but I 
still think that remains one of the biggest challenges as we 
move forward.
    As far as sustainability for the progress we have made, and 
we have made significant progress and I appreciate your 
acknowledgment and kind words, the ability to hire the very 
best people to serve at Arlington is a key factor, I believe. 
It is the Nation's most sacred military cemetery and it is an 
honor to work there. I feel that personally. When we bring new 
staff on, it is important that they become part of that 
culture, so the interview process, the selection process is 
key.
    The training programs are in place. We have manned staff to 
train and equip. We set a standard. We have trained to 
standards. So we are holding people to those standards. We are 
holding staff accountable.
    So I think the key pieces for sustainability for progress 
going forward whether it is the handling of remains, the 
maintenance of the grounds, the repairing of the 
infrastructure, or filling positions in the future are in 
place.
    Succession planning is also part of my responsibility. The 
superintendent position was just closed. That position has been 
vacant. I anticipate filling that position hopefully in this 
coming December, to have the interview process and selection 
process completed. There is a deputy position that needs to be 
filled also.
    Cross training of staff, a formal training program, 
coaching and mentoring, Mr. Chairman, while I am in place over 
the next couple of years, I feel personally that my 40 years of 
cemetery experience, the many positions I have held in 
leadership throughout the VA in my government career will be of 
value as these people are selected and brought on.
    I could assure this Subcommittee that we are looking for 
only the best people and we will do our very best to train them 
and ensure that there is a positive future for Arlington 
National Cemetery.
    Mr. Runyan. Just so the Committee knows, you talked to me 
about an experience that you had with one of your contractors 
actually paying respect to families and/or the fallen as they 
were doing their work if you remember that.
    If you can enlighten the Committee on that because it says 
something about the type of people you are bringing in there 
and the respect and attention, the detail that they have under 
the new leadership at Arlington.
    Mr. Hallinan. Well, Mr. Chairman, that specific example 
goes to the change of culture, not just with the entire 
workforce at Arlington National Cemetery, but to include our 
contractors as well.
    While we hold ourselves at a higher standard, we hold our 
staff to the highest standards which means I need to hold 
myself to the highest standard. We also hold all contractors to 
the same standard.
    While I was out at the cemetery, we teach our staff how 
important it is to go the extra mile to keep the cemetery 
maintained properly, I observed the contractor while I was 
driving with my own personal vehicle, so he did not know at 
that time it was the superintendent that was driving past, stop 
his vehicle, his mower, get off the mower and walk out into the 
section and pick up some debris that had blown across the 
cemetery.
    So that individual contractor felt it important to police 
the grounds and help maintain that cemetery to a national 
shrine standard. And that is the culture that has been 
instilled in the permanent workforce and that is starting to 
permeate my contracting staff also.
    So I saw that as a positive sign that it has reached right 
on down to the contractors that are on site because we hold 
them just as responsible and just as accountable.
    Mr. Runyan. Thank you.
    With that, I recognize the Ranking Member, Ms. Titus.
    Ms. Titus. Thank you.
    Thank you, Mr. Hallinan, for all the improvements you are 
making at Arlington and for staying open during the shutdown so 
that people could come and visit the cemetery even if they 
could not go to other places.
    I would like to address my questions, though, to Mr. 
Powers. You heard me say in the opening remarks that of the 11 
states that do not have national cemeteries six are in the west 
and those are very large states so the distance that you have 
to travel is much greater than just that number indicates.
    So I would like to focus on that, your so-called rural 
initiatives, how you choose where you put those rural 
initiatives, what input you get from local veterans. What is 
the effect of having a rural initiative on the possibility of 
having a national cemetery built in the future?
    And then how do you choose Elko because as I understand it, 
that you are supposed to pick a site that serves 25,000 
veterans within a 75 mile range. Elko hasn't gotten but about 
19,000 people in the city and about 4,000 of those are 
veterans. And if you have ever been to Elko, you know there is 
not much within a 75 mile range of there.
    So could you answer those four questions for me?
    Mr. Powers. Thank you, Ranking Member Titus.
    As we have spoken about before, our emphasis is on time and 
distance, so our strategic goal is to serve 95 percent of 
veterans with an interment option within 75 miles of their 
homes.
    As to the rural initiative that you refer to, with the 
implementation of the rural initiative, NCA will have a 
presence in all 50 states.
    A quick review of the map indicates that most NCA 
facilities look like they are east of the Mississippi River as 
you pointed out, but 40 percent of these are closed to first 
interments, many of them being Civil War cemeteries that in 
some cases never really offered interments after the Civil War, 
because they were to small.
    We operate 36 national cemeteries west of the Mississippi 
River with about 85 percent of them open for first interments 
and there are 21 grant funded state and tribal cemeteries west 
of the Mississippi River.
    How will a rural initiative affect the ability of a 
location to get a national cemetery? Once again, the criteria 
for a national cemetery is different than that developed for a 
rural initiative facility.
    We look at our national cemetery criteria to determine 
where we should locate our newest national cemeteries. And as 
we discussed, we are continuing expanding. We have expanded in 
the last decade. We will continue to expand in the next decade.
    That criteria is different than that for a rural initiative 
facility. At one point in time, our veteran population 
threshold criteria was 170,000 unserved veterans within a 75 
mile radius of their homes. Now we are down to requiring only 
80,000 unserved veterans within a 75 mile radius for a national 
cemetery.
    We also discussed opportunities for the states and tribes 
to receive grants to fill in the gap between the populations of 
unserved veterans that would support a national cemetery and 
those that would support a rural cemetery.
    The states have a lot of flexibility in the determination 
of where those cemeteries should go when they apply for grant 
funding to establish state veteran cemeteries.
    The rural initiative was designed to focus on rural areas 
and serving rural veterans because the Secretary has asked all 
of VA to better serve rural veterans. And to that regard, we 
looked at populations, as you said, of 25,000 or less. I have 
not been to Elko.
    Ms. Titus. That is what I figured.
    Mr. Powers. Our planners looked at our veteran population 
data to determine where these locations should go. And at the 
same time, even though our emphasis has always been to look at 
the most veterans that we can serve with our resources, the 
rural initiative has also become an opportunity, as I stated 
before, for VA and NCA to have a national presence in all of 
the 50 states.
    Ms. Titus. Well, I think that the states built some of 
these cemeteries on their own in the west because they did not 
have a national cemetery. There is a very nice little state 
cemetery in Boulder City, but that certainly is a distance from 
Las Vegas and does not accommodate those 301,000 veterans who 
live--well, 170,000 who live in the Las Vegas area.
    I am just curious. What was the input from Nevada veterans 
on the choice of having this rural initiative in Elko since it 
obviously does not meet that 25,000 veterans to serve that you 
say is part of your criteria?
    Mr. Powers. Ranking Member Titus, I will have to get back 
to you on the specifics of the discussions that our planners 
would have had with the state cemetery directorate in Nevada.
    We talk to all the state cemetery directors. I have been 
involved in presentations at the state cemetery director 
conferences where we discussed these initiatives and how we 
work in partnership with the states and with the Federal grant 
funding to better serve veterans and to reach that goal, which 
is your goal that you stated--to serve more veterans and 
provide a burial option for veterans who are unserved.
    Ms. Titus. What can Nevada veterans do to get a national 
cemetery there where the population exists? If you are talking 
about doing more in the next decade, what do we need to start 
doing now to be sure we are on that list in the next decade?
    Mr. Powers. Well, right now looking at the criteria for a 
national cemetery----
    Ms. Titus. Well, we already meet that.
    Mr. Powers. Well, we look at unserved veteran population 
and the veteran population of the Las Vegas area is adequately 
served by the southern Nevada veteran cemetery in Boulder City.
    Ms. Titus. Have you surveyed the veterans in southern 
Nevada to see if they think they are adequately served?
    Mr. Powers. When we talk about adequately serving them, we 
are talking about the time and distance factor. In reference to 
a survey to determine what veterans who use state cemeteries 
feel about the appearance of their cemeteries, about the 
customer service and the standards at those cemeteries, our 
veteran cemetery grants program is currently working on rolling 
out a survey similar to the survey that we rolled out at our 
national cemeteries for a number of years to gauge those 
reactions.
    There is not one in place now, but we will have one in 
place in the future so that we can measure the service at state 
cemeteries.
    Ms. Titus. I appreciate that. And I think that it is fine 
to have a state cemetery, but I think you also--veterans--you 
want me to go back and tell Nevada veterans, well, you can have 
a state cemetery or you can have a rural initiative if you can 
get your family up to Elko, but you do not really deserve a 
national cemetery?
    Mr. Powers. I do not think anyone feels that anyone does 
not deserve a national cemetery. It is where we can place the 
resources so that we could impact the most veterans. But if we 
were only doing that, we would only have that national cemetery 
program, not give the states the flexibility, not have created 
the rural initiative and an urban initiative.
    And going back to one of your questions, we have talked to 
the new state director. We have mentioned that she has the 
flexibility and we would be more than willing to work with her 
through our state grant program to identify if the veterans of 
Nevada thought that it was necessary to construct another state 
cemetery on the north side of Las Vegas or a columbarium-only 
cemetery which can be designed, created, and built at a lesser 
expense.
    If that could be done and it can serve the Las Vegas 
veterans better, we can offer the state can apply for grant 
funds from Veterans Cemetery Grants Program.
    We talked to Kat Miller, the Director of the Nevada 
Department of Veterans Services about this last week and we 
would be happy to continue those conversations.
    We have had those conversations before with many states. 
The last time I testified was with the Chairman in southern 
Minnesota when the veterans of southern Minnesota wanted to get 
a state cemetery. These interactions work. And we are able to 
gauge what the veterans want, what the veterans of that state 
want and how we could best approach serving them in the way 
that they deserve.
    Mr. Runyan. I thank the gentle lady.
    I recognize Mr. Stivers.
    Mr. Stivers. Thank you, Mr. Chairman. I appreciate the 
Members of this Committee allowing me to sit in on this hearing 
today.
    I want to thank Mr. Powers and Mr. Hallinan for what you do 
to honor our veterans' service and find a final resting place 
that is deserving of their service and sacrifice for our 
country.
    My first question is for Mr. Powers. You may know I am the 
sponsor of the Honor Those Who Served Act which is H.R. 2018 
involving headstones.
    At a Subcommittee hearing in April of this year, Mr. Muro 
testified that the VA is currently reviewing its regulation 
that allows only the next of kin or a person authorized by them 
in writing to apply for a VA headstone.
    Congressman Daines and I are very interested in this 
subject due to civic minded folks in both Ohio and Montana that 
have actively sought to procure headstones for deceased 
veterans in our areas.
    And I am just curious what the NCA has done in recent 
months to review and remedy the regulation. What is happening 
is it is preventing folks from receiving headstones if you 
cannot identify a next of kin whether they are homeless 
veterans, whether they are folks who have been deceased for 
generations and you cannot identify next of kin.
    And I am just curious what you are doing to review the 
overly restrictive application process and try to fix this so 
that our veterans can have honorably marked graves.
    Mr. Powers. Thank you, Congressman.
    We are actively engaged in a comprehensive review of the 
subject you talked about which is a rewrite of the existing 
regulations.
    A regulation was published in 2009. The regulation 
addressed a concern that well-intended people were asking for 
headstones and markers but we were removing the families from 
the equation. And we found out that some headstones and markers 
were ordered without the families being aware of the ordering.
    However, as you pointed out, we have determined from the 
information that we are gathering from your constituents, from 
the veteran service organizations, particularly your 
constituents, and you have a number of them in Ohio, that I 
believe we are going to hear from today.
    Mr. Stivers. You will.
    Mr. Powers. We will hear about some of the great activities 
that they have done in Ohio to recognize veterans.
    Mr. Stivers. And I would urge you to look at H.R. 2018. It, 
you know, essentially lays out a process that allows the 
families first to make the decisions. And if you cannot 
identify next of kin, it allows veteran service organizations, 
military historians, other civically engaged folks that can 
find documentation to present it to the VA to get a headstone.
    I understand that it is inappropriate to circumvent the 
families, but I think if you take a look at what we proposed in 
H.R. 2018, and Congressman Daines is a co-sponsor, we would 
love to have you--whether that is the final look, but I would 
love you to look at that for consideration.
    Mr. Powers. And we have. I will tell you right now that Mr. 
Muro had NCA senior leaders quite recently engaged for a number 
of hours reviewing the proposed regulation.
    The bottom line is we need to do this right.
    Mr. Stivers. Yes.
    Mr. Powers. The correct way. And it involves an extensive 
rewrite of a number of regulations over time. We also believe 
it involves re-crafting our forms that people use to request 
this benefit to make them more explanatory about the 
information we need to make the benefit determination.
    In the case of historical headstones, this includes the 
specific type of documentation we would require.
    Mr. Stivers. I think that is great and we want to give you 
some time to do it, but I am going to continue to pursue H.R. 
2018. I do not want to have to put it in the law, but if it 
does not get fixed any other way, we will fix it. But I would 
urge you to take a look at your policies. I know you are.
    I want to thank you on behalf of what you are doing for our 
veterans. I am not meaning to beat up on you. I know that we 
want to make sure we fix it for our veterans because if you are 
a homeless veteran and nobody can identify next of kin, you 
deserve your service to be honored with a headstone like 
everybody else. Same thing with historical military service.
    So I appreciate what you are doing. I would just urge you 
to continue to work on it and we will continue to pursue 2018. 
I hope to find a success in your regulation rewrite and just 
acknowledge that it is fixed and not have to pursue it in the 
end. But I will continue to pursue it as long as we have to.
    Mr. Powers. Okay. Thank you.
    Mr. Stivers. Thank you.
    And I have one more question. I only have seven seconds 
left. But, Mr. Hallinan, your predecessor, Ms. Condon, was 
really helpful on a bill that we passed out of the House last 
year, the Place of Remembrance, H.R. 5738 or 35, which would 
deal with the fragments that are unidentifiable by DNA test, to 
give them a final resting place that honor their service.
    You know, she said that they would work to try to get that 
done. I hope that work is continuing because we do still 
continue to have fragments of our military folks who served 
honorably where they are unidentifiable and I want to make sure 
that they have a final resting place deserving of the service 
and sacrifice of those military members.
    And so, you know, an ossuary is a good idea. I know you 
have been working on it. We would love for that to continue to 
take place. And I think we still have, you know, an active 
conflict going on in Afghanistan where every day we have 
unfortunately unidentifiable fragments of our soldiers, 
sailors, airmen, and marines. And I would like to continue to 
urge you to work on that.
    And it is unfortunately shameful that and the Dover 
military report documented that there were fragments of our 
military members that were put in the St. George's Landfill. 
And we need to make sure that never happens again and that 
there is a resting place for this conflict and future conflicts 
immediately and an ossuary, you know, is an acceptable 
solution. And I hope that you will pursue it. And, you know, we 
are willing to do it again in statute if we have to, but I do 
not think that is necessary given that I think you are pursuing 
what your predecessor started. And I would just love you to--
and I know I am way over. I appreciate your indulgence, Mr. 
Chairman--if you could just tell us if that is something you 
are continuing to work on.
    Mr. Hallinan. Well Mr. Congressman, I am very pleased to 
tell you that we have continued to aggressively look into the 
design and construction of an ossuary at Arlington National 
Cemetery. We are in agreement that it is an appropriate venue 
and place at Arlington. We have looked at a number of designs. 
We have identified a number of locations that will not take 
burial space away, active burial space away. So we are in 
support and agreement. And we have sent those recommendations 
up to Headquarters of the Army.
    Mr. Stivers. Thank you, Mr. Hallinan. And I will continue 
to weigh in with them, too. But thank you.
    Mr. Hallinan. You're welcome.
    Mr. Stivers. Thank you, Mr. Chairman. I yield back my 
nonexistent time and appreciate your indulgence.
    Mr. Runyan. Thank the gentleman. I recognize the gentle 
lady from California, Ms. Negrete-McLeod. No? Mr. O'Rourke?
    Mr. O'Rourke. Thank you, Mr. Chair. And I would like to 
follow the line of questioning initiated by Mr. Stivers. And 
Mr. Powers, if you could include applications on behalf of 
active Reservists who were killed? There is a case in El Paso. 
I represent the family of Angel Garcia, who was an active 
Marine Reservist, a police officer who was killed in the line 
of duty. And the family made an application for him to be 
interred and memorialized at Fort Bliss National Cemetery. That 
was denied. And I can understand the logic from NCA's part, but 
I also understand the request on behalf of the family.
    So I do not necessarily want to get into the details of the 
case right now. But if you could just include that in your 
review process? And I just wanted to raise that specific 
family's case, you know, in this hearing and put it on your 
radar. Because it is an issue that we would like to follow up 
with you on going forward.
    Mr. Powers. Congressman, thank you for your question. It's 
probably better to talk about most of the aspects of that case 
between my staff and yours, just so we can discuss it. But I do 
need to distinguish the case as I know it. Because what 
Congressman Stivers has asked us to do, what we share with him 
as goal to do, is to correct with the new rewrite of the 
regulations an issue that deals with providing a benefit to an 
eligible individual, whether that person was eligible because 
of their Civil War service, or that person was eligible because 
of their World War II service. It does not matter.
    Mr. O'Rourke. I'm sorry, let me interrupt you. Because I 
have very limited time and I want to make sure that I get to 
some other issues that are really important for the community I 
represent.
    Mr. Powers. Okay.
    Mr. O'Rourke. I think my intention was just to broaden the 
review of eligibility and the application process. And if that 
is not possible, I specifically want to bring up the case of 
Angel Garcia with your and their family. So----
    Mr. O'Rourke. --I just wanted to register that with you.
    Mr. Powers. Okay.
    Mr. O'Rourke. A really important issue for the community I 
represent is Fort Bliss Cemetery. A deeply unpopular decision 
that the NCA made was to xeriscape that cemetery, remove all of 
the grass, put in gravel, rock, and dirt. And it is a very 
unwelcoming place for many families to visit and commemorate 
the service of their loved ones. And I do not want to go into 
how or why the decision was made. What I want to work with you 
on is how we improve that situation there. I want to know what 
we can do on an interim basis to beautify it, to make it a 
little bit more hospitable for visitors to the cemetery. I want 
to find out what we can do as a community to work with you 
perhaps to raise funds privately and dedicate those funds to 
the improvement of the cemetery. We understand from you that it 
will cost somewhere between $11 million to $14 million to 
regrass that cemetery, one of only three in the country that 
has been xeriscaped. It is a priority of ours and our office, 
it is a priority of the community. But it is very expensive. 
And it competes against a number of other priorities for 
veterans in El Paso.
    So I want to find out what creative, constructive ways we 
can work together to address that issue. And so I guess one of 
the things that I would like to ask you is when can we get some 
detailed plans from NCA to initiate some kind of planting 
effort so on an interim basis we can beautify that cemetery and 
make it a little bit better for those who are visiting the 
remains of their loved ones?
    Mr. Powers. Congressman, I have a new network director who 
is responsible for the region. Essentially I guess you could 
quickly describe it as the Rocky Mountain Region. And he is 
visiting in the next two weeks, I believe, around the 15. His 
deputy has already been down there to look at the foliage 
issues. And I have told him to try to make the oldest sections 
that were converted of the cemetery look like the other 
sections of the cemetery that were expanded.
    As you know, when we made the decision to xeriscape, or use 
water wise landscaping for the cemetery, based on 
recommendations that came from a Congressionally mandated 
report to Congress. Because water wise landscaping was 
determined to be the right option for Fort Bliss National 
Cemetery, we converted the older part of the cemetery, and then 
expanded the newer part of the cemetery using water wise 
techniques. In the expansion part, the foliage, the drip 
irrigation systems, and the native plants look good. We would 
work with your staff to look at some of the other sections of 
the cemetery that were converted from turf to the water wise 
landscaping, the decomposed granite, and to try to make those 
look as good as the newer sections that contain native plants 
and vegetation. We should know within the next month and be 
able to sit down with your staff with some plans to review the 
cemetery landscape and determine how we plan to add foliage to 
make the landscaping consistent.
    Mr. O'Rourke. I appreciate that and I know my time is 
expired. Let me just register our community's interest in 
rectifying this problem. Nobody wants to kneel on gravel when 
they are visiting a gravesite at Fort Bliss. When you go to 
Arlington, which is just absolutely beautiful and lush by 
comparison. I don't know that we need to have Arlington in El 
Paso, but we should have something that somehow commemorates 
the level of sacrifice, the level of respect owed to those who 
gave so much to our country and to their families who also 
sacrificed as well. So we want to work with you in any and all 
ways to improve that situation. But it is certainly a priority 
for our community and I appreciate your willingness to work 
with us on that. And with that, Mr. Chairman, I will yield 
back.
    Mr. Runyan. I thank the gentleman. I recognize Mr. Daines.
    Mr. Daines. Thank you, Chairman Runyan. And thank you for 
inviting me to be part of this important hearing, and for your 
leadership on these issues. I also want to thank Ranking Member 
Titus for bringing up the issues of the western states. I 
represent the State of Montana and Ranking Member Titus, there 
are four members there in Nevada. I am the lone person here for 
the State of Montana. I am an at large member. In fact, if you 
want to put it in perspective you can put Washington, D.C. in 
the southeast corner of my state, you can put Chicago in the 
northwest corner of my state, and that's the district I 
represent. So I am glad you are voicing for these western 
states that have a lot of difference between telephone poles, 
as we say out there.
    We also have one of the highest per capita veteran 
populations in Montana. Typically we are in the top three. And 
I am here today because of these very troubling stories that 
have come my way and come to my attention from the veterans in 
my home State of Montana. At the Yellowstone County Veterans 
Cemetery, it is in Laurel, Montana just outside of Billings, 
just this year alone there are eight veterans who have been 
buried that have no grave marker. In each of these eight cases 
all of the proper proof of service was presented, but they were 
denied. The VA explained that with the exception of State or 
National Cemeteries all requests for a headstone must be signed 
by the veteran or the veteran's next of kin.
    Now we have groups, veteran groups back home, like Missing 
in America, the Patriot Guard Riders, they stand ready to honor 
these veterans and have done so in the past. But because of 
this revised policy, I think Mr. Powers mentioned from 2009, 
they can no longer provide a headstone to help honor the 
service and sacrifices of our veterans.
    I am the son of a U.S. Marine. And I was taught very early 
on the importance of service and sacrifice. But also the 
importance of honoring these veterans who have served their 
country honorably. And the lack of justice that we see here 
upon their passing. And I understand that we want to fulfill 
the wishes of the veterans and make sure their final resting 
place does not include any markings that a veteran would not 
want. But surely we should not have a policy so inflexible that 
it is essentially prohibiting well meaning veteran groups and 
historians from honoring veterans who may be unaware of these 
rigid VA requirements.
    I would like to bring your attention and submit for the 
record a letter from the American Legion of Montana. As noted, 
there is an estimated 200,000 homeless veterans in this 
country. Last Friday I was back home in my state. I was at the 
Helena homeless veterans facility there, the Cruse facility 
where we have 12 beds there for homeless veterans who by the 
way the good news all of them were out working that day, but 
there is a place for them to come home at night because they 
are homeless. And this VA policy is especially detrimental to 
those who had no close family members, nobody to claim them 
when they pass. In fact George Blackard, who is the Commander 
of District 11 American Legion of Montana, and this is the 
letter I am submitting for the record, he says it so much 
better than I could ever say it in his letter. He says, ``A 
veteran may die with no next of kin, but a veteran will never 
die without a family. Every veteran brings to one family, our 
family, and that is over 23 million veterans strong.''
    Every day I think as we serve in this job in Washington and 
we have a chance to recite the Pledge of Allegiance at the very 
end we say, ``Liberty and Justice for All.'' And I sure hope we 
can bring justice to these veterans who do not have a big voice 
up here in Capital Hill, these homeless veterans. We want to be 
a voice for that.
    So my question, and Mr. Powers I am glad to hear you are 
revising that policy, and I am glad to be a cosponsor of the 
gentleman from Ohio, Mr. Stivers' bill here that will address 
this. But how long is this going to take to remedy what I 
believe is a great injustice to our veterans who are homeless, 
who cannot, who do not have next of kin? I am glad to see you 
are working on it. How long is this going to take?
    Mr. Powers. Thank you for your question, Mr. Daines. We are 
actively engaged in the process. As I described, all of the 
senior leaders in the National Cemetery Administration recently 
met to review the documents to get it done. And the one thing 
also we want to do is certainly engage the 60-day public 
comment process. Because we may have missed something and it 
provides the opportunity to get input from the veterans service 
organizations on what would not work for them. Because our goal 
is the same.
    Mr. Daines. Mm-hmm.
    Mr. Powers. And the cases you cite out of the Yellowstone 
County Veterans Cemetery that we recently became aware of 
illustrate a whole other aspect of the issue. Some people think 
it is just looking at historical veterans headstones. No, we 
are looking at some current issues happening today and we need 
to fix it. And so we are going to get it fixed. With the rule 
making process and a 60-day comment period.
    Mr. Daines. Right.
    Mr. Powers. --address the comments.
    But I have also talked about the specific incidences at 
Yellowstone.
    Mr. Daines. Mm-hmm.
    Mr. Powers. And we are working to remedy that before we 
fully implement the regulation, if we can make that happen.
    Mr. Daines. I would appreciate----
    Mr. Powers. Because the intent is clear.
    Mr. Daines. No, you, yeah----
    Mr. Powers. It was unintended.
    Mr. Daines. Your heart and head are in exactly the right 
place in that. We want to work together in this. But, you know, 
as you mentioned, this goes beyond some of the Civil War 
veterans. These are homeless vets that, you know, have had a 
story here maybe of hardship towards the end of their life. And 
they are homeless and they do not have any next of kin. And I 
also appreciate the fact that we need to have good process and 
procedure, respectful so that the right honors are given. But 
if we cannot trust the American Legion to be a proxy, to be 
that family, then who can we trust?
    And so I would, I appreciate first of all if you bring 
remedy to this issue in Yellowstone County. And let me just go 
back to the original question. Can you give me a rough 
timeframe? Because I would love to see Congressman Stivers' 
bill not be necessary here. That we do not want to remedy this 
through a congressional action. Let us get this done at the VA.
    Mr. Powers. Congressman, as quickly as possible. I am an 
operator and I have to work with our administrative people. And 
we do need to factor in the 60-day comment period. It is moving 
along.
    Mr. Daines. Okay so----
    Mr. Powers. We have really focused on it.
    Mr. Daines. So if there is a 60-day comment period, let me 
just try to, and I will not pin you to a specific day. But give 
me a range. Are we looking at something, are we weeks, months, 
a year? When will this be corrected do you think?
    Mr. Powers. I think it will be corrected early next year.
    Mr. Daines. Early next year? Within the first quarter?
    Mr. Powers. We are going to try to get it done, 
Congressman.
    Mr. Daines. Okay. I would----
    Mr. Powers. With all the procedures that are involved in 
rule making we are trying to push that through, yes.
    Mr. Daines. Okay----
    Mr. Powers. But if there is one thing I could say, it is we 
have recognized the issue. It has been brought up to us. We 
need to make the fixes. And it needs to be done correctly so we 
do not have to fix it again.
    Mr. Daines. Right. I appreciate it. Well I will look 
forward to working with you on that. And if there is anything 
you can do to remedy perhaps these eight homeless vets that 
need proper burial in Yellowstone County, I will do everything 
I can here to maybe fast track that as empirically working on 
fixing the process.
    Mr. Powers. Okay. Thank you, Congressman.
    Mr. Daines. Thank you.
    Mr. Runyan. Thank the gentleman. And gentlemen, on behalf 
of the Subcommittee I thank you for your testimony. I look 
forward to working with you. The Chair now recognizes Ms. 
Brooks.
    Mrs. Brooks. Thank you, Chairman Runyan. And I apologize. I 
am chairing another Subcommittee hearing for Homeland at the 
current time. But I do want thank Chairman Runyan and Ranking 
Member Titus for allowing me to be a part of this hearing 
today.
    I wish I could be joining you under better circumstances. 
But unfortunately I am here today to shine a light on a grave 
injustice that has greatly impacted my district in Indiana. Mr. 
Chairman, as you may have heard on May 30, 2012 Michael 
Anderson shot and killed Alicia Dawn Koehl and severely injured 
three others at an apartment complex in my district. Anderson 
was a deranged Army veteran who took his own life after his 
horrific shooting spree. Unfortunately, Anderson was 
subsequently buried in a veterans cemetery with full honors 
despite Federal law explicitly forbidding the VA from interring 
anyone who has committee a capital crime, including those never 
formally convicted. Let me repeat that to be clear. It is 
currently the law of the land that veterans who commit capital 
crimes cannot be buried next to our brave men and women who in 
some cases gave the ultimate sacrifice to our Nation.
    The NCA did make a mistake by burying Mr. Anderson in a 
veterans cemetery, plain and simple. And at the request of 
Alicia's family, some of whom are here, and friends, Senator 
Coats and I began working on this case to rectify the mistake 
made by the NCA. On August 5, 2013 I received a letter from the 
VA saying they lacked the legal authority to disinter the body 
because it was in violation of Title 38 of the U.S. Code. I ask 
unanimous consent to have that letter inserted into the record.
    Mr. Runyan. So ordered.

    [The attachment appears in the Appendix]

    Mrs. Brooks. I do not bring up this issue as an exercise in 
semantics. This has severely affected the family of this victim 
and communities throughout my state. Alicia was not only a 
mother of two and a loving wife, but she was a Girl Scout 
leader, a volunteer of the year at her kids's school, she was 
an active member of her church. Her killing has left a hole in 
the community. And the fact that Mr. Anderson was afforded a 
full military burial in spite of committing an egregious crime 
has just compounded the injustice felt in our state.
    Mr. Chairman, I have heard from many constituents 
throughout my district, including someone who came here to 
visit our Nation's capital with school kids during the 
shutdown, how much Alicia meant to them. However, I thought it 
best to let Paul Koehl, the widower of Alicia, write a 
statement about who Alicia was, how she touched people's lives, 
and how this incident has affected him and their two children. 
And I now ask unanimous consent to have that letter entered 
into the record.
    Mr. Runyan. Hearing no objection, so ordered.
    Mrs. Brooks. Mr. Chairman, luckily we can do something 
about this. We can bring closing to mourning Hoosiers and 
ensure that something like this does not happen again. That is 
why every single member of the Indiana delegation has come 
together in support of my legislation in both the House, and 
there is a similar bill in the Senate which gives the VA the 
needed authority to reconsider the interment of veterans who 
may have committed capital offenses. While the bill would only 
apply to those buried after this bill is hopefully pass it does 
specifically disinter Michael Anderson. Once again, we are not 
asking for anything new here. We are just trying to give VA the 
opportunity to correct mistakes that were made. We have 
actually worked closely with them to help craft this 
legislation. Mr. Chairman, I encourage you to take a look at 
this legislation and see if it is something that you can I can 
work on passing through this committee. And with that I just 
have a couple of questions for the panel.
    Mr. Runyan. Please.
    Mrs. Brooks. One of the letters, and this is to Mr. Powers, 
that was sent it was stated that the VA finds that the NCA 
followed its regulatory process because the decision was made 
based on the information known at the time of the burial 
request. Can you please share with me the vetting process you 
determine if a veteran is eligible for burial in one of your 
cemeteries?
    Mr. Powers. Congresswoman, to determine if a veteran is 
eligible, and I will start out at the larger scale, we look at 
discharge documents in order to determine if the individual is 
eligible based on whether the service was of the correct 
character to gain basic eligibility. We completed these steps 
through a scheduling office in St. Louis. It is a centralized 
scheduling office. It has worked very well. And families and 
funeral directors call that number so that they could quickly 
schedule interments for eligible veterans. Usually veterans 
keep their discharge documents with them. They have been told 
to do so over a long period of time, have your discharge 
documents available, and families have them. When they do not, 
we are able to expedite our process and go directly to the 
sources for those discharge documents once we get them, we can 
make a basic eligibility determination. This process, in most 
cases, gives the veteran the benefit if they are eligible.
    I think your question goes to the second part of the 
process, which determine those individuals who should be barred 
because of the law from being buried in a national cemetery.
    Mrs. Brooks. And the law is clear that a capital crime 
bars----
    Mr. Powers. Yes----
    Mrs. Brooks. --such whether they are convicted or not, is 
that correct?
    Mr. Powers. That is correct. And because of the case you 
refer to let me go into a little bit more detail. If there is 
no conviction because the person escaped conviction because of 
their own death NCA is supposed to determine if they would have 
been convicted. We have to consult with department lawyers in 
the different states to determine whether it was a state 
capital crime or a Federal capital crime. At the point of 
determining whether a veteran is eligible, our screening 
process is to ask during the initial call if the individual 
committed a capital crime. That is our initial screening 
process. We get answers to those questions, and, based on the 
answer, we go through the process of making a determination.
    Also, at our facilities nationwide, we have staff members 
who are members of the community. They listen to the news. They 
have been told if they see a newspaper report, or that the TV 
news talks about a veteran or military service, bring it in, 
and we will conduct further investigation. We are also 
screening the media at a nationwide level to try to gather 
information.
    The incident you are talking about, one of the difficulties 
of that interment was the crime happened in Indianapolis. The 
veteran's family lived in Southern Michigan. So the call was 
made from a funeral director in Southern Michigan and Mr. 
Anderson was interred at Fort Custer National Cemetery in 
Michigan.
    Mrs. Brooks. And so it is your testimony that actually the 
authorizer to allow the interment would have asked the family 
or the funeral director would have actually made the 
affirmative ask as to whether or not Mr. Anderson had been 
convicted of any crimes? Is that correct?
    Mr. Powers. Our investigation confirms we did ask the 
question. The answer to the question in this case was ``no'' by 
a funeral director who actually did not know. He said no. It 
was a Michigan funeral director.
    Mrs. Brooks. And so I assume that NCA and the VA would 
acknowledge that a mistake was made because this was something 
that could have easily been determined had anyone done a Google 
search, or had there been anything that had, whether or not you 
look at all, when you say a nationwide outlook, and I 
appreciate this was in another state. However, it is a 
contiguous state. But obviously there is no independent search 
besides the affirmation by the family or the funeral service? 
There is nothing else that is done, correct?
    Mr. Powers. We are doing those nationwide Internet searches 
to try to determine those parential cases. I will tell you that 
I retrospectively pulled up some of the Internet articles on 
the shooting spree at the apartment complex. Not all of them 
mentioned that Mr. Anderson was a veteran or had military 
service. One of them did, but about three or four of them had 
no indication of his military service. One of the things that 
we need to preserve as we inter 124,000 veterans every year is 
to watch out for those potential cases and develop a system 
where we could bar individuals who should be barred, but still 
not make it cumbersome for the family that is trying to bury a 
veteran and they are sitting in the funeral home with an 
unexpected death and just trying to get their loved one 
scheduled in the next two days.
    Mrs. Brooks. And I appreciate all the efforts that you do 
take. But when the rare occasion happens when a mistake was 
made, as it was made in this case, has the, have you considered 
promulgating rules that would reconsider the interment of 
veterans? Because it is our understand and what our bill is 
trying to do is to allow a disinterment when a mistake is made. 
Have you considered promulgating rules to correct a horrible 
mistake such as the one that was made here?
    Mr. Powers. We considered that and determined we could not.
    Mrs. Brooks. Okay and----
    Mr. Powers. And so therefore we provided you technical----
    Mrs. Brooks. It would take a legal fix----
    Mr. Powers. We provided you technical assistance. At the 
request of the Senate Veterans' Affairs Committee the VA is 
testifying today on Senator Coats' bill which is the companion 
bill to your own. These bills would provide the reconsideration 
authority for those types of interment decisions.
    Mrs. Brooks. Okay. And I appreciate that mistakes are made. 
But I am just so very sorry that the Koehl family has had to 
live with this for the past year. And they have veterans in 
their families as well, and so this has taken on an even 
greater level of pain for that family. And so we appreciate 
your work with this. And hope that we can work with the 
Committee to try to pass this law.
    Mr. Runyan. We look forward to working with you on that.
    Mrs. Brooks. Thank you very much and I yield back.
    Mr. Runyan. Thank the gentle lady. Gentlemen, again on 
behalf of the Subcommittee I thank you for your testimony. And 
we look forward to working with you on these important matters 
and you are now excused from the witness table.
    At this time we welcome our second panel to the witness 
table. I welcome our second panel. The panel consists of Mr. 
Todd Kleismit, Director of Community and Government Relations 
for the Ohio Historical Society; Mr. Ray Kelley, Director of 
National Legislative Service of Veterans of Foreign Wars; and 
Ms. Ami Neiberger-Miller, Director of Outreach and Education 
for the Tragedy Assistance Program for Survivors; and Ms. 
Zumatto from AMVETS, who is not on my script. But we all 
appreciate your attendance here today. And your complete and 
written statement is entered into the hearing record. And Mr. 
Kleismit, you are now recognized for your oral testimony.

STATEMENTS OF TODD KLEISMIT, DIRECTOR OF COMMUNITY & GOVERNMENT 
  RELATIONS, OHIO HISTORICAL SOCIETY; RAY KELLEY, DIRECTOR OF 
  NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS; AMY 
 NEIBERGER-MILLER, DIRECTOR OF OUTREACH AND EDUCATION, TRAGEDY 
    ASSISTANCE PROGRAM FOR SURVIVORS; AND DIANE M. ZUMATTO, 
             NATIONAL LEGISLATIVE DIRECTOR, AMVETS

                   STATEMENT OF TODD KLEISMIT

    Mr. Kleismit. Good morning, Chairman Runyan, and Members of 
the Subcommittee. It is a privilege to be with you today at 
this important hearing on dignified burials for military 
veterans. I thank you for the opportunity. I myself am an Army 
veteran of Operation Desert Storm and appreciate the attention 
you are giving to this topic which affects a large number of us 
in Ohio and elsewhere.
    I am here today speaking on behalf of the Ohio Historical 
Society and several other organizations that were negatively 
impacted by a Department of Veterans Affairs recent change that 
requires that all applications for new veterans headstones be 
the decedent's next of kin. History organizations like mine and 
veterans organizations, high school teachers, genealogists, 
archivists, county veterans organizations, funeral 
professionals, and others were until recently able to apply for 
VA headstones. So why would all these groups want to apply for 
these headstones?
    I can tell you that their voluntary commitment and 
patriotism are the ingredients for the kind of American success 
stories at a time when our country desperately needs success 
stories like these. There are countless unmarked graves where 
military veterans are buried in our mostly older cemeteries 
across the country. I am aware of research that has been done 
on veterans as far back as the Revolutionary War who were 
buried in unmarked graves in Ohio. During the current 
sesquicentennial of the American Civil War the Ohio Historical 
Society and several of our other partners across Ohio had been 
engaged in researching and verifying the remains of Civil War 
veterans, applying for VA headstones, and concluding with a 
public ceremony to honor those veterans buried but never fully 
recognized in Ohio.
    Paul LaRue, who is a teacher in rural Ohio, has made Ohio's 
unmarked graves an annual school project since 2002. Paul has 
won several teacher of the year awards because he is an 
outstanding educator and because of his unmarked graves 
projects his students have conducted. Paul has submitted 
separate testimony complete with photos and case studies, and I 
encourage you to read it if you have not already had the 
opportunity to do so.
    I think it is important to also consider the context of the 
life experiences of these people from our past, particularly 
our Civil War veterans. Many of them were poor, ethnic 
minorities or African American. Most likely they were buried in 
unmarked graves because they did not have family or the 
resources for a proper burial in the late 19th Century or 
perhaps the early 20th Century.
    We are now about seven generations removed from the Civil 
War era. And you know, sometimes, well, why should we care? And 
these burial ceremonies are kind of the ultimate in civic 
engagement, applied learning, civics, genealogical research, 
and history lessons all wrapped together in one package. I have 
seen at these ceremonies the tears flow. I have felt the chills 
when ``Taps'' is played. So why should we care is not the right 
question. Instead should we not be celebrating the fact that 
21st Century citizens care enough to look back, in the case of 
our Civil War veterans seven generations, to recognize the 
service of others?
    The Department of Veterans Affairs Headstone Program is, we 
think, very good public policy when it is accessible to the 
public, many of whom are volunteers who are more than willing 
and happy to conduct the necessary research required. And it is 
one small way that our Federal government can work 
collaboratively with communities to humanize its work.
    So we were disappointed of course when the VA policy was 
changed proscribing that headstone applicants must be the 
decedent's next of kin. As mentioned earlier we are about seven 
generations removed from the Civil War era. It is completely 
reasonable and appropriate to seek out veterans' next of kin 
whenever possible. Unfortunately, this is seldom possible. When 
it became evidence that our concerns and suggested remedies to 
this policy were not getting serious consideration by the 
department's leadership we then communicated this to Members of 
the Ohio Congressional Delegation. We appreciate their support 
which has led to Congressman Stivers' legislation on this 
topic.
    So this legislation would reopen the door to history and 
military researchers, genealogists, local historians, and state 
veterans agencies to be applicants for these headstones. It 
would also align the department's application policy with the 
archival records policy at the National Archives and Records 
Administration for requiring military records which do not 
require next of kin authorization for records dating back 62 or 
more years ago. The Civil War Trust and others have created a 
Web site, marktheirgraves.org, that explains the next of kin 
dilemma and has collected many signatures online. I am also 
including an article with my testimony that was published 
online on September 11th.
    While I take a certain amount of pride in the fact that 
Ohio has a slightly higher percentage of military veterans than 
the Nation at large there is no reason to believe that this 
issue is not just as important in New Jersey, California, 
Texas, Florida, Colorado, Nevada, and elsewhere.
    I conclude by thanking you again for the opportunity to be 
here today to express our concerns about this policy relating 
to next of kin and having the opportunity to fix it one way or 
the other. Thank you.

    [The prepared statement of Todd Kleismit appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Kleismit. And with that I 
recognize Mr. Kelley for five minutes.

                    STATEMENT OF RAY KELLEY

    Mr. Kelley. Thank you, Mr. Chairman and Ranking Member 
Titus for holding this hearing today and inviting the VFW to 
take the opportunity to testify regarding National Cemetery 
Administration.
    The VFW supports H.R. 3106, the Alicia Dawn Koehl Respect 
for National Cemeteries Act, which would codify the authority 
of the Secretary of the VA and DoD to reconsider prior 
decisions of interments in national cemeteries. It is important 
for our cemeteries to maintain their sanctity. This bill 
ensures that happens.
    From October 18, 1978 until October 31, 1990, VA paid 
headstone and marker allowances to surviving families for 
purchase of private headstones and markers on behalf of 
veterans who were interred in private cemeteries in lieu of VA 
providing a government funded headstone or marker. This benefit 
was eliminated on November 1, 1990. So from November 2, 1990 
through September 11, 2001, VA paid no assistance in the 
purchase of a private headstone or marker for veterans who 
qualified for interment in a national or state cemetery. 
Between 2001 and 2006 as a pilot program VA provided government 
headstones and markers to qualifying markers regardless of 
whether or not they had a privately purchased headstone. In 
2007 VA made this program permanent and included a medallion as 
an alternative option to a second headstone or marker and made 
it retroactive to November 1, 1990. This has allowed qualifying 
veterans to receive some form of headstone or grave marker 
benefit since its inception of the benefit in 1978.
    Unfortunately this benefit has started, stopped, and 
changed enough times that it has become confusing to veterans 
and surviving families. Many do not understand why they do not 
qualify for the medallion, leaving the November 1, 1990 date as 
just an arbitrary starting point for a new benefit. Many of the 
veterans who call the VFW state that they would be willing to 
purchase the medallion if VA made them available. Based on 
these conversations the VFW would support a pilot program that 
would allow next of kin of the veteran who would otherwise 
qualify for the medallion except for his or her date of death 
to submit a request for purchase of the medallion.
    NCA must maintain its commitment and appearance to national 
cemeteries. Regardless of customer surveys that rate 
appearances at cemeteries as excellent, the actual appearances 
are in decline. There are three performance measures that 
evaluate the overall appearance at national cemeteries. The 
results of these performance measures have held steady the past 
several years but have continually fallen short of their 
strategic goal. The most concerning aspect of these goals is 
the VA predicts a decline in its performance measures in its 
fiscal year 2014 budget submission. VA must maintain its focus 
on ensuring our national cemeteries continue to honor the 
service and sacrifice of our veterans. VA must request and 
Congress must appropriate specific funds for the National 
Shrine Commitment to ensure these performance measures are met.
    Access to burial options must continue to be a priority for 
NCA. The VFW has supported the NCA policy of providing burial 
options for 95 percent of all veterans within 75 miles of their 
homes. In fiscal year 2011 NCA recognized that under the 
current, the then current threshold of 170,000 within a 75-mile 
radius no new locations would be eligible for veterans 
cemeteries. NCA reduced the threshold to 80,000 veterans within 
75 miles allowing burial options for an addition 550,000. That 
same year they began the urban initiative and this has allowed 
NCA to purchase property in densely populated areas where 
veterans live within 75 miles but due to actual travel times is 
not considered accessible.
    In its fiscal year 2013 budget VA introduced a new burial 
option, the National Veterans Burial Grounds. This will allow 
NCA to increase access to burial options for veterans who live 
in remote, low veteran populated areas that do not have 
reasonable access to national or state cemeteries.
    NCA has shown initiative in striving to meet the goals of 
burial options, but NCA must continue to be flexible enough in 
their policies to recognize locations where under current 
policy no new national cemetery will be developed but other 
factors like geographic barriers, or states that have invested 
in state cemeteries but have not been granted a national 
cemetery, must be considered. These policies work to ensure the 
largest number of veterans have access to the veterans 
cemeteries but there are occasions where the desires of 
veterans must be included in this decision process.
    Mr. Chairman, this concludes my testimony. I look forward 
to any questions you or the Committee has.

    [The prepared statement of Ray Kelley appears in the 
Appendix]

    Mr. Runyan. Thank you, Mr. Kelley. I now recognize Ms. 
Neiberger-Miller for her five-minute testimony.

               STATEMENT OF AMI NEIBERGER-MILLER

    Ms. Neiberger-Miller. Thank you. I am pleased to submit 
this testimony on behalf of TAPS, the Tragedy Assistance 
Program for Survivors. I am the Director of Outreach and 
Education and the surviving sister of Army Specialist 
Christopher Neiberger, who was killed in action in Iraq in 
2007. TAPS is a nonprofit organization that provides comfort 
and care to anyone grieving the death of someone who died while 
serving in our armed forces, regardless of where they died or 
where they died.
    The Subcommittee has asked for our opinion on several 
matters. Regarding the Volunteer Veterans for Cemetery Service 
Act. We appreciate the legislation's intent to provide 
educational programs that would allow veterans to share their 
military service.
    Regarding the Honor Those Who Served Act of 2013, which 
permits historians, genealogists, state veterans agencies, 
researchers, and others to request headstones or markers for 
veterans gravesites, we are pleased to support this 
legislation. We would appreciate the attention of the 
Subcommittee and VA staff on delays in payment for burial 
allowances. The number of pending burial allowance claims is 
currently more than double what it was four years ago, with 
45,671 pending claims as of September 30th. While these 
benefits do not route through the National Cemetery 
Administration, the delay in their delivery hurts families by 
forcing them to hold off on settling estates and impacts their 
impressions of the VA and the National Cemetery System.
    At Arlington National Cemetery, which has undergone recent 
leadership changes, TAPS supported surviving families who were 
upset about changes in the enforcement of the floral policy in 
Section 60 where more than 800 of those who gave their lives in 
Iraq and Afghanistan, including my brother, are buried. The 
cemetery staff began consistently removing mementoes, rocks, 
photos, pictures attaches to headstones, and other items in 
late July. For more than four years families in Section 60 have 
been granted leniency and the floral policy was not enforced as 
rigorously. During an emotional meeting a few weeks ago with 
the Superintendent families talked about how being able to 
leave items and photos helped them cope as they move forward in 
their lives today. The Superintendent apologized to the 
families for the pain this has caused them and for a lack of 
communication, and the cemetery staff worked to identify 
flexibility within their existing policies. And a few days 
after the meeting they notified families that they would be 
allowed to leave small mementoes at gravesites without fear of 
immediate removal for the six months when existing regulations 
permit artificial flowers.
    We realize that the cemetery must maintain a level of 
decorum and propriety. At the same time, mourning practices 
today are very different than those of many years ago. And 
these families are often grieving deaths of very young people 
in an ongoing conflict. There is no memorial for them. We are 
concerned about what will happen after April 15th if weekly 
cleanups resume and no additional policy accommodations can be 
reached beyond what is in place today. We are very hopeful that 
the cemetery will continue to engage with the families and that 
the advisory committee for the cemetery will consider the needs 
of these families as it makes decisions about the floral 
policy. As we mentioned in April, no survivor has served on 
that committee since Janet Manion's death in 2012 and we hope 
that the stakeholder group could be represented.
    We would also again like to bring your attention to the 
limitations of the Corey Shea Act. This permits a surviving 
parent to be interred with a veteran in a national cemetery if 
no eligible spouse or child exists in cases where the veteran 
died in action or from a training related injury. 
Unfortunately, some surviving parents are not eligible because 
their child did not die in action or in a training accident, or 
because their loved one is buried at Arlington National 
Cemetery. We hope that Subcommittee will consider expanding 
eligibility for these surviving parents, or consider modifying 
the waiver request process which would offer an alternate route 
for these parents. Unfortunately, neither the National Cemetery 
System nor Arlington National Cemetery can make a decision on a 
waive until a person has died, which offers no comfort to these 
hurting parents. This is an areas where your attention could 
make a difference for some who are suffering and have 
sacrificed so much for their country.
    Thank you for the opportunity to submit our testimony and 
we welcome any questions.

    [The prepared statement of Amy Neiberger-Miller appears in 
the Appendix]

    Mr. Runyan. Thank you, Ms. Neiberger-Miller. And next I 
recognize Ms. Zumatto for her testimony.

                 STATEMENT OF DIANE M. ZUMATTO

    Ms. Zumatto. Good morning Chairman Runyan, Ranking Member 
Titus, and distinguished Committee Members. I am pleased to sit 
before you once again on behalf of AMVETS to share our praise 
and concerns related to the National Cemetery Administration 
and the dignified burial of all American veterans.
    The most important obligation of the National Cemetery 
Administration is honoring the memory of the brave American men 
and women who have over the course of our Nation's history 
selflessly served in our armed forces. It is with this sacred 
duty in mind that AMVETS encourages the highest levels of 
stewardship, accessibility, and preservation of our entire NCA 
Cemetery System as well as Arlington National Cemetery. AMVETS 
believes that the dignified burial of America's veterans is as 
important as any other service provided by the VA. Therefore, 
AMVETS supports extending advanced appropriations to the 
remainder of the discretionary and mandatory programs, 
services, and benefits accounts of the VA. This issue of 
advanced appropriations is at the top of our list of concerns 
regarding all VA operations.
    As the recent government shutdown has without a doubt 
proven, advanced appropriations not only work, they work well. 
While other critical veterans services were delayed, disrupted, 
and/or suspended, thanks to their advanced funding VA hospitals 
and clinics were able to continue funding uninterrupted care to 
our veterans. NCA would benefit by the extension of advanced 
appropriations by permanently preventing the interruption of a 
variety of burial and memorial services, including limited and/
or delayed interment schedules, stoppage of administrative 
services, interruption of grounds maintenance, and the 
inability to provide headstones, markers, medallions, and other 
burial receptacles to veterans and eligible family members.
    AMVETS cannot say enough about the excellent job Under 
Secretary Muro has done during this tenure at NCA in executing 
the important mission of his office, and under his leadership 
with continued funding at appropriate levels he will bring the 
NCA to new levels of distinction in fiscal year 2014 including 
continuing to address increasing workload requirements, 
expanding burial access for veterans and their eligible family 
members, achieving high levels of customer satisfaction, and 
implementing cost savings and operational improvement measures.
    Additionally, AMVETS supports the NCA as they continue to 
make significant progress on several major initiatives 
including land acquisitions and critical master planning 
efforts, especially in rural areas; improving preservation and 
restoration of irreplaceable historic resources which not only 
commemorate the valor and service of our veterans but record 
the very historic fabric of our Nation; continued development 
and utilization of customer service best practices; continued 
leadership in and expansion of the hiring and training of 
veterans; and improvements in environmental stewardship and 
facilities maintenance which are able to leverage resources 
while upholding national shrine standards.
    Finally it is our understanding that a number of 
legislative proposals were submitted with the NCA's fiscal year 
2014 budget request, all of which AMVETS would be willing to 
support.
    This concludes my testimony for today and I would be happy 
to answer any questions you may have.

    [The prepared statement of Diane M. Zumatto appears in the 
Appendix]

    Mr. Runyan. Thank you, Ms. Zumatto. And I will begin 
questions. And my first question actually is for Mr. Kelley. 
You brought up in your testimony talking about the appearance 
and the decline in those appearances at cemeteries. Do you have 
specific conditions and/or individual cemeteries that have been 
brought to the VFW's attention?
    Mr. Kelley. I have not heard reports from the field of 
particular situations. What I used was VA's own documentation 
of their budget submission year to year, which outlines their 
goals and objectives. Six years ago they were at 60-some 
percent, money was appropriated, initiatives were taken. They 
got up to, in the, some of them, there are multiple different 
measures, in the high seventies, low eighties, with a goal 
being 95 percent. In this last budget submission they 
foreshadow that it is going to decrease. I can only assume that 
was because of the lack of funding that is going to those 
accounts.
    Mr. Runyan. Okay. Next question is for Ms. Neiberger-
Miller. In your testimony you highlight the impact of delay in 
the payment of burial benefits from VBA can have on families 
with their experience at NCA. Now obviously we do not have any 
representatives from VBA here and we do have representatives 
from NCA with us. Can you further describe for them the 
hardship many families deal with in their delay? And how do you 
envision a partnership between NCA and VBA would be to address 
the issue?
    Ms. Neiberger-Miller. I think one of the challenges is that 
the perception of families is that these are within the same 
agency and therefore connected. A funeral is held in a cemetery 
and burial benefits are associated with that. We have a case 
right now in our case work department where a surviving father 
filed for burial benefits a month after his son's funeral, it 
was in March of 2012. The claim was initially denied. When he 
questioned that he later found out that VA had actually paid a 
fraudulent claim by mistake from another relative who was not 
involved with the funeral. And VA then said they had lost his 
original claim. He then refiled for his new claim in April of 
this year and has been told he will wait 12 to 14 months for 
those benefits, that it is being treated completely as a new 
claim. And you know, to ask a grieving family to wait two years 
in this case, admittedly a year lost due to the original denial 
and the fraud, to ask a family to wait a year for what should 
appear to be a rather basic benefit, certainly not as 
complicated as a veterans disability claim, you know, does seem 
extremely egregious and difficult for families. Because it 
means they have to hold off on settling estates, they have to 
wait. And this becomes a bureaucracy that they then have to 
negotiate as a grieving person.
    Mr. Runyan. And I have one more question to you because I 
kind of touched on it with the first panel with Mr. Hallinan. 
But your testimony also emphasized the increased need for 
sensitivity training for staff at Arlington National, and that 
TAPS would be willing to assist in such training. What would 
such training entail and how would TAPS go about working with 
it, with NCA to implement something like that?
    Ms. Neiberger-Miller. TAPS would be pleased to help provide 
bereavement training to help support national cemetery staff 
both through NCA and at Arlington National Cemetery. The way we 
would go about setting that up would be to schedule a date, 
talk about some of the needs that the staff would have, the 
types of interactions they are having with families, and even 
some of the challenges that they are experiencing. We work with 
grieving families everyday at TAPS and we are very familiar 
with many of the challenges that come up with that and have 
many protocols and procedures in place through our survivor 
care team and our case work management team to help with 
families who are sometimes struggling and experiencing 
different issues, and just having a hard time. And then we 
would design a training that would meet the needs that are 
there while applying our expertise and our background in grief 
and trauma.
    Mr. Runyan. Are there any specific incidences that actually 
raise your question of that they need actually sensitivity 
training?
    Ms. Neiberger-Miller. Well sir, I think for anyone who 
works with grieving people who have been through a lot of 
trauma, some training is always especially appropriate. Just 
because there are times when families even in a caring 
organizations like ours, which has many survivors on staff, 
where families sometimes have a really hard time. And it is 
hard to know how to respond to that. There have been one or two 
instances where we have heard with families with issues. But 
the majority of people who interface with Arlington National 
Cemetery and the National Cemetery Administration System have a 
positive experience. You know, it is a rare instance when 
something happens. And good training can really help avoid even 
those rare instances.
    Mr. Runyan. Thank you. With that I will recognize the 
Ranking Member Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. Mr. Kelley, I just want 
to recognize before I ask my question that one of your Nevada 
Members, Senior Vice Commander in Chief John Stroud, is 
currently in Vietnam working on a search for comrades who are 
missing in action. I understand they are doing a dig at a crash 
site and so we certainly wish them well and hope they will be 
able to recover some of our missing servicemembers and bring 
them home after such a long time. So thank you and the VFW so 
much for those efforts. We really do appreciate it.
    Mr. Kelley. I will pass on your regard. Thank you.
    Ms. Titus. Thank you. I would just ask you, Mr. Kelley and 
Ms. Zumatto, if the VFW and AMVETS would be willing to help to 
look at the current funding formulas that set up where 
cemeteries go to see if we might need to revisit that criteria 
or that formula to see if we cannot better serve the many 
veterans who are spread out across the West where there are not 
national cemeteries now.
    Mr. Kelley. I would be happy to work with you. To brag on 
the veterans community and on VA, years ago they had just a 
dysfunctional system of where they are going to go. They came 
up with a policy to help organize that. We pointed out over the 
time that there are areas that this just does not make good 
sense. In urban areas, in remote areas that they are never 
going to have anything served. Your veteran ratio is going to 
be too high at some point. All of those things have been solved 
at this point. It has taken time. It has taken effort. It has 
taken communication. I am optimistic that VA can do the same 
thing with the other issues as well.
    Ms. Titus. Well thank you.
    Ms. Zumatto. Anything that, you know, any assistance that 
we can offer in support and, you know, for the vets, and our 
cemetery system, we are happy to work with all stakeholders.
    Ms. Titus. I appreciate that. Because the veterans who are 
located in the West should not be a victim of geography. You 
know, because those are large states and they are spread out. 
There are a number of them there and we need to be sure they 
are served as well. So thank you very much. Mr. Chairman?
    Mr. Runyan. Mr. O'Rourke?
    Mr. O'Rourke. Thank you, Mr. Chair. I want to thank 
everyone who has testified for your testimony and also 
answering the questions so far. And I also want to note for the 
record that the previous panel has stayed, the representatives 
from Department of Defense and VA and their teams, and I think 
that says something about their commitment to continuing to 
improve and ensure that they are listening to you. And taking 
what you have to say into account. So I want to thank them.
    Ms. Zumatto, I want to commend you for making the point 
that we need advanced appropriations for all aspects of the VA, 
including NCA. And that was really, as you pointed out, brought 
home during this last shutdown. And I would be very surprised, 
we are going to check, if there is not unanimous support on 
this Committee. And if there is not, there should be, in terms 
of cosponsorship for the bill that would do just that. And I am 
hopeful that once we are able to get that support here that 
that is something that is supported overwhelmingly in the House 
and in the Senate, and we can get that done. That to me is a 
no-brainer. So thanks for bringing that point home. I think you 
are right on.
    And for Ms. Neiberger-Miller, you know, you talked about 
allowing for greater flexibility at the cemeteries and ensuring 
that there is a level of community input and responsiveness to 
the needs of local communities when it comes to their 
preferences. You may have heard my questioning earlier of Mr. 
Powers about what we can do to improve the situation at Fort 
Bliss Cemetery, where we have a xeriscaped, you know, pretty 
arid environment, uninviting environment for families who are 
coming to visit loved ones who are buried there. I wondered if 
you had any advice based on your experience on how a community 
such as ours might work with NCA? Might take the initiative 
ourselves in making recommendations, funding some of those 
recommendations? I would love to get your thoughts on that.
    Ms. Neiberger-Miller. Thank you. I think one of the models 
to look at is for example how some of the community has tried 
to work together at Arlington to resolve what has been 
essentially a dispute and a change in culture and practice. In 
that the parties involved are all talking to each other. That 
does not mean that they have all reached agreement, or have 
agreed on a particular course of action. But they have met face 
to face. They are not just duking it out through letters to the 
editor or in the media. They have looked each other in the eye 
and talked about it. And are seeing each other I think more as 
real people. And I think that is an important first step.
    I also think it is important for the community to feel like 
they are heard and listened to. And I know sometimes that is 
very hard, especially for administrators who see things in a 
total systems perspective at times, and they look at the whole 
big picture. And you have someone there who has a piece of 
that. And you may have to hear it many times. And that can be 
challenging too.
    You know, we had also heard a couple of comments about the 
Fort Bliss Cemetery and the xeriscaping. And, you know, had 
heard some concerns about it and the way it looked, and had 
noticed the public concern about it. I think it is important 
for people to come together and talk about what solutions might 
be possible and you are certainly taking the first steps to do 
that.
    Mr. O'Rourke. Thank you. For Mr. Kelley and Ms. Zumatto, 
veterans service organizations such as yours do so much to fill 
in the gaps left by frankly sometimes a lack of follow through 
or resources on the Federal government's part. And most 
strikingly for us in El Paso, that is with service-connected 
disability claims, and the wait times, and the efforts that you 
have made to help veterans file those and to get justice when 
they are not, when they do not get a response in a reasonable 
period of time. Following that same model, I wondered if you 
could share any thoughts you have for how VSOs could play more 
of a role in filling gaps that have been identified in today's 
hearing with the NCA? And again, specifically I am very 
interested in how we do a better job in El Paso. But I am 
assuming what you have to say on that could apply to national 
cemeteries across the country. So Mr. Kelley, if you would not 
mind talking about where VSOs can play an important role here?
    Mr. Kelley. I do not know if there is a cookie cutter 
answer for that. Our members have different programs that vary 
from place to place. It could be doing color guards. It could 
be doing assistance to the family, doing flag foldings at the 
cemeteries, being a greeter at the cemeteries. Those are the 
things that they do. And they identify those gaps where they 
are at. So if they see that there is nobody doing military 
honors at this, they will get a group of people together, put a 
team together, and go out and do that. In another location that 
might be taken care of but there is nobody there at the 
visitors center to say hello, so they will do that. So I do not 
know if there is really a single thing. They look in their own 
communities, find those gaps, and then work to fill them.
    Mr. O'Rourke. Thank you. Ms. Zumatto, I am out of time so 
briefly I would love to get your thoughts.
    Ms. Zumatto. Well obviously I totally agree with what Ray 
just said. But maybe one of the things that we could do at the 
national level would be to put a little bit more emphasis on 
the cemetery issue and maybe make our members throughout the 
country a little bit more cognizant and maybe ask them to step 
out and look a little bit more closely to see what the gaps 
are, where they are, and if they can jump in a fill those gaps.
    Mr. O'Rourke. Thanks. I want to thank each of you again for 
your testimony. And Mr. Chair, I yield back.
    Mr. Runyan. I thank the gentleman. And I actually do have 
one kind of big question, probably a three-part question, for 
Mr. Kleismit. Pertaining to what outreach did the Ohio 
Historical Society have with respect to the VA in proposing 
remedies to the regulatory complication? Also, what response 
did you receive? And if the VA's next of kin requirement were 
to remain would you have any recourse to obtain headstones for 
unmarked graves? Or would your continued work in this area be 
impossible?
    Mr. Kleismit. Thank you for the question, Mr. Chairman. 
Yes, we did send a rather detailed letter explaining our 
situation to the Under Secretary back last December. And we got 
a response three months later that from our vantage point was 
disappointing. It said that, you know, there are resources 
online to find next of kin, and things of that nature. So at 
that point that is when we engaged the congressional delegation 
and led to the legislation. So that is one of the things that 
transpired.
    We are, I an encouraged by what I have heard from the NCA 
this morning about how seriously they are reviewing that 
policy. I think that is terrific. So as Congressman Stivers 
mentioned, if that, if the legislation becomes unnecessary we 
would be thrilled simply to have the recourse to be able to be 
applicants, just the community of historians and funeral 
professionals, the people that we have typically engaged with. 
So we would thrilled just to simply find a resolution to this. 
We never intended to be the antagonists on this issue, which is 
why our initial letter came up with a couple of suggestions 
that Congressman Stivers has incorporated into his bill. So we 
are cautiously optimistic here. Thank you.
    Mr. Runyan. Thank you. Do any Members have anything 
further? No? Well I would like to thank all of you. And on 
behalf of the Subcommittee thank you for your testimony. You 
are now all excused, and thank everyone for being here with us 
today. The status reports from our cemetery representatives, 
the input from public and VSO community was well presented, and 
this Subcommittee appreciates all the work that went into the 
preparation for today's hearing. I look forward to future 
updates on the matters that we have heard about today and I 
look forward to working with you all throughout this Congress 
to ensure that the final resting places of our veterans and 
their families left behind receive the highest standard of 
care.
    I would like to again thank all of our witnesses for being 
here today. I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and include 
any extraneous material. Hearing no objection, so ordered. I 
thank the Members for their attendance and this hearing is now 
adjourned.

    [Whereupon, at 12:17 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman
    Good morning and welcome everyone. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    We are here today to examine issues facing our military and 
veterans' cemeteries. Our goal in this hearing is to learn more about 
the operations of the National Cemetery Administration in recent 
months, as well as seek the Administration's commentary on several 
focused issues that I will highlight momentarily.
    We also wish to welcome Mr. Hallinan to his new role as the 
Executive Director of the Army National Military Cemeteries and to hear 
about his work and his vision for continuing the honorable mission of 
Arlington National Cemetery.
    Previously, Mr. Hallinan worked side by side with the former 
Director, Ms. Kathryn Condon, and together they provided 
revitalization, leadership, and structure to an operation that had been 
plagued by mismanagement. Prior to that, he worked alongside Under 
Secretary Muro with the National Cemetery Administration, where he held 
various positions from laborer to cemetery director. So, Mr. Hallinan - 
welcome, and we look forward to hearing from you today.
    The endeavors of NCA and ANC are among the most honorable in 
government. The people within these organizations work day-in and day-
out to honor veterans and servicemembers with dignified burials, and to 
assist families and loved ones who must deal with loss and tremendous 
grief.
    I would like to take a moment to acknowledge a few people who have 
come to sit in the audience for our hearing today.
    Ms. Laurie Laychak], who lost her husband, David Laychak ,on 9/11 
at the Pentagon is here today. Through TAPS, Laurie mentors other 
widows whose spouses have been buried within section 60 of Arlington 
National Cemetery.
    Ms. Paula Davis, is a surviving mother who lost her only child, 
Army Private Justin Davis, in Afghanistan in 2006 at age 19. He is 
buried in section 60 of Arlington National Cemetery.
    And, Ms. Rose Duval is a Vietnam Veteran herself, and the surviving 
mother of Air Force Technical Sergeant Scott Duffman, who died in 
Afghanistan in 2007. He is buried in section 60 of Arlington National 
Cemetery as well.
    Ms. Laychak, Ms. Davis, Ms. Duval--We truly thank you all for 
engaging in these issues, not only for your loved ones at Arlington 
National Cemetery, but also for the interest of so many families and 
friends who have suffered tragic loss, and who entrust Arlington 
National Cemetery and the National Cemetery Administration to assist 
them in honoring, and memorializing, their loved ones.
    As I have said before, our Nation's solemn obligation to honor 
those who have served does not cease at the end of their service, 
retirement, or ultimately, upon death, and it is the responsibility of 
the National Cemetery Administration and Arlington National Cemetery to 
see this commitment through.
    Specifically today, the Committee is interested in hearing from the 
National Cemetery Administration on several focused areas, one of which 
is the burial access initiative for rural veterans.
    In an attempt to provide service to veterans who do not live in 
close proximity to a National Cemetery, NCA has proposed to establish 
National Veterans Burial Grounds in rural areas where the veteran 
population is less than 25,000 within a 75 mile area.
    This initiative targets Idaho, Montana, Nevada, North Dakota, 
Maine, Utah, Wisconsin, and Wyoming, and I look forward to hearing more 
about the progress of this initiative.
    In addition, other issues have come to light since our last 
cemetery hearing, one of which is a matter of great sensitivity.
    The Subcommittee has been made aware of a terrible incident that 
occurred in Indiana. In May of 2013, a veteran shot and killed a woman, 
in what was reported as a random act of violence. He wounded several 
others, and ultimately took his own life.
    Although the law restricts an individual who commits a capital 
crime from burial in an NCA cemetery, or within Arlington National 
Cemetery, this murderer was interred within Fort Custer National 
Cemetery. This has, understandably, enraged and deeply hurt many 
people, including those injured, as well as the murder victim's family. 
What can be done in situations such as this, and what authority should 
exist to correct unlawful interments that occur by way of error? This 
is a matter that the Committee seeks information upon today.
    One other area that will be addressed today is a repeated concern 
that we hear from volunteer historians, local governments, and funeral 
professionals who seek to identify and recognize veterans buried with 
no next-of-kin. In April, we held a hearing and spoke about the NCA 
regulation that has prevented these groups from obtaining headstones or 
markers for veterans.
    At that time, the Committee was informed that NCA was looking at a 
regulation rewrite to correct what had become an overly restrictive 
policy that prevents well-intentioned volunteers, or government 
entities, from obtaining these markers. As this is a matter of on-going 
concern, we will hear testimony on this issue today.
    I would like to welcome our witnesses. As noted, these panelists 
play significant roles in ensuring that we as a Nation fulfill our 
responsibilities to honor those who have served us all.
    We hope that through discussions and questioning such as will occur 
today, we can work collectively to not only meet the challenges, but to 
exceed the standard.
    Mr. Patrick Hallinan is here representing the Army National 
Cemeteries Program, which includes perhaps the most recognizable site 
of our honored fallen in Arlington National Cemetery.
    Mr. Glenn Powers, Deputy Under Secretary for Field Programs is here 
on behalf of the National Cemetery Administration, which oversees 131 
cemeteries nationwide.
    We will also be hearing from Mr. Todd Kleismit, the Director of 
Community and Government Relations for the Ohio Historical Society, Mr. 
Ray Kelley, who is the Director of National Legislative Service with 
VFW, Ms. Ami Neiberger-Miller, who is the Director of Outreach and 
Education with Tragedy Assistance Program for Survivors, and Ms. Diane 
Zumatto, National Legislative Director for AMMVETS.
    Finally, Statement for the Records have been received from 
Washington High School Educator, Mr. Paul LaRue, and Green-Wood 
Cemetery Historian, Mr. Jeff Richman.
    With those introductions complete, I also thank the Members who are 
not on this Committee but who have expressed an interest in today's 
hearing topic. I'd like to ask unanimous consent that Representative 
Stivers, Representative Brooks, and Representative Daines be allowed to 
participate in today's hearing.
    Hearing no objection, so ordered.
    I thank you all for being with us today and I now yield to our 
Ranking Member for her opening statement.

                                 <F-dash>
                 Prepared Statement of Hon. Dina Titus
    Thank you, Mr. Chairman, for holding a hearing on this very 
important topic. I also want to thank the witnesses for their 
attendance this morning.
    It is my belief that the option of a burial in a VA national 
cemetery, in the state you call home, is a solemn obligation our 
government should fulfill. The National Cemetery Administration has 
grown dramatically since its creation in 1862 when 14 cemeteries were 
established to serve as a permanent resting place for those killed 
during the Civil War.
    On July 17 of that year, Congress enacted legislation that 
authorized the President to purchase ``cemetery grounds'' to be used as 
national cemeteries ``for soldiers who shall have died in the service 
of the country.''
    In 1873, ALL honorably discharged Veterans became eligible for 
burial.
    Since then, NCA has expanded its geographic diversity to better 
serve Veterans across the country and recent legislation has even 
further expanded NCA's reach to rural and urban areas.
    There are 131 National Cemeteries in the United States. New York 
has seven active national cemeteries. Three other states have six 
active national cemeteries, and Puerto Rico has two.
    However, while access has grown significantly, there is still a 
very large population of Veterans that do not have the option of being 
buried in one of our Nation's prestigious National Cemeteries in the 
state they call home.
    The state with the largest Veterans population without a National 
Cemetery happens to be Nevada, home to a fast growing population of 
over 301,000 veterans. I represent Las Vegas, home to 170,000 veterans. 
We also represent the largest area in the country without a National 
Cemetery.
    In total, 11 states with a combined Veteran population of 1.8 
million are not served by a National Cemetery.
    The Nation's largest group of wartime veterans phrased this 
challenge well in stating that, ``NCA must be flexible enough in their 
policies to recognize locations where under current policy, no new 
national cemetery will be developed, but other factors like geographic 
barriers or states that have invested in state cemeteries but have not 
been granted a national cemetery MUST be considered.''
    I am in complete agreement with the VFW and thank them for their 
testimony. While I applaud VA's efforts to reach underserved 
populations, I am also concerned that NCA is not working within the 
local veterans' community to determine where the placement of rural 
initiatives should be.
    Has the VA asked the Nevada and Idaho veteran community if they 
agree that the rural initiatives should be in Elko and Twin Falls? I am 
hopeful that NCA is willing to do the right thing by engaging our local 
veterans with regards to the placement of these shrines in western 
states that have long been overlooked by our Nation and the National 
Cemetery Administration.
    I also hope that the VA is not looking to use these rural 
initiatives as a way to appease these states that are not served by a 
national cemetery and then suggest that they are served by a National 
Cemetery. Let's be clear, rural initiatives are not National 
Cemeteries. These rural initiatives will be operated by contractors 
unlike National Cemeteries, and are being placed in rural areas, even 
by western standards, and will serve very few veterans.
    It is also very concerning that NCA only surveys the families of 
veterans who have chosen to utilize a national cemetery, while ignoring 
those who chose a different option as a final resting place. If NCA is 
looking to offer options that serve all veterans and their families, 
this self-selecting survey fails to provide honest feedback.
    I am hopeful to hear an update from NCA on any plans they may have 
to better address our western veteran's lack of an option to be buried 
in a National Cemetery. Let us remember all of these veterans and 
servicemembers served our Nation. As such, with over 130 national 
cemeteries, it is time to open a national cemetery to the 1.8 million 
veterans that do not have this option.
    I yield back.

                                 <F-dash>
             Prepared Statement of Mr. Patrick K. Hallinan
    Chairman Runyan, Ranking Member Titus and distinguished Members of 
the Subcommittee, thank you for the opportunity to provide an update on 
operations at Arlington National Cemetery and our efforts to sustain 
the sacred trust of our Veterans and Families. Since Ms. Condon 
provided her final testimony as Executive Director, Army National 
Military Cemeteries to this subcommittee a year ago, I have been 
honored and humbled by my selection as the new Executive Director. The 
transition of leadership has been smooth and effective providing a 
continuity of operations as we build upon the successes of our recent 
past to better serve our Veterans, Families, and the public.
    I am pleased to testify alongside my former colleague, Mr. Glenn 
Powers, Deputy Under Secretary for Field Programs of the National 
Cemetery Administration. I would also like to thank Mr. Steve Muro, 
Under Secretary for Memorial Affairs, my friend and colleague for many 
years for his support of Arlington National Cemetery. Through the 
positive working relationship of Arlington National Cemetery and the 
National Cemetery Administration, we have trained staff, shared ideas 
and best practices, and provided opportunities for employees to 
permanently move across organizational boundaries.
    Building upon the foundation of our dedicated efforts, each of us 
are privileged to serve the nation as caretakers of our nation's most 
sacred shrine at Arlington. We remain committed to constant improvement 
of our operations. During the past seven months, my team has 
identified--and created--industry-leading standards with auditable 
business practices and institutionalized them at Arlington. We have 
designed and implemented stringent chain-of-custody controls with 
multiple points of redundancy to ensure accountability with a zero 
defect tolerance. We have instituted processes that have reduced the 
time for placement of headstones from multiple months after a service 
to an average of 45 days. We continue to perfect information technology 
that enables us to operate more efficiently internally as well as 
provide interactive capabilities to the general public. We are 
considering ways forward to repair and replace our aging 
infrastructure, and increase burial capacity at Arlington and extend 
the active life of the cemetery. We continue to perfect our 
organizational inspection program which will capture in Army doctrine 
the current standards and practices in place at Arlington, and 
facilitate the implementation of those standards and practices at all 
40 Army Post Cemeteries nationwide. My team is dedicated to improving 
the Arlington experience for our visitors and perfecting our logistical 
and administrative best practices. We are focused on our core mission. 
The pace of requests and burials at Arlington remains at an all-time 
high, and our workforce is meeting the challenge.
               BUILDING UPON OUR FOUNDATION OF EXCELLENCE
    Arlington will fill its current vacancies, to include key 
positions, refine cemetery operations, expand our robust training 
program, and institutionalize cemetery expertise. As the Director of 
Army National Military Cemeteries, I will provide training assistance 
to our Post cemeteries while implementing an inspection program across 
those Army cemeteries in keeping with the high standards of Arlington.
    The progress we have made at Arlington could not have been achieved 
without the excellent support and assistance of the Secretary of the 
Army and the ``Big Army''. Additionally, I wish to acknowledge Military 
District of Washington's Joint Forces, Army, Navy, Marine Corp, Air 
Force, and Coast Guard for their superb service day in and day out. 
With the guidance of the Advisory Committee on Arlington National 
Cemetery, along with the invaluable efforts our Chaplains and the 
Arlington Ladies, we form a committed and united team dedicated to 
providing our nation's fallen with the honors they've earned through 
their service to our country.
Sustaining Accountability
    The Arlington National Cemetery team is building on the foundation 
of success achieved with 100% accountability for all decedents interred 
or inurned at ANC and Soldiers and Airmen's Home National Cemetery 
using established accountability processes and geospatial mapping 
technology. The intensive, two year effort to achieve 100% 
accountability effort at Arlington was completed in the summer of 2012. 
Our personnel certify each burial service conducted daily, using a 
duplicative verification of grave location and decedent remains. 
Additionally, we digitally photograph every remains container interred 
and digitally associate that image with the burial record in our 
authoritative and auditable system of record.
    To sustain 100% accountability and export our best practices to 
other Army Cemeteries, Arlington is perfecting and expanding our 
Organizational Inspection Program. Arlington National Cemetery 
continues to use and refine our detailed Organization Inspection 
Program as well as a Standards and Measures Program to self-evaluate 
operations and performance measures at Arlington and the Soldiers' and 
Airmen's Home National Cemetery. Our team began a detailed effort in 
the summer of 2013 to transform the ANC focused processes and programs 
into an appropriate inspection program applicable to the other 40 Army 
Post Cemeteries with an expected completion date of 31 December 2013. 
Upon completion of the inspection program, we will begin a systemic 
train, assist, and inspect program across all Army cemeteries. The Army 
National Military Cemetery (ANMC)-led inspection program will 
complement, not replace, the local installation commander's programs.
    With our on-going work with the Organizational Inspection Program 
and updates to our authoritative regulations and policies, we also 
looked to improve and expand our training programs. Arlington National 
Cemetery established a training program for new employees in the summer 
of 2013. This recurring training program, centered on the ANC's 
Standards and Measures Program, will form the backbone of an ANMC-led 
training program for Cemetery Responsible Officials, and any other 
personnel that installation commanders responsible for cemeteries, 
desire to attend training. The training will be conducted at Arlington 
National Cemetery, and will provide authoritative training in best 
practices and standard procedures, complementing the information found 
in the Army Regulation and DA Pamphlet. This in-person, on-the-ground 
training will provide a clear picture of operation standards and norms 
for a national military cemetery. Attendees that successfully complete 
the training will receive official ANMC certification.
Headstones
    In March 2013, Arlington National Cemetery began directly ordering 
government headstone and niche covers from the Department of Veterans' 
Affairs contractor resulting in more timely and accurate ordering of 
headstones. Prior to conducting a funeral service, cemetery 
representatives work with the primary next of kin or person authorized 
to direct disposition of the remains using an automated headstone 
designer tool to create a proposed headstone template. After the 
template is agreed upon, we wait two weeks from the date of service to 
allow Families the opportunity to change terms of endearment or other 
items of personal preference on the headstone. Following this designed 
intentional wait time, our Interment Services Branch staff reviews, 
approves, and submits the order to the Department of Veterans' Affairs 
contractor. The average time from date of interment to setting of the 
stone is 45 days - previously this took four to six months.
Ongoing Planning and Design for Cemetery Expansion and Infrastructure
    The Army remains committed to maintaining Arlington National 
Cemetery as an active cemetery for as long as possible to continue to 
honor and serve our Nation's military heroes. In support of that 
commitment, last year we completed the construction of Columbarium 
Court 9. This new Columbarium added 20,296 burial niches for cremated 
remains and extended the Cemetery's projected capability to accept 
cremated remains from 2016 until approximately 2024. During our May 9, 
2013 Columbarium Court 9 dedication, Arlington National Cemetery, with 
the support of the Missing in America Project, inurned, with honor, six 
unclaimed remains, from all branches of our Armed Forces. A most 
fitting tribute to these deserving service members. This Columbarium is 
special in two ways, not only is it the largest Columbarium Court at 
the Cemetery, but its construction was funded entirely from the 
recovery of unliquidated prior year funds, demonstrating our commitment 
to appropriately manage and utilize all available funding to improve 
the Cemetery. Thus far, we have been honored to place over 225 Service 
or family members in Court 9.
    Working closely with the U.S. Army Corps of Engineers, the National 
Park Service, the Commission of Fine Arts, the National Capital 
Planning Commission, and our Advisory Committee, we have completed 
planning for the Millennium Project expansion in the northern part of 
the cemetery. There were several iterations of design concepts for this 
project as the Cemetery tried to balance the need for increasing burial 
capacity while at the same time being environmentally-responsible, 
incorporating and protecting the area's natural beauty and historic 
nature into the design. A construction contract was awarded in 
September and work will commence shortly. When construction is 
completed, it will add approximately 27,282 new burial opportunities.
    With the Millennium project construction underway, we have begun 
planning an expansion on the southern side of the cemetery, into the 
land formerly occupied by the Navy Annex. We are in the earliest stages 
of project planning with the demolition of the previous facilities not 
scheduled to be completed until early 2014. As evidenced with the 
Millennium Project, the dedication of the project team, and continuous 
stakeholder involvement, will create a project concept that is both an 
appropriate expansion to the Cemetery and a place of honor for our 
veterans and their families. Although it is too early to tell what the 
final development will yield for the Navy Annex site, we project that 
with the Millennium expansion and the repurposed former Navy Annex 
site, the cemetery will have first interment space through the mid-
2050s.
    Arlington continues to work diligently to complete the most 
critical repairs to our aging infrastructure. We previously noted work 
on waterlines, flagstone, heating and cooling systems, but much work 
still needs to be accomplished. We have recently begun work on the 
second of five phases of waterline replacement. We have work underway 
to address several years of deferred maintenance on our parking garage, 
and will begin shortly to address additional phases of flagstone 
replacements, both of which will improve the safety and appearance of 
the cemetery. Our priorities for maintenance and repair work continue 
to focus on mission, safety and environmental protection.
    With your great support we have been able to make many improvements 
to the aging infrastructure of the cemetery improving the safety of our 
grounds and protecting the environment. More work is required, some of 
which may be emergent. For instance, on May 30, 2013, my staff arrived 
at the cemetery to find a sinkhole in the middle of one of our roads. 
Investigation of the sinkhole revealed an area with many previous 
superficial repairs that over time resulted in the undermining of a 
culvert and ultimately failure of the roadway. We were fortunate in 
this case that it was not in an active part of the cemetery. It is 
these unexpected issues that we continue to find that impacts our 
priorities. Fortunately, your strong support has enabled us to address 
these issues.
Technology at Arlington
    Arlington National Cemetery continues to implement technology to 
streamline cemetery operations and improve our visitors' ability to 
explore the rich history of this National Shrine. We have made 
improvements to Arlington's Interment Scheduling System and our 
Geographic Information Systems to manage day-to-day operations.
    Just over a year ago, Arlington launched ANC Explorer, a free, web-
based application that has transformed how visitors explorer the 
Cemetery. ANC Explorer allows Families and the public to locate 
gravesites, events or other points of interest throughout the Cemetery; 
to generate front-and-back photos of a headstone or monument; and to 
receive directions to these locations. We have installed kiosks with 
ANC Explorer in our Welcome Center and have one outdoor kiosk in the 
cemetery, with the intention to add additional outdoor kiosks later 
this year. I am excited to report that in less than one year, we have 
reached over 60,000 downloads of our first version of this app. This 
spring, as part of Arlington National Cemetery's 150 anniversary 
commemoration, we will be releasing an updated version of ANC Explorer 
that will include enhanced functionality and tours that can be 
customized by the user.
    Our GIS operational technology and application has received a 
number of awards from Federal Computing Week, Computer World, and 
Government Computer News. ANC Explorer was named, ``App of the Year,'' 
at the 2013 Federal Computing Mobile Summit.
    We are always looking for opportunities for Families and the public 
to explore this national treasure. Arlington has partnered with Google 
to include Arlington National Cemetery in their Street View Collection. 
On October 20, 2013, the Google Street View team collected images 
walking the paths and driving the road of cemetery. Once the images are 
``stitched'' together, visitors can take a 360-degree virtual tour of 
the entire cemetery on their smartphone or computer.
                              WORK REMAINS
Section 60 Update
    On Sunday, October 6, 2013, my senior staff and I conducted a round 
table discussion with twenty one Gold Star Families. The discussion 
addressed issues associated with cemetery maintenance and the Section 
60 Mementos Pilot Program. The meeting was positive and generated 
several suggestions for improving communications between the family and 
Arlington National Cemetery. We have agreed to hold Gold Star Family 
roundtables twice a year. We are working to identify flexibility within 
existing policies. For example, as the cemetery enters the non-growing 
season (where mowing of the grounds is less frequent), the cemetery 
will allow small photographs and small handcrafted items not affixed to 
the headstone to be left at gravesites.
    Arlington National Cemetery policy, which is similar to that of 
other national cemeteries, allows artificial flowers to be left at 
gravesites between October 10 and April 15. Allowing additional items 
to be left at gravesites during this time period is consistent with 
that policy. We will continue standard grounds maintenance during this 
time period and remove decayed floral items, items that are affixed to 
headstones or those that pose a safety hazard to visitors and staff, 
such as tobacco, alcohol, ammunition, or glass items. Every other 
Friday, cemetery personnel will also remove items considered to detract 
from the dignity and decorum of Arlington National Cemetery. I am 
committed to keeping the Gold Star Families informed and provide notice 
prior to implementation of any changes.
Reducing the Queue for Services at Arlington National Cemetery
    Our core mission is to take care of Families at their time of need 
and schedule the service desired with appropriate honors earned as 
quickly as possible. This process requires working with the Families to 
document eligibility and with the services to schedule resources. We 
have implemented several measures to streamline the eligibility 
determination and scheduling process to reduce the amount of time 
Families must wait between first contact and the actual service. Since 
December 2010, we have collected metrics and data to better understand 
the interment services demand at Arlington National Cemetery. Requests 
for burial at ANC occur at a robust pace, and we expect the demand to 
remain constant as veterans and eligible service members from conflicts 
during the late twentieth century reach advanced age.
    Over the last year, Arlington experienced a significant personnel 
turnover in the scheduling branch. Despite our best efforts to fill all 
vacancies, the temporary loss of personnel significantly impacted our 
ability to schedule funeral services, particularly inurnments. In March 
2013, we noted an increase to the scheduling delay due to this loss of 
personnel. In response, Arlington sought and received authorization to 
hire against the vacant positions. By late June, the vacant positions 
were filled; and, when requested, the Secretary of the Army approved 
the use of overtime pay and temporarily reassigned personnel to assist 
in reducing the growing volume of requests. To reduce the impact to 
Families, the Secretary of the Army authorized me to direct re-
allocation of additional personnel from existing end strength. This 
leadership focus significantly reduced the total of those pending 
scheduling.
               THE IMPACTS OF THE LAPSE IN APPROPRIATION
    The lapse of appropriation has caused Arlington National Cemetery 
to utilize available prior year funding to continue burial activities 
for our Veterans and their Families at our normal level. The available 
prior year funds allowed for continued burial operations during the 
sixteen day shutdown. Visitor operations continued with only minimal 
impacts. While ANC did not have to furlough employees during this 
period, the lapse did have an impact on day-to-day operations. We 
halted travel, training, and purchasing. However, sustainment, 
restoration and modernization of facilities continued as well as 
construction and/or design of ANC's major construction projects.
                               CONCLUSION
    Through diligent efforts, adherence to established policies and 
standard operating procedures, and by leveraging technology, Arlington 
will do all within its power to sustain the sacred trust it has 
recently reclaimed. In conjunction with our partners at MDW, and with 
the great support of the services, the Arlington staff can assure the 
Nation of this: every burial service at Arlington National Cemetery 
will continue to be conducted with the honor and dignity our service 
members have earned, and their families will be treated with respect 
and compassion.
    I appreciate the support of the subcommittee and look forward to 
answering any questions you may have.

                                 <F-dash>
                   Prepared Statement of Glenn Powers
    Chairman Runyan, Ranking Member Titus, and distinguished members of 
the Subcommittee, I am pleased to update you on several National 
Cemetery Administration (NCA) accomplishments since the Under Secretary 
for Memorial Affairs last testified before you in April 2013. I also 
appreciate the opportunity to testify alongside Mr. Patrick K. 
Hallinan, Executive Director, Army National Military Cemeteries. Our 
partnership with the Department of the Army has resulted in the sharing 
of best practices and a strengthened commitment to serving our Nation's 
Veterans.
    NCA employees focus on our organizational mission to provide 
quality burial and memorial benefits to those who served in uniform to 
defend our Nation and for their families. With the close of Fiscal Year 
(FY) 2013, NCA continued to address increasing workload requirements, 
expanded burial access for Veterans and their families, and achieved 
high levels of customer satisfaction. In FY 2013, over 124,000 
interments were performed--a record number for NCA. We maintained 3.3 
million occupied gravesites and 8,800 acres of land and awarded $34 
million in National Shrine contracts to repair gravesites. NCA issued 
over 654,000 Presidential Memorial Certificates and processed over 
358,000 headstone and marker applications.
    As we move into FY 2014 activities, there are several major 
initiatives critical to NCA's achieving its strategic goals. They 
include land acquisition and master planning efforts to meet the burial 
needs of our Nation's Veterans and Servicemembers; historic stewardship 
efforts to recognize Veteran service of all eras; continued commitment 
to customer service and hiring Veterans, including homeless Veterans; 
and enhanced operational efficiencies. I will now review each of these 
initiatives in greater detail.
Meeting the Burial Needs of Veterans
    NCA continues to implement one of the largest expansions of the 
national cemetery system since the Civil War. Between 1992 and 2013, 
NCA dedicated 18 burial facilities. By the end of this decade, the 
Department of Veterans Affairs (VA) plans to open an additional 18 new 
burial facilities to provide access to a burial option for over 680,000 
additional Veterans and enhanced service for over 2 million Veterans. 
The new facilities include five new national cemeteries and the 
realization of VA's Urban Initiative and Rural Initiative. This 
expansion, along with continued grant awards to states, territories, 
and tribal organizations, will allow NCA to meet its strategic target 
of providing 95 percent of Veterans with a burial option within 75 
miles of their home.
    This past fiscal year, NCA acquired land and awarded Master Plan/
Design Development contracts for new national cemeteries at Central 
East Florida, Tallahassee, Florida, and Omaha, Nebraska areas. The 2014 
President's Budget requests $116 million to complete construction for 
these three cemeteries. These three facilities will serve approximately 
350,000 Veterans and their eligible family members. We continued land 
searches for urban satellite cemeteries in Chicago, New York, and 
Indianapolis. We continue to perform due diligence activities for a 
rural cemetery in Yellowstone, Montana and land searches at five other 
rural locations. We awarded $36 million in grants to states and tribal 
organizations for Veterans cemeteries.
    In the next few months, we anticipate completing land acquisition 
for the new national cemeteries in the Southern Colorado and Western 
New York areas. Together, the five new national cemeteries will provide 
a burial option to over 550,000 currently unserved Veterans, in 
addition to their eligible family members.
    To better meet the burial needs of Veterans, NCA began an 
initiative to establish new columbaria-only cemeteries in five urban 
locations where time and distance barriers to the existing national 
cemetery location have proven to be a challenge to burial and 
visitation. The Urban Initiative will alleviate time and distance 
challenges to allow for a more convenient burial option for Veterans in 
New York, Los Angeles, San Francisco/ Oakland/San Jose, Chicago, and 
Indianapolis.
    To embrace the Department's priority to meet the unique needs of 
Veterans in rural areas, NCA launched the Rural Initiative to provide 
access for 136,000 Veterans who reside in sparsely populated areas 
where access to a national, state, or tribal Veterans cemetery is 
limited or does not exist within close driving distance. VA seeks to 
develop National Veterans Burial Grounds, which NCA will operate. 
National Veterans Burial Grounds will be established in eight states: 
Maine, Wisconsin, North Dakota, Montana, Wyoming, Nevada, Idaho, and 
Utah.
    The authority Congress gave VA to provide grants to states, 
territories, and tribal organizations has fostered a critical and 
valuable partnership. Grants are used to establish, expand, or improve 
state, territorial, and tribal Veteran cemeteries in areas that do not 
qualify for a national cemetery. Since 1978, VA has awarded more than 
$500 million in such grants. Currently, there are 89 operational state 
and tribal Veteran cemeteries in 44 states, Guam and Saipan, with six 
more currently under construction. NCA looks forward to working with 
states, territories, and tribal organizations to share lessons learned 
from our new Urban Initiative and Rural initiative and to develop grant 
applications and award grants that reflect the needs, resources, and 
preferences of the local Veteran community.
Historic Stewardship Responsibilities
    To support our statutory mission, NCA maintains all cemeteries, 
both modern and historic, as ``national shrines to our gallant dead'' 
by emphasizing high standards of appearance and commitment to 
stewardship. One hundred fifteen national cemeteries are listed on the 
National Register of Historic Places, 15 of which are designated as 
National Historic Landmarks (NHL) due to their national significance in 
American history and culture or their resource contribution to NHL 
districts. NCA's continued commitment to being caretakers of the 
Nation's history is reflected in our stewardship of the graves of Union 
and Confederate dead interred in more than 100 Civil War-era national 
cemeteries, Confederate Prisoner of War cemeteries and soldiers' lots. 
NCA will install nearly 200 interpretive signs that will illuminate its 
Civil War heritage at 77 national cemeteries and 24 Confederate 
cemeteries and Union soldiers' lots.
    At our historic cemeteries--just like at our modern facilities--NCA 
maintains high standards of appearance. In addition, we provide 
historic stewardship through the continuous restoration and 
preservation efforts of lodges, walls, and monuments. NCA initiated a 
partnership with the National Park Service to stabilize several 
superintendent lodges--some of the most historically and 
architecturally significant buildings maintained within the national 
cemetery system. In 2012, NCA conserved and replaced the country's 
oldest surviving Civil War memorial, the 32nd Indiana Infantry 
Monument, located at Cave Hill National Cemetery in Kentucky. Between 
2009 and 2011, NCA digitized 60 historic burial ledgers from 36 of our 
oldest national cemeteries to preserve them for the future. NCA 
formally partnered with Ancestry.com to index the entries at no cost to 
the government so these digitized records are now electronically 
searchable by the public, Veterans' families, and researchers.
    NCA provides historically accurate upright marble headstones to 
mark the graves of eligible Civil War Union and Confederate soldiers. 
NCA honors requests for replacements of historic headstones when 
inscriptions are worn to the point that they can no longer be read or 
if the headstone is otherwise damaged beyond repair. Recently, various 
individuals and historic groups expressed concern that the current 
definition of ``applicant'' for headstone and marker claims is too 
limiting. The current regulatory definition, effective on July 1, 2009, 
after a 60-day public comment period, reflects VA's obligation to 
ensure family members are included in the decision-making process 
because the death, burial, headstone, inscription, and gravesite 
location of a loved one is a very personal matter.
    NCA has reviewed its existing regulations governing headstone and 
marker benefits and we drafted a proposed rulemaking that is currently 
under development within VA. In the VA Memorialization Benefits rule, 
we will propose amendments to address concerns about the restrictive 
applicant definition and create new regulatory provisions for the 
medallion benefit. Additionally, we revised existing claim forms for 
headstones, markers, and medallions, and have developed several other 
clarifying amendments, including a comprehensive definition section. We 
look forward to receiving public comments when the proposed rule is 
published in the Federal Register under the requirements of the 
Administrative Procedure Act and the Office of Management and Budget.
Industry Leader in Customer Service and Hiring Veterans
    At NCA, we continually strive to sustain our extraordinary record 
of customer service and recognition of our best practices. NCA received 
the highest score of any participating entity--94 out of 100 possible--
in the 2010 American Customer Satisfaction Index sponsored by the 
University of Michigan. This is the fourth consecutive time NCA 
received the top rating in the Nation. NCA was recognized by the 
Federal Consulting Group for a decade of superlative performance. We 
anticipate similarly high ratings when the 2013 results are released.
    NCA continues to achieve high levels of client satisfaction as 
measured by our annual surveys of Veterans or their next-of-kin who 
recently selected a national cemetery for the interment of a loved one 
and the funeral directors who provided assistance at their time of 
need.
    NCA's committed, Veteran-centric workforce is the main reason we 
are able to provide world-class customer service. Not only are we 
focused on serving Veterans, we continue to maintain our commitment to 
hiring Veterans. Currently, Veterans comprise over 74 percent of our 
workforce. Since 2009, we hired 459 returning Iraq and Afghanistan 
Veterans. In addition, 84 percent of NCA contracts in FY 2013 were 
awarded to Veteran-Owned and Service-Disabled Veteran-Owned small 
businesses.
    I am proud to report that NCA will soon graduate its first class of 
Veterans enrolled in NCA's Homeless Veterans Apprenticeship Program. 
This program, established in 2012, supports VA's strategic priority of 
ending Veteran homelessness by 2015. The apprenticeship is a one year 
paid employment training program for Veterans who are homeless or at 
risk for homelessness. In November 2013, Secretary Shinseki and I will 
present certificates of completion to 13 apprentices who successfully 
completed the 12 months of competency-based training. These new 
caretakers will help offset projected retirements in our workforce. 
Moving forward, an additional nine national cemeteries were added to 
the program as sites for the 24 incoming apprentices projected for this 
year's Homeless Veterans Apprenticeship Program.
    The curriculum for our Homeless Veterans Apprenticeship Program is 
based on the NCA Caretaker Training Program, which was developed to 
help achieve objectives in our strategic plan, to promote Veteran 
satisfaction with service and cemetery appearance and ensure a 
knowledgeable and responsive workforce. Roughly half of NCA's workforce 
has completed this course, and we believe it contributed to our 
continued ability to sustain improvements in appearance and customer 
satisfaction. Graduates have indicated a renewed commitment to their 
work and a reinforced understanding of our mission, vision, and 
standards.
Operational Efficiencies
    NCA places a high priority on environmental stewardship and 
managing its facilities in order to maximize resources and at the same 
time, convey the dignity required of national shrines. We believe it is 
possible to use resources efficiently and maintain our national 
cemeteries as national shrines. NCA is recognized by various groups as 
an industry leader in environmental conservation efforts at cemeteries. 
These efforts reflect NCA's commitment to conserving resources, 
achieving cost savings and providing a dignified burial environment.
    Water-wise cemeteries, like those at Bakersfield, California, 
Phoenix, Arizona, and El Paso, Texas, employ water-wise and other 
grounds management practices to reduce water consumption. NCA worked 
with the communities in these areas to demonstrate how we can maintain 
cemeteries as national shrines while still reducing water use. NCA 
received the VA Sustainability Achievement Award for conservation 
projects at Riverside National Cemetery and Bakersfield National 
Cemetery and received the Texas Commission of Environmental Quality 
Award for water-wise management at Fort Bliss National Cemetery.
    All new VA cemetery construction is ``green,'' so our new 
cemeteries will start out being more efficient. Expansion and 
improvement projects at existing cemeteries also incorporate ``green'' 
standards. The recently completed renovation of the Jefferson Barracks 
National Cemetery Administration Building achieved Leadership in Energy 
and Environmental Design (LEED) Silver equivalence in categories 
including sustainable site, water efficiency, construction waste 
management, and indoor environmental quality.
    VA's use of pre-placed crypts is an excellent example of a practice 
that both increases efficiency and enhances cemetery appearance. Their 
use reduces the cemetery footprint thereby requiring less land, 
decreasing the cost to maintain and operate cemeteries, and improving 
cemetery appearance. Other innovative practices include the use of 
synthetic turf in certain areas where there are no burials. The use of 
memorial walls instead of memorial sections allows more grounds to be 
used for burials. In addition, undeveloped land is leased out so that 
there is some monetary return that can be used to improve cemetery 
appearance until it is needed for burials.
Concluding Summary
    We appreciate the Committee's support that has allowed us to make 
significant progress towards meeting our strategic goals. With your 
continued help, we will work diligently to expand access to burial 
options for our Veterans and their eligible family members, be 
responsive to our stakeholders and the Veteran community, and remain 
dedicated stewards of the rich history of sacrifice of those buried in 
our national cemeteries. I look forward to answering any questions that 
you may have.

                                 <F-dash>
                  Prepared Statement of Todd Kleismit
    Chairman Runyan and members of the Subcommittee:

    It is a privilege to be with you today at this important hearing on 
dignified burials for our military veterans. Thank you for the 
opportunity. I am an Army veteran of Operation Desert Storm and 
appreciate the attention you are giving to this topic, which affects a 
large number of us in Ohio and elsewhere.
    I am here today speaking on behalf of the Ohio Historical Society 
and several other organizations that were negatively impacted by the 
Department of Veterans Affairs' recent change that requires that all 
applications for new veterans' headstones be the decedent's next-of-
kin. History organizations like mine, veterans' organizations, high 
school teachers, genealogists, archivists, county veterans' 
organizations, funerary professionals and others were, until recently, 
able to apply for DVA headstones. Why would all of these groups want to 
apply for these headstones? Their commitment and patriotism are the 
ingredients for American-style success stories at a time when our 
country desperately needs success stories like these.
    There are countless unmarked graves where military veterans are 
buried in our (mostly older) cemeteries across the country. I am aware 
of research that has been done on veterans as far back as the 
Revolutionary War who were buried in unmarked graves in Ohio. During 
the current sesquicentennial of the American Civil War, the Ohio 
Historical Society and several of our partners across Ohio have been 
engaged in researching and verifying the remains of Civil War veterans, 
applying for VA headstones and concluding with a public ceremony to 
honor those veterans buried, but never fully recognized, in Ohio.
    Paul LaRue, a teacher in rural Ohio, has made Ohio's unmarked 
graves an annual school research project since 2002. Paul has won 
several teacher-of-the-year awards because he is an outstanding 
educator, and because of the unmarked graves projects his students have 
conducted. Paul has submitted separate testimony complete with photos 
and case studies, and I would encourage you to read it if you have not 
already had the opportunity to do so.
    I think it is important to consider the context of the life 
experiences of these people from our past, particularly our Civil War 
vets. Many of them were poor, ethnic minorities or African-American. 
Most likely, they are buried in unmarked graves because they did not 
have the family or the resources for a proper burial in the late 19th 
century or early 20th century. We're now about seven generations 
removed from the Civil War era. Why should we care? These burial 
projects are the ultimate in civic engagement, applied learning, 
civics, genealogical research and history lessons all wrapped up 
together. I have seen at these ceremonies the tears flowing; I have 
felt the chills when ``Taps'' is played. ``Why should we care?'' is 
probably not the right question. Instead, shouldn't we be celebrating 
the fact that 21st century citizens care enough to look back, in the 
case of Civil War veterans, seven generations to recognize the service 
of others? The Department of Veterans Affairs' headstones program is 
good public policy when it is accessible to the public - many of whom 
are volunteers who are more than willing and able to conduct the 
necessary research - and it is one small way that our federal 
government can work collaboratively with local communities to humanize 
its work.
    We were disappointed, of course, when the Department of Veterans 
Affairs policy was changed, prescribing that headstone applicants must 
be the decedent's next-of-kin. As mentioned earlier, we are about seven 
generations removed from the Civil War era. It is completely reasonable 
and appropriate to seek out the veterans' next-of-kin, whenever 
possible. Unfortunately, this is seldom possible. When it became 
evident that our concerns and suggested remedies to this policy were 
not getting serious consideration by the Department's leadership, we 
then communicated this to members of the Ohio congressional delegation. 
We are very appreciative of the support we've received from the Ohio 
delegation, which is what has led to Congressman Steve Stivers' 
legislation, HR 2018, also known as the ``Honor Those Who Served Act of 
2013.'' This legislation would re-open the door to history and military 
researchers, genealogists, local historians and state veterans agencies 
to be applicants for these headstones. It would also align the 
Department's application policy with the archival records policy at the 
National Archives and Records Administration for requesting military 
records, which does not require next-of-kin authorization for records 
dating back 62 or more years ago.
    The Civil War Trust and others have created a website, 
marktheirgraves.org, that explains the next-of-kin dilemma and has 
collected more than 2,700 online signatures. I am also including an 
article that was published online (Cleveland.com) on September 11th 
that does a great job of capturing the perspective of those of us who 
have been closed out of the process.
    While I take a certain amount of pride in the fact that Ohio has a 
slightly higher percentage of military veterans than the nation at 
large, there is no reason to believe this issue isn't just as important 
in New Jersey, California, Texas, Florida, Colorado, Nevada and 
elsewhere. I conclude by thanking you again for the opportunity to be 
here today to express our concerns about the Department of Veterans 
Affairs' next-of-kin application policy and for the opportunity to fix 
it by approving HR 2018. I would be happy to answer any questions you 
may have of me.

                                 <F-dash>
                Prepared Statement of Raymond C. Kelley
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, I would like to thank you 
for the opportunity to testify today on issues regarding the National 
Cemetery Administration.
    From October 18, 1978, until October 31, 1990, VA paid a headstone 
or marker allowance to surviving families who purchased a private 
headstone or marker on behalf of veterans who were interred in a 
private cemetery in lieu of VA providing a government-furnished 
headstone or marker. This benefit was eliminated on November 1, 1990, 
with the enactment of the Omnibus Budget and Reconciliation Act of 
1990. From November 2, 1990 through September 11, 2001, VA paid no 
assistance in the purchase of a private headstone or marker for 
veterans who qualified for interment in a national or state cemetery. 
Between 2001 and 2006, VA provided government headstones or markers to 
qualifying veterans, regardless of whether or not they had a privately 
purchased headstone as a pilot program. In 2007, VA made this program 
permanent, and included the medallion as an alternative option to a 
second headstone or marker and made it retroactive to November 1, 1990. 
This has allowed qualifying veterans to receive some form of headstone 
or grave marker benefit since the inception of the benefit in 1978.
    Unfortunately, this benefit has started, stopped and changed enough 
times that it has become confusing to veterans and surviving family 
members. Many do not understand why they do not qualify for a 
medallion, believing the November 1, 1990 date is just an arbitrary 
starting point for a new benefit. Many of the veterans who call VFW 
state they would be willing to purchase the medallion if VA made them 
available.
    Based on these conversations, the VFW would support a pilot program 
that would allow the next-of-kin of a veteran who would otherwise 
qualify for the medallion, except for his or her date of death, to 
submit a request for purchase for the medallion.
    H.R. 3106, the ``Alicia Dawn Koehl Respect for National Cemeteries 
Act'' would codify the authority of the Secretaries of Veterans Affairs 
and Defense to reconsider prior decisions of interments in national 
cemeteries. Title 38, U.S.C. outlines crimes that disqualify veterans 
from interment in national cemeteries, but there are no provisions for 
the removal of a veteran who was laid to rest in a national cemetery 
when it is discovered he or she had committed a disqualifying crime.
    This legislation also call for the disinterment of a veteran who 
committed murder, and then turned the gun on himself, ending his life. 
He was buried in a national veteran's cemetery six days later. The 
circumstances of this case made it very difficult for VA to discover 
the murder that would have precluded the veteran from interment.
    The VFW supports this legislation, but believes it falls short in 
preventing future non-qualifying interments from taking place. Current 
protocol requires the surviving family member to fax qualifying 
paperwork, DD214 and death certificate to the National Cemetery 
Administration (NCA). Upon receipt of these documents, NCA calls the 
family member and asks 16 questions. These questions range from 
location of death and burial needs to cemetery choice and marital 
status. Nowhere in the questioning does NCA ask a question regarding 
criminal activity. The requesting family member should be required to 
fill out a form that asks the current 16 questions and an additional 
question regarding federal or state capital crimes. Knowing this 
information will assist NCA in investigating disqualifying crimes, 
prior to the veteran's interment.
    Access to burial options must continue to be a priority for NCA. 
The VFW has supported the NCA policy of providing burial options for 95 
percent of all veterans within 75 miles of their homes. In FY 2011, NCA 
recognized that under its then-current policy of 170,000 veterans 
within a 75-mile radius with no access to a national or state cemetery, 
no new locations would be eligible for a national cemetery. NCA reduced 
the threshold to 80,000 veterans within a 75-mile radius, which allowed 
for creation of five new national cemeteries, and access to burial 
options for an additional 550,000 veterans. The same year, NCA began 
its urban initiative. This has allowed NCA to purchase property in 
densely populated areas, where veterans may live within the 75 mile 
radius of a cemetery, but due to actual travel times access is not 
considered accessible. This initiative will allow NCA to provide new 
burial options in five urban areas.
    In its FY 2013 budget request, VA introduced a new burial option, 
the National Veterans Burial Grounds. This will allow NCA to increase 
access to burial options for veterans who live in remote, low veteran-
populated areas that do not have reasonable access to a national or 
state cemetery. When pairing the reasonable access model with a 
threshold of less than 25,000 veterans within a 75 mile radius, NCA can 
provide eight states with additional burial options.
    Even with these new threshold models that will increase asses to 
burial options, NCA must be flexible enough in their policies to 
recognize locations where under current policy, no new national 
cemetery will be developed, but other factors like geographic barriers 
or states that have invested in state cemeteries but have not been 
granted a national cemetery must be considered. These policies work to 
ensure the largest number of veterans have access to a veterans 
cemetery, but there are occasions when the desires of veterans must be 
included in the decision process.
    NCA must maintain its commitment to the appearance of national 
cemeteries. Regardless of customer surveys that rate the appearance of 
cemeteries as excellent at 99 percent, the actual appearance is in 
decline. There are three performance measures that evaluate the overall 
appearance of national cemeteries: The percentage of headstones, 
markers and niche covers that are clean and free of debris and 
objectionable accumulation; the percentage of headstones and markers 
that are the proper height and alignment; and the percentage of 
gravesites that have grades that are level and blend with adjacent 
grade levels. The results of the performance measures have held steady 
for the past several years, but have continually fallen short of their 
strategic goals. The most concerning aspect of these goals is that VA 
predicts a decline in its performance measures in its FY 2014 budget 
submission.
    VA must maintain its focus on ensuring our national cemeteries 
continue to honor the service and sacrifice of our veterans. VA must 
request and Congress must appropriate specific funding for the National 
Shrine Commitment to ensure these performance measures are met.
    Since the leadership change at Arlington National Cemetery (ANC), 
the VFW has seen vast improvements in its overall operations. Extensive 
work has been done to ensure each plot is marked correctly, and 
although they have not been able to verify 100 percent of all grave 
sites, their efforts are ongoing. All burial information has been moved 
from the old three-by-five cards to a computer database. Improvements 
to the website have made locating the burial plot for loved ones much 
easier.
    Under ANC's current leadership, improvements have been made to the 
Millennium Project. In early concepts, most of the existing trees were 
to be removed. In 2010, ANC asked the Army Corps of Engineers to design 
a more eco-friendly design. Today, the design is 65 percent complete 
and ANC has been working with local, state and federal agencies to 
minimize the ecological impact of the expansion as well as improving 
the stream that runs through the expansion site. The Millennium Project 
will add an additional 30,000 burial plots, ensuring Arlington National 
Cemetery will be open to receive interments well into the future.
    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any questions you or the Committee may have.

                                 <F-dash>
             Prepared Statement of Ami D. Neiberger-Miller
                           EXECUTIVE SUMMARY
I. Opinions on Current Legislative Issues Facing National Cemeteries
    Examines the Alicia Dawn Koehl Respect for National Cemeteries Act 
(S.1471, H.R. 3106), the Volunteer Veterans for Cemetery Service Act 
(H.R. 1957), and the Honor Those Who Served Act of 2013 (H.R. 2018).
II. Feedback about the VA National Cemetery Administration (NCA)
    Our 131 national cemeteries honor the service and sacrifice of our 
veterans and service members for their country. Discusses delays in 
burial allowance benefits, which are not paid through the NCA, but do 
impact how families view their treatment by the VA and delay families 
from settling estates.
III. Arlington National Cemetery
    Discusses changes at the cemetery, the memento policy at section 60 
where the Iraq and Afghanistan war dead are interred, and the continued 
lack of a survivor representative on the Advisory Committee on 
Arlington National Cemetery.
IV. Limitations of the Corey-Shea Act
    Parents of service members who do not die due to hostile act or in 
a training incident remain ineligible for interment in national 
cemeteries with their children. The Corey-Shea Act does not apply to 
Arlington National Cemetery. This leaves some surviving parents who 
would like to be interred with their child no option other than the 
waiver request process.
V. VA and Arlington National Cemetery's Burial Waiver Request Process
    Expresses concern about the burial waiver request process for 
survivors who cannot qualify under the Corey-Shea Act and the decision-
making time frames within these processes.
VI. Recommendations for Improvement
    (1) Provide sensitivity training in how to work with bereaved 
families for national cemetery staff and Arlington National Cemetery 
staff. TAPS is willing to assist with this type of training at a 
national level.

    (2) Continue the surviving family town hall meetings at Arlington 
National Cemetery twice per year and work toward a viable solution for 
the mementos at section 60 that does not impair family grieving, 
impinge on mourning practices, nor detract from the dignity of the 
cemetery.

    (3) Nominate or appoint a surviving family member with a loved one 
interred at Arlington National Cemetery and consider additional 
survivors to join the Advisory Committee for Arlington National 
Cemetery.

    (4) Consider legislatively modifying the Corey-Shea Act to include 
surviving parents of active duty service members who are buried in a 
national cemetery, regardless of location of death or cause of death, 
in circumstances where the service member does not leave behind an 
eligible spouse or child. Consider legislatively modifying the Corey-
Shea Act to include Arlington National Cemetery.

    (5) Consider legislative improvements to define the waiver request 
process for the national cemetery system and Arlington National 
Cemetery, so those requesting interment or burial waivers can receive 
an indicator of a decision prior to their death, even if it cannot be a 
finalized decision.

    (6) Ask the VA Undersecretary for Memorial Affairs and the 
subcommittee to initiate discussions with the Veterans Benefits 
Administration about the slow payment of burial allowance benefits and 
explore what can be done to improve the backlog in survivor benefits, 
specifically, the burial allowance.

    Mr. Chairman and Members of the Subcommittee:

    I am pleased to have the opportunity to submit this testimony on 
behalf of the Tragedy Assistance Program for Survivors (TAPS).
    TAPS is the national organization providing compassionate care for 
the families of America's fallen military heroes. TAPS provides peer-
based emotional support, grief and trauma resources, grief seminars and 
retreats for adults, Good Grief Camps for children, online and in-
person care groups, casework assistance, connections to community-based 
care, and a 24/7 resource and information helpline for all who have 
been affected by a death in the Armed Forces. Services are provided to 
families at no cost to them. We do all of this without financial 
support from the Department of Defense. TAPS is funded by the 
generosity of the American people.
    TAPS was founded in 1994 by a group of surviving families following 
the deaths of their loved ones in a military plane crash. Since then, 
TAPS has offered comfort and care to more than 40,000 people. The 
journey through grief following a military death can be isolating and 
the long-term impact of grief is often not understood in our society 
today. On average, it takes a person experiencing a traumatic loss five 
to seven years to reach his or her ``new normal.''
    TAPS has extensive contact with the surviving families of America's 
fallen military service members, making TAPS uniquely qualified to 
comment on issues affecting the survivors left behind. TAPS received an 
average of 13 newly bereaved survivors per day in 2012. Survivors are 
referred to TAPS through our relationships with the Armed Services 
casualty assistance officers and direct contact from those who are 
grieving the death of someone who died while serving the Armed Forces.
    In 2012, 4,807 new survivors came to TAPS for comfort and care. In 
2013, the number of newly-bereaved military families coming to TAPS for 
care and support continues to climb. Between January 1 and October 24, 
2013, TAPS sadly welcomed 3,471 newly bereaved survivors for care and 
support.
    Causes of death were reported as follows by military families 
turning to TAPS for help and support:

    Suicide or suicide suspected 22.88 % (794)

    Hostile action/killed in action/Navy Yard shooting 22.47 % (780)

    Accident - auto/aviation/other 22.13 % (768)

    Sudden illness 17.11 % (594)

    Unknown cause of death 10.89 % (378)

    Homicide 2.74 % (95)

    Non-hostile/non-combat incidents 1.73 % (60)

    Friendly-fire 0.06 % (2)

    We have been asked by the subcommittee to discuss issues facing 
veterans cemeteries, including the classes of authorized parties 
permitted to request a headstone or marker or commemorate a decedent 
and the Secretary's authority to reconsider decisions to inter remains 
or honor the memory of a person in a national cemetery. The hearing 
will also address the state of various veterans cemeteries, including 
upkeep and areas for improvement, and the operations of Arlington 
National Cemetery, including the handoff of leadership, ongoing 
planning, design and construction.
I. Opinions on Current Legislative Issues Facing National Cemeteries
    The subcommittee has requested our opinion on recent legislative 
matters concerning the administration of the National Cemetery 
Administration and Arlington National Cemetery.
    Regarding the Alicia Dawn Koehl Respect for National Cemeteries Act 
(S.1471, H.R. 3106), which would provide the Secretary of Veterans 
Affairs and the Secretary of Defense the authority to reconsider 
decisions to inter or memorialize veterans in national cemeteries, in 
situations where there is sufficient evidence that a veteran has 
committed a state or capital crime, but had not been convicted of such 
a crime because the veteran was not available for trial due to death or 
flight to avoid prosecution. If a veteran has committed a state or 
federal capital crime, he or she is not eligible to be buried in a 
national cemetery, and it is reprehensible to think that a person who 
committed a capital crime would be interred in a cemetery alongside our 
veterans. The Tragedy Assistance Program for Survivors (TAPS) would not 
be opposed to this legislation, which allows both secretaries decision-
making latitude and provides for appeals processes if they are needed.
    Regarding the Volunteer Veterans for Cemetery Service Act (H.R. 
1957), which would authorize the Secretary of Defense and the Secretary 
of Veterans Affairs to accept voluntary services from veterans and 
veterans service organizations at national cemeteries. TAPS appreciates 
this legislation's intent to provide improved educational programs that 
would include veterans sharing with visitors the cemetery the stories 
of their military service.
    Regarding the Honor Those Who Served Act of 2013 (H.R. 2018), which 
further identifies the persons who are eligible to request headstones 
or markers furnished by the Secretary of Veterans Affairs. This act 
would enable local historians, genealogists, state veterans agencies, 
military researchers and others to request headstones or markers for 
grave sites newly identified that may have been unmarked for many 
years. Because the intention of this act is to improve appreciation for 
our veterans and their service to our country, TAPS is pleased to 
support this act.
II. Feedback about the VA National Cemetery Administration
    Since our founding in 1994, TAPS has worked cooperatively with the 
National Cemetery Administration (NCA) administered by the Department 
of Veterans Affairs. The national cemetery system and its 131 
cemeteries is the ultimate metaphor for the TAPS model of honoring the 
service and sacrifice of all those who died while serving in the Armed 
Forces, regardless of where or how they died.
    The shrine status of our national cemeteries is deeply appreciated 
by survivors and reflects the care and devotion of our nation to 
honoring those who serve and sacrifice for our freedoms. TAPS 
appreciates the stewardship of our national cemeteries undertaken by 
the National Cemetery Administration and its commitment to serving 
veterans and their families. TAPS is available and willing to provide 
bereavement care training for cemetery administration staff as 
requested.
    TAPS appreciates the care and concern Undersecretary Muro and his 
staff recently showed to the family of a National Guardsman who 
submitted a request for a waiver to Secretary Shinseki so they could 
place their loved one to rest. Their loved one had died by suicide. 
This complicated case was brought to a resolution recently for the 
family. They were granted a waiver and placed their loved one on 
September 27, 2013 in a grave site with another relative who was 
interred in a national cemetery. It was a fitting tribute to her 
service to her country and has given her family the peace of knowing 
that she is at rest.
    While we realize that the National Cemetery Administration is not 
responsible for the payment of burial allowances by the Veterans 
Benefits Administration, this is an issue which we would like to 
highlight for the subcommittee. VA burial allowances are partial 
reimbursements of an eligible Veteran's burial and funeral costs. When 
the cause of death is not service related, the reimbursements are 
generally described as two payments: (1) a burial and funeral expense 
allowance, and (2) a plot or interment allowance.
    Even though burial allowances, ranging from $300-$2,000, are not 
managed by the National Cemetery Administration, when excessive delays 
in payment of these allowances happen, they often sour the experience 
of the family. The perception of the surviving family is that these 
agencies are connected. And delays in payment can delay the closure of 
a decedent's estate and delay the family in being able to move forward 
following the death.
    While the survivor benefits backlog for burial allowances and other 
survivor benefits such as pension and Dependency and Indemnity 
Compensation, pales in comparison to the veterans disability benefits 
backlog, it includes thousands of family members who served alongside 
their loved ones for many years, who are waiting often many months 
after a funeral to receive their rightfully-owed benefits from our 
government. We recently had a case where a surviving father was told by 
VA staff that he would have to wait 14 months to receive a burial 
allowance for his son.
    Looking at the VA's Monday Morning Workload reports on a quarterly 
basis, the number of pending burial allowance claims is currently more 
than double what it was four years ago. The volume of pending claims 
appeared to peak at just under 67,000 pending claims in 2012 and began 
to decline in 2013. Each pending claim represents a family that is 
waiting for their benefits.

    09/30/13 - 45,671 pending claims
    07/01/13 - 51,078 pending claims
    04/01/13 - 62,094 pending claims

    12/31/12 - 63,979 pending claims
    10/01/12 - 63,126 pending claims
    07/02/12 - 66,754 pending claims
    04/02/12 - 65,835 pending claims
    01/03/12 - 59,204 pending claims

    10/03/11 - 49,819 pending claims
    07/05/11 - 49,819 pending claims
    04/04/11 - 37,976 pending claims
    01/03/11 - 28,115 pending claims

    10/04/10 - 26,609 pending claims
    07/06/10 - 26,854 pending claims
    04/05/10 - 27,198 pending claims
    01/04/10 - 22,710 pending claims

    10/05/09 - 21,004 pending claims

    While we realize the burial allowance benefit does not rest within 
his jurisdiction for his agency, TAPS would appreciate it if 
Undersecretary Muro could inquire with the Veterans Benefits 
Administration about this situation and ask what could be done to 
improve it. The delay in benefits reflects on the entire VA, not just 
the Veterans Benefits Administration. TAPS also appreciates the 
subcommittee's interest in this matter.
III. Arlington National Cemetery
    The new telephone system, GPS mapping and application, Google 
Street View mapping project, improved website, and plans for growth 
with the Millennium project are moving the cemetery's management from 
being behind the times, to becoming a leader in innovation and 
development.
    We feel this track record of progress is helping surviving families 
move forward beyond the scandals and revelations of 2010. TAPS has 
worked proactively with surviving families and the administration of 
Arlington National Cemetery for many years. We hosted a public forum in 
2010 for families to meet the new superintendent and executive director 
of the Army Cemeteries Program. We also supported families grappling 
with issues connected to the mismanagement at the cemetery, including 
two families who dis-interred their loved ones to determine if they 
were buried in the correct locations. We are relieved to be beyond 
those difficult days and to see improved management and financial 
oversight in place.
Section 60 Memento Removal & Compromise Permitting Mementos for Six 
        Months Per Year
    At the same time, changes in leadership and policies have been 
difficult at times. As was recently and widely reported in the news 
media, Arlington National Cemetery began removing mementos and items 
from section 60, where 868 of the Iraq and Afghanistan war dead are 
interred, on a consistent basis in late July and early August 2013, and 
a total of 2,000 active duty service member deaths are interred, within 
a section of 10,503 grave sites.
    Unfortunately, it was found that cemetery staff removed photographs 
and items from tombstones that had been placed by grieving families. 
Some of the items that were removed, such as a small crucifix that had 
been at a gravesite for four years, were not unsightly and posed no 
harm to others in the cemetery. The crucifix would not have been picked 
up by the section 60 memento history collection project, because it 
does not collect religious objects, and would have surely been disposed 
of in the section 60 clean-up.
    To provide some idea of volume and how many items are being left at 
section 60 routinely, historians have collected in the last four years 
approximately 28,000 items in section 60. Since 2009, the Army has 
operated a section 60 memento history collection project within the 
cemetery. This program was created to collect some of the historically 
interesting and unusual items in the cemetery from gravesites of those 
who died by hostile act in Iraq or Afghanistan, when it was realized by 
many that families today are grieving differently, than they did 
decades ago. Many families and battle buddies take solace in leaving an 
item or placing a rock to show that they visited.
    The ``enforcement'' of the floral policy in section 60 represented 
a significant departure from the status quo, as the cemetery had 
permitted families for the past four years a degree of latitude in what 
they left at gravesites, and typically only removed items that were 
deemed ``unsightly.'' The change in ``enforcement'' of the floral 
policy meant that the section was completely stripped of rocks, 
mementos, photographs and other items left by surviving families and 
battle buddies of our fallen troops. Multiple families began talking 
with peer mentors at TAPS and others about visiting the cemetery to 
leave small mementos or items, such as a special rock or laminated 
photo not attached to the head stone, and returning the following day 
to find the items removed.
    For TAPS peer mentor Kristen Santos-Silva, surviving spouse of Army 
Sergeant First Class Carlos Santos-Silva who was killed in 2010 in 
Afghanistan, the changes at section 60 were upsetting. She wrote:

    ``Arlington National Cemetery is a unique and special place in the 
hearts of individuals. Many soldiers have been buried here and will 
continue to be buried here. In regard to the memento policy, as a 
surviving spouse and mother of a child whom has his father buried in 
Section 60 we ask for permission to allow our story to continue of our 
solider.
    My husband was KIA at the age of 32. His life ended but his legacy 
can continue to others with the mementos that are left at his tombstone 
marker. My son (at the time his father died, he was 11 years old), and 
I moved to Maryland to be close to Carlos, our hero. For three and a 
half years we have celebrated all the holidays, birthdays, and 
anniversaries in Section 60, with friends, family, and many of his 
soldiers, who continue to battle with post-traumatic stress.
    For three and a half years photos have been placed on the back of 
his tombstone marker. This is our environment as survivors and 
comrades. To share who he was as a solider, father, husband, son, and 
friend. The photos offer a face to the name, which offers respect.
    In walking around Arlington National Cemetery and section 60 it 
brings peace and comfort to see the decorated photos, mementos, stones 
on top of the tombstones, and little ``gifts'' that are left. We learn 
about the solider who laid his life down for us, our country, and pure 
sacrifice. Section 60 brings solace with the life that comes alive in 
this special section.
    In touring section 60 after the rule implication of the past couple 
of months it is a ``ghost town.'' No, peace, comfort or solace 
provided, just empty grave markers and tombstones. This is more 
depressing and another reminder our solider is gone. The mementos and 
pictures bring this unique section to life, we as survivors, and as a 
nation need to remember and experience the joy of a few minutes 
visiting our soldier and knowing that others that visit will be able to 
experience the joy that we have when they were alive. We need the 
pictures to continue to tell their story and legacy.
    Having my husband's tombstone mementos removed caused utter shock. 
My mother-in-law, father-in-law, my son, and personal friends were all 
together the day that we saw everything gone in late July 2013. My 
mother-in-law, was so upset that somebody could rip her son's photos 
and coin off his tombstone. How does this hurt anybody with pictures 
being on the tombstone, she asked? We have to suffer as family 
survivors. It is just wrong to treat our heroes this way. Just pure 
disbelief in regard to no pictures or coins being available to view.''


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Left: Kristen Santos-Silva at her husband's gravesite in section 60 
before the floral policy enforcement change with the medallion designed 
by her mother-in-law in honor of her husband's sacrifice and small 
stones on the top of the head stone. Center: the head stone after the 
medallion was removed and the floral policy enforced. Right: The 
Santos-Silva family on the cemetery in late July when they discovered 
the medallion and photos on the back of the head stone were gone.

    It should be noted that the families themselves have a variety of 
opinions about what is appropriate to leave at gravesites. Many want to 
leave small objects, cards, flowers and photos that are not attached to 
the headstones. Some want to attach a small item to the stone or photos 
to the back of the stone. Some want to leave only flowers and comply 
completely with the regulations. Many survivors feel that even if what 
someone else leaves at a gravesite is not consistent with their own 
customs, that it is not appropriate to criticize another survivor for 
what he or she needs to do to grieve a death. In most cases, there is 
great reluctance within the survivor community to criticize mourning 
practices, due to the personal nature of grief and loss.
    It should also be recognized that mourning practices are specific 
to individuals and their family customs, religious beliefs and the 
circumstances surrounding the death. In some religious traditions, 
leaving rocks or coins at a gravesite is considered a substitution for 
flowers because they won't wilt or blow away. The leaving of pennies, 
nickels, dimes and quarters carries different meanings within the 
survivor and veteran communities.
    The leaving of mementos in cemeteries is common and not specific to 
Arlington National Cemetery or our national cemeteries. Some families 
leave mementos not because they are ``stuck'' in their grief, but 
rather because they are trying to incorporate their loved one into 
their new life after the loss. Rather than viewing memento leaving as a 
way for people to be held back in their grief, many families we know 
talk about how leaving an item at a grave site helps them live a normal 
life.
    Because the public is aware of section 60 and its community of 
grieving families and graves of the war dead, the section is visited by 
the public. It is not a private place for families to grieve, but 
rather a public place. This means the cemetery cannot guarantee items 
will remain if left by families, but in practice, items have often 
stayed for many weeks, months, and in some cases, years. Some families 
leave photos because they would like for these visitors to see pictures 
of their loved ones and to understand the price their loved ones paid 
for the freedoms enjoyed by all of us.
    Paula Davis, surviving mother, wrote to the Advisory Committee on 
Arlington National Cemetery, about her feelings on the floral policy 
enforcement at section 60:

    ``I'm aware of the Arlington regulations that ask families not to 
leave items other than flowers on the graves. I am writing to ask you 
to consider leniency for the Gold Star Families with loved ones buried 
in section 60. Because of the sensitivity of who is buried in Section 
60 right now - our young men and women who have passed in our nation's 
current war, I'm asking that you leave for a period of time items 
(mementos) that aren't supposed to be there and then pick them up 
later. We don't have a Memorial Wall like the Vietnam Memorial Wall. 
Our son's and daughter's tombstones are our wall. Gold Star Families 
and Veterans need a place to heal their wounds and mourn our children, 
brothers, sisters, and their brothers and sisters in arms. Section 60 
is our wall for now. Permitting a laminated picture no larger than a 
certain size, 5x7 to be placed in front of the stone would not be the 
same as attaching the picture to the stone. Section 60 is a place of 
healing and honor for the Gold Star Families. It means a lot to the 
families who have loved ones buried there.''

    After a concerned surviving parent contacted Senator Mikulski's 
office, the cemetery agreed to a meeting to talk with surviving 
families, which was held on October 6, 2013 in the cemetery's 
administration building. For many of the families attending the 
meeting, it was the first time they had been in the administration 
building since the day of their loved one's funeral. TAPS provided 
bereavement care and support at the meeting, including a licensed 
counselor who sat with families and several peer mentors attended. 
Superintendent Hallinan and several members of his staff attended the 
meeting.
    During the emotional meeting where families explained how the 
changes had impacted them, Superintendent Hallinan apologized multiple 
times to the families for the pain that these changes had caused them 
and for the lack of communication by the cemetery staff with the 
families ahead of these changes. He said they are permitted to leave 
small mementos and photographs, if they are not attached to the head 
stones, and asked them to refrain from leaving glass objects or items 
that might pose a hazard to others. We also suggested some ideas for 
ways the cemetery could work with families to share the legacies of 
their loved ones and improve the educational programs at Arlington 
National Cemetery - perhaps through starting a docent program with the 
families, allowing families to share information through the app about 
the cemetery for visitors, or creating exhibits using some of the items 
collected by the history collection project.
    A few days after the meeting, the staff at Arlington National 
Cemetery contacted the families who attended with this note:

    ``Ladies and Gentlemen, Mr. Hallinan requested I extend his 
heartfelt thank you for your participation in our round table 
discussion with us on October 6, 2013. We felt the meeting was positive 
and generated several suggestions for improving communications between 
the family and ANC as we addressed issues associated with cemetery 
maintenance and the Section 60 Mementos Pilot Program. Mr. Hallinan has 
agreed to hold Gold Star Family roundtables twice a year and we are 
working to identify flexibility within our existing policies. For 
example, as the cemetery enters the non-growing season (where mowing of 
the grounds is less frequent), the cemetery will allow small 
photographs and small handcrafted items not affixed to the headstone to 
be left alongside your loved ones' headstone. Additionally, he has 
waived the scheduled pick up for tomorrow. Pickup of items not 
collected under the Mementos Policy will begin on October 25th and will 
occur on the second and fourth Friday of each month.

    Arlington National Cemetery policy, which is similar to that of 
other national cemeteries, allows artificial flowers to be left at 
gravesites between October 10 and April 15. Allowing additional items 
to be left at gravesites during this time period is consistent with 
that policy. We will continue standard grounds' maintenance during this 
time period and remove unsightly flowers, items that are affixed to 
headstones or which pose a safety hazard to visitors and staff, such as 
tobacco, alcohol, ammunition, or glass items. Cemetery personnel will 
also remove items considered to detract from the dignity and decorum of 
ANC. We are committed to keeping the Gold Star Families informed and 
provide notice prior to implementation of any changes.''

    Cemetery staff confirmed that mementos and photos will not be 
removed by the cemetery's staff if they are not unsightly and comply 
with the requirements between October 10 and April 15 (when the 
cemetery regulations permit artificial flowers).
    Our impression is that the meeting went well for all involved. The 
families felt heard and supported in talking about the changes that had 
caused many of them pain. The cemetery administration has indicated a 
willingness to talk with the families and is working to identify 
flexibility in its current regulations. At the same time, while this 
compromise allows items to remain at the gravesites for six months of 
the year, it is still a radical departure from what has been permitted 
for the last four years by the administration and it will have a long-
term effect on the families.
    While these compromises are laudable and much appreciated by many 
of the families, we would like to know what will happen to mementos 
left in section 60 between April 16 and October 9, as this six-month 
period is the time of year when many families visit the cemetery. Many 
families leave items at gravesites in advance of Memorial Day. If items 
will be removed during this six-month period on a weekly basis, it will 
continue to be upsetting to some of the families, especially those who 
live far away and only visit a few times a year. It will be very 
important for the cemetery staff, TAPS and other organizations 
supporting survivors to educate families about these changes and the 
policies, in order for families to understand.
    We hope that plans for the next meeting of the Advisory Committee 
on Arlington National Cemetery will be well-publicized, as the 
committee is scheduled to discuss the floral policy and advance notice 
would permit families to submit statements to the committee and attend 
the meeting.
    TAPS is available and willing to provide bereavement care training 
for Arlington National Cemetery administration staff as requested.
Survivor Representative Needed on the Advisory Committee on Arlington 
        National Cemetery
    As we testified in April 2013, the community of surviving families 
was saddened greatly by the death from cancer of Janet Manion in April 
2012. Mrs. Manion was a gold star mother who served on the Advisory 
Committee on Arlington National Cemetery. Her son is buried at Section 
60 among the many other heroes who gave their lives in Iraq and 
Afghanistan.
    Mrs. Manion was the only identified surviving family member of a 
service member buried at Arlington National Cemetery on the committee. 
The cemetery staff have talked about how critical her input was as the 
committee considered the cemetery's floral policy. More than a year 
after her death, no survivor has been named to replace her and 
additional vacancies exist on the committee. Mrs. Manion is currently 
buried at section 60 with her son.
    The current members of the committee all have exceptional 
credentials with the military and veterans service, but none are 
identified as a surviving family member. This important stakeholder 
population - the families that are grieving their loved ones - is 
impacted by decisions made by the advisory committee and could 
contribute to the decisions this committee makes, and we believe there 
should be at least one survivor, if not more, on the committee.
Plans for the Section 60 Historical Memento Collection Project
    We appreciate the Army's history memento collection project at 
Section 60, which collects artifacts and mementos of historical 
significance once per week on Thursdays and archives them for 
posterity. The project has been operating since 2009 and collected more 
than 28,000 items. It has helped some of the families, who feared their 
mementos were thrown away in the clean-up efforts, to find out that 
some of the items were collected by the history collection project and 
preserved. In some cases, families have been able to get photographs of 
the items from the cemetery administration and this has helped them. We 
hope the cemetery will be able to utilize the collection to share 
information in partnership with families that further educational 
programs about our fallen military and their legacies.
IV. Limitations of the Corey-Shea Act
    An area that TAPS would like to bring to the attention of the 
subcommittee is the limitations of the Corey-Shea Act (Public Law 111-
275, Title V, Section 502) and its impact on surviving military 
families. This act permits the burial or interment of a biological or 
adoptive parent in a national cemetery with their child who served in 
the military and died by hostile action or from a training-related 
injury. Parents are only eligible if the service member does not leave 
behind a spouse or child who would be eligible to be interred with the 
service member, and if the Secretary of Veterans Affairs determines 
that there is space available at the gravesite. The Corey-Shea Act does 
not apply to Arlington National Cemetery.
    It is not uncommon for grieving military parents to want to be 
buried with their children who have pre-deceased them. TAPS supports 
the Corey-Shea Act for assisting some parents in fulfilling this 
desire. However, not all grieving military parents are eligible for 
these burial privileges, because the Corey-Shea Act limits eligibility 
to only cases where a service member dies due to hostile action, 
friendly fire, or from an injury incurred in military training for a 
combat mission.
    Of the 4,489 deaths reported by the Pentagon as part of Operation 
Iraqi Freedom and Operation New Dawn, approximately 957 service member 
deaths (21%) were due to non-hostile acts. Of the 2,285 deaths reported 
by the Pentagon as part of Operation Enduring Freedom, approximately 
489 service member deaths (21%) were not due to hostile action. While a 
handful of these non-hostile deaths might qualify under the friendly-
fire provision in the legislation, many of these parents who lost their 
child who was deployed in a war zone would not be eligible.
    A surviving father named Frank Contreras of Albuquerque, New Mexico 
made contact with TAPS requesting help because he would like to be 
buried with his son, Army Specialist Vincent Frank Contreras. 
Specialist Contreras died at age 20 in an auto accident on September 3, 
2011, while deployed in Germany for training. He is buried at Santa Fe 
National Cemetery. Mr. Contreras raised his son as a single parent and 
Vincent was his only child. Mr. Contreras had a close relationship with 
his son. In the obituary published for Specialist Contreras, Mr. 
Contreras is the only survivor and there are no other family members 
listed. Mr. Contreras was initially cheered by the passage of the 
Corey-Shea Act and the media reports about it, but then discovered that 
he was not eligible.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    When asked why he wants to be buried with his son, Mr. Contreras 
said, ``This would mean a lot to be right with him. I'd like to just be 
with him. One day I'll be ready to visit him, but it would be better if 
I was with him . . . My only wish is to be with him when I die. He was 
only twenty-years old when he died. I would like for my last thing in 
life to be buried with him. It would be the greatest thing on earth. 
That would mean a lot, just to know that I would be there. It's hard to 
describe, but that's a man's dream to be buried - it's my dream to be 
buried with my son.''
    If Specialist Contreras had died on the training field, his father 
would be eligible to be buried with him. But because he died on a 
roadside while in Germany for training, his father is not eligible for 
burial benefits. For other military families whose loved ones do not 
die in combat or from a training-related injury, the same denial 
happens. If their loved one dies from a sudden illness, a cancer 
potentially-related to burn-pit exposure in Iraq or Afghanistan, by 
homicide, suicide, or in an accident off-base, their parents cannot 
request to be buried with them in a national cemetery. The Corey-Shea 
Act does not apply to Arlington National Cemetery, so grieving parents 
have no option to be placed with their child, unless they pursue a 
waiver.
    Because of its negative impact on survivors whose loved ones did 
not die in combat or from a training-related injury while preparing for 
combat, TAPS would support the future expansion of the Corey-Shea Act 
to include surviving parents of service members, regardless of manner 
of death or location of death, in cases where the veteran or service 
member does not leave behind an eligible spouse or child, and in cases 
where the Secretary of Veterans Affairs (for those interred in national 
cemeteries), the Secretary of the Army (for those interred at Arlington 
National Cemetery), or the appropriate representative, determines that 
there is space at the gravesite for the interment of additional 
remains.
    We respectfully request the subcommittee consider making 
legislative modifications to the Corey-Shea Act to provide relief for 
these families.
V. VA and Arlington National Cemetery's Burial Waiver Request Process
    One might think a potential solution for ineligible parents like 
Mr. Contreras, would be to apply to the Secretary of the VA for a 
waiver, requesting burial with their child in a national cemetery. A 
similar waiver process exists at Arlington National Cemetery. Waivers 
could, in theory, resolve the matter on a case-by-case basis. However, 
the process of requesting a waiver for burial or interment in a 
national cemetery, or at Arlington National Cemetery, is a process 
where these grieving parents can find no relief.
    While Mr. Contreras and other parents ineligible for burial 
benefits with their children could request waivers- they would have to 
die not knowing if their requests to be buried with their children 
could be granted. In practice, the VA and Arlington National Cemetery 
do not grant waivers until after the person has died. This means that a 
requesting parent has to die without knowing if the request to be 
buried with the child will be permitted.
    When talking with another parent about the waiver process a few 
years ago before the Corey-Shea Act was passed, a surviving mother told 
me she found no relief in having to die without knowing if she would be 
placed with her son, who is buried in a national cemetery and was 
killed in action.
    Because the VA and Arlington National Cemetery determine ``at the 
time of need'' if space is available for someone who is ineligible, the 
people desiring waivers have to die not knowing if their waiver 
requests will be granted.
    Typically the Next of Kin of the Decedent must be entrusted to 
steward the request for a waiver after a survivor has died. The 
standards used by Arlington National Cemetery's instructions tell those 
requesting an exception to pay particular attention to explaining how 
the requestor has served honorably in the U.S. military and/or has 
lifetime achievements that have provided significant and notable 
support to the U.S. military.
    In a 2011 memorandum VA examined National Cemetery Administration 
records from 2001 to 2009 to determine the potential impact of the 
Corey-Shea Act. NCA's examination found a total of 135 requests for 
waivers were received. Twenty-three of the 135 waiver requests were for 
the burial of parents. VA approved only 8 of the 23 requested burial 
waivers for parents. It is reasonable for a parent to expect, with only 
this type of information available, that his or her request to be 
buried with a child may not be granted. Dying without knowing whether 
one can be buried with one's child when a parent desires it, is an 
emotional burden for a grieving parent to carry.
    This is an area where better defining the waiver request process 
could help survivors. A legislative solution could empower the National 
Cemetery Administration and Arlington National Cemetery to make a 
preliminary determination on a waiver request, so parents would have 
more assurance before their deaths, if their desire to be buried with 
their children could be granted. While it might not be a full 
declaration of eligibility, nor a guarantee, it could at least give 
these grieving parents some relief so they could plan their affairs 
accordingly.
    We believe that improving the waiver process with greater clarity 
and earlier decision-making could alleviate some of the pain that 
grieving families now experience in the waiver process, and request the 
subcommittee consider legislation that would provide relief for parents 
of service members and veterans seeking a waiver.
VI. Recommendations for Improvement
    (1) Provide sensitivity training in how to work with bereaved 
families for national cemetery staff and Arlington National Cemetery 
staff. TAPS is willing to assist with this type of training at a 
national level.

    (2) Continue the surviving family town hall meetings at Arlington 
National Cemetery twice per year and work toward a viable solution for 
the mementos at section 60 that does not impair family grieving, 
impinge on mourning practices, nor detract from the dignity of the 
cemetery.

    (3) Nominate or appoint a surviving family member with a loved one 
interred at Arlington National Cemetery and consider additional 
survivors to join the Advisory Committee for Arlington National 
Cemetery.

    (4) Consider legislatively modifying the Corey-Shea Act to include 
surviving parents of active duty service members who are buried in a 
national cemetery, regardless of location of death or cause of death, 
in circumstances where the service member does not leave behind an 
eligible spouse or child. Consider legislatively modifying the Corey-
Shea Act to include Arlington National Cemetery.

    (5) Consider legislative improvements to define the waiver request 
process for the national cemetery system and Arlington National 
Cemetery, so those requesting interment or burial waivers can receive 
an indicator of a decision prior to their death, even if it cannot be a 
finalized decision.

    (6) Ask the VA Undersecretary for Memorial Affairs and the 
subcommittee to initiate discussions with the Veterans Benefits 
Administration about the slow payment of burial allowance benefits and 
explore what can be done to improve the backlog in survivor benefits, 
specifically, the burial allowance.

    Thank you for the opportunity to submit this testimony on behalf of 
the Tragedy Assistance Program for Survivors.
DISCLOSURE STATEMENT
    Neither Ami Neiberger-Miller, nor the Tragedy Assistance Program 
for Survivors (TAPS), have received any Federal grant or contract, 
relevant to the subject matter of this testimony, during the current or 
previous two fiscal years.

                                 <F-dash>
                 Prepared Statement of Diane M. Zumatto
    Chairman Runyan, Ranking Member Titus and distinguished members of 
the Subcommittee, on behalf of AMVETS, I thank you for the opportunity 
to share both our praise and concerns related to the National Cemetery 
Administration and the dignified burials of our veterans.
    The most important obligation of the National Cemetery 
Administration is honoring the memory of the brave American men and 
women who have, over the course of our country's history, selflessly 
served in our Armed Forces. Therefore, it is with this sacred duty in 
mind that we expect the stewardship, accessibility and maintenance of 
our entire NCA cemetery system, as well as Arlington National Cemetery, 
be treated as the highest priority. AMVETS believes that the dignified 
burial of America's veterans is equally as important as any other 
service provided by the VA. It is with this in mind that, AMVETS 
supports extending advanced appropriations to the remainder of the 
discretionary and mandatory programs, services and benefits accounts of 
the VA, which would include the NCA. This issue of advanced 
appropriations is at the top of our list of concerns regarding NCA 
operations.
    Four years ago, the President signed the ``Veterans Health Care 
Budget Reform and Transparency Act of 2009,'' now Public Law 111-81, to 
provide one-year advance appropriations for the Department of Veterans 
Affairs' (VA's) medical care programs. At the bill signing ceremony the 
President called advance appropriations legislation ``common-sense 
reform'' and declared that, `` . . . veterans' health care will no 
longer be held hostage to annual budget battles in Washington.'' He 
further stated that the advance appropriations process ``promotes 
accountability,'' is ``fiscally responsible,'' and does not ``add a 
dime to the deficit.'' AMVETS fully supports these sentiments.
    Advance appropriations for veteran's health care have proven to be 
nothing less than a resounding success for all stakeholders. Timely and 
predictable funding has produced numerous operational efficiencies in 
the planning and budgeting process and has enabled VA to more 
resourcefully utilize its Congressionally-provided appropriations in 
operating its medical facilities and programs. Unfortunately, other 
veteran's benefits and services that rely wholly or partially on 
discretionary funding face annual threats of funding delays and 
reductions due to annual budget fights. Extending advance 
appropriations would shield all veterans programs from unrelated 
political and partisan budget disputes so that VA can continue to 
deliver all the benefits and services that wounded, injured and ill 
veterans have earned.
    As the recent government shutdown has, without a doubt proven, 
advance appropriations not only work, they work well. Thanks to their 
advance funding, VA hospitals and clinics were able to provide 
uninterrupted care to millions of wounded, injured and ill veterans. By 
contrast, other critical services for veterans were delayed, disrupted 
and suspended. Work was stopped on more than 250,000 Department of 
Veterans Affairs (VA) disability claims awaiting appeals, burials at 
national cemeteries were scaled back and vital medical and prosthetic 
research projects were suspended. Had this stalemate continued for 
another couple of weeks, even mandatory obligations of the federal 
government, such as disability compensation and pension payments to 
veterans and their survivors, would have been halted. More than four 
million wounded, injured, ill and poor veterans rely on these payments; 
for some it is their primary or only source of income. It is simply 
unacceptable that there was even the threat of default on these hard-
earned benefits.
    The direct impact of advanced appropriations on NCA would be 
substantial and would prevent the interruption of a myriad of burial 
and memorial services including:

    I limited and/or delayed interment schedules
    I cessation of administrative functions - no Presidential Memorial 
Certificates issued; interruption of headstone/marker/medallion 
application processing & status
    I termination of maintenance functions
    I inability to provide headstones/markers/medallions and other 
burial receptacles to veterans and eligible family members

    Under Secretary Muro has done an excellent job executing the 
responsibilities of his office to date and with continued funding at 
appropriate levels, will reach new levels of distinction including:

    <bullet>  continuing to address increasing workload requirements;

    I interments are expected to continue rising through 2017
    I maintain increasing numbers of occupied gravesites and acreage
    I issuance of ever increasing requests for Presidential Memorial 
Certificates
    I process growing requests for headstones/markers

    <bullet>  expanding burial access for veterans and their eligible 
family members;

    I develop 5 new national cemeteries (Western NY Area; Scottsmoor, 
FL; Tallahassee, FL; Southern Colorado Area; & Omaha, NE)
    I develop 8 National Veterans Burial Grounds in rural locations 
(ME, WI, NV, UT, WY, ID, ND, MT)
    I develop 5 urban initiative facilities (San Francisco Area, Los 
Angeles Area, Chicago Area, Indianapolis Area & New York City Area)

    <bullet>  achieving high levels of customer satisfaction;

    I continue customer service best practices

    <bullet>  implementing cost saving and operational improvement 
measures;

    I headstone support systems;
    I pre-placed crypts;
    I water-wise landscaping; and
    I memorial walls

    Looking ahead to FY 2014, AMVETS supports the NCA as they make 
progress on several major initiatives critical to the achievement of 
their mission through implementation of their strategic goals 
including:

    <bullet>  much needed land acquisition and critical master planning 
efforts without which, NCA would be unable to meet the growing needs of 
our nation's veterans, especially those in rural areas, and their 
eligible family members;
    <bullet>  continuously improving preservation and restoration of 
irreplaceable historic resources which not only commemorate the valor 
and service of our veterans, but record the very historic fabric of our 
nation's history;
    <bullet>  continued development and utilization of customer service 
best practices;
    <bullet>  continued leadership in and expansion of the hiring and 
training of veterans;

    I the Veterans Apprenticeship Program will be graduating 13 
formerly homeless veterans as new caretakers and is expecting the 
incoming class to welcome 24 new candidates.
    I the composition of NCA's current workforce is highly veteran 
oriented, with over 74% of its employees having served in the military.
    I approximately 84 % of NCA's contracts were awarded to Veteran-
Owned and Service Disabled Veteran-Owned small businesses.

    <bullet>  leading edge improvements in the area of environmental 
stewardship and facilities maintenance which not only leverage 
resources but uphold the high standards required of national shrines.

    It is also our understanding that the following legislative 
proposals were submitted with the FY 2014 budget request:

    <bullet>  Use of Character of Service Determinations for Active 
Duty Deaths: this proposal would require that a service member who dies 
in active service must have been serving under conditions other than 
dishonorable to be eligible for burial in a VA National Cemetery. It 
would also do the same for a burial flag. This cost-neutral proposal 
would correct the current inequity between the treatment of active duty 
service members and veterans and would not authorize any new benefits. 
AMVETS would support this legislation.
    <bullet>  Expand Authority to Provide Headstones and Markers to 
Eligible Spouses and Dependents at Tribal Veteran's Cemeteries: this 
proposal would provide eligibility for headstones and markers for 
burial and memorialization of Veteran's eligible spouses and dependent 
children interred at Tribal Veteran's Cemeteries. This proposal would 
carry a negligible price tag of under $13 thousand in 2014 and $182 
thousand over 10 years. AMVETS would support this legislation.
    <bullet>  Expand VA's Authority to Provide an Allowance to 
transport Certain Deceased Veterans to a state or Tribal Veterans 
Cemeteries: this proposal would expand VA's authority to cover 
transportation costs for the remains of certain deceased veterans to 
include the closest State or Tribal Veterans Cemetery for burial. 
AMVETS would support this nearly cost-neutral legislation.
    <bullet>  Expand VA's Authority to Provide outer Burial Receptacles 
to State and Tribal Cemeteries: this proposal would direct VA to 
provide outer burial receptacles for each new casketed gravesite in a 
State or Tribal Veterans Cemetery that receives a grant from the VA's 
Veterans Cemetery Grants program. Costs associated with this 
legislation would average$2.55 million in FY 2014 and $27.8 million 
over 10 years. AMVETS would support this legislation.

    This concludes my testimony for today and I'll be happy to answer 
any questions you may have.

    30 October 2013

    The Honorable Representative Jon Runyan, Chairman
    Subcommittee on Disability Assistance & Memorial Affairs
    U.S. House of Representatives, Veterans Affairs Committee
    335 Cannon House Office Building
    Washington, DC 20510

    Dear Chairman Runyan:

    Neither AMVETS nor I have received any federal grants or contracts, 
during this year or in the last two years, from any agency or program 
relevant to the upcoming 7 March 2013, Subcommittee on Disability 
Assistance & Memorial Affairs hearing on Sustaining the Sacred Trust: 
An Update on our National Cemeteries.

    Sincerely,

    Diane M. Zumatto, AMVETS
    National Legislative Director

                                 <F-dash>
                       Statements For The Record

                             MR. PAUL LaRUE
    Chairman Runyan and members of the Subcommittee:
    It is an honor to provide information to the committee as it 
relates to dignified burials for our military veterans. My name is Paul 
LaRue, and I am a high school history teacher in Washington Court 
House, Ohio , about fifty miles southwest of Columbus. I would like to 
provide testimony in support of H.R. 2018. In 2001, I was showing my 
history class a section of our local cemetery where several African 
American Civil War Veterans are buried. After observing the condition 
of the veteran's headstones, one of my students said, ``Don't these men 
deserve better?'' (Exhibits # 1 and #2.) With that simple question my 
students and I decided to help get these forgotten heroes the final 
tribute they had earned. We began with the help of the Department of 
Veterans Affairs' headstone policy (circa 2002), and our local cemetery 
superintendent, a Vietnam War veteran. The students researched and 
ordered headstones for the veterans with unmarked graves. In the spring 
of 2002 my students began the process of installing the new VA 
headstones, as well as lifting, straightening, and cleaning the 
existing headstones (exhibit #3 and #4.) My students' teamwork and 
enthusiasm for the project was amazing. On May 22nd 2002 we had a 
dedication ceremony for the newly rejuvenated Soldier's Row. These 
students were seniors, and wanted to complete this project before their 
graduation. Though a little over ten years ago, I have run into some of 
my old students, who can state with pride which headstone they helped 
install. One of my students discovered that his great, great 
grandfather was born a slave and served in the Union army before moving 
to our community to raise his family. This section of our cemetery has 
gone from looking sad and neglected, to being a source of pride for our 
community (exhibits # 5 and #6.)
    Following the success of this project, my students and I have been 
invited to several other cemeteries to help mark the graves of veterans 
with unmarked graves. The spring of 2013 my students and I traveled to 
Beech Grove Cemetery in Cincinnati at the request of Carl Westmoreland, 
senior historian at the National Underground Railroad Freedom Center. 
For the second year in a row my students had researched, ordered, and 
installed headstones for African American veterans with unmarked 
graves. Jason Dominguez, Assistant Director at the Ohio Department of 
Veterans Services, joined my students to help install and properly 
recognize these forgotten heroes (exhibits # 7 and #8.) Luckily, we had 
ordered these headstones before the VA began enforcing its new next of 
kin policy.
    My students have researched, ordered, and installed over seventy 
veterans' headstones in five cemeteries in southern Ohio. I have been 
in the classroom since 1985, and have won numerous state and national 
teaching awards, including recognition from The History Channel for our 
work marking Veterans graves. The success of this project and its 
lasting impact on students, military veterans, and the community is 
what I am most proud.
    The change in the Department of Veterans Affairs' headstone policy, 
though well intentioned, has created negative consequences for 
underserved veteran populations by requiring lineal descendants only to 
request headstones. Often Veterans began their lives in slavery or as 
immigrants to this country (exhibits #9 and #10 , taken from a lesson 
plan I completed for the Civil War Trust,) so lineal descendants are 
impossible to identify, if any exist. The type of projects my students 
and I, as well as many other groups around the country, have undertaken 
will no longer be possible. Over the years my students and I have 
developed a core belief: ``All veterans regardless of race, ethnicity, 
religion, or gender should have a headstone, ``(exhibit #11.) As one of 
my students asked on that day in our local cemetery over a dozen years 
ago, ``Don't these men deserve better?'' The answer is yes, they do; 
please support H.R. 2018. Thank you.

    Paul LaRue



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                           JEFFREY I. RICHMAN
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:

    As President John Fitzgerald Kennedy said years ago, ``A nation 
reveals itself not only by the men it produces-but also by the men it 
honors, the men it remembers.'' That's the hope - that America honors 
the service of all of its veterans who lie in unmarked graves by 
marking those graves.

    The Problem: On July 1, 2009, the Department of Veterans Affairs 
adopted regulations that substantially changed the process of applying 
for a VA marker and, with the enforcement of that regulation beginning 
in 2012, has virtually shut that program down. Prior to the enactment 
of these regulations, a cemetery, a museum, an historian, or anyone 
else qualified as an applicant for VA markers. However, new regulations 
changed that: Code of Federal Regulations section 38.632-(1) created an 
entirely new and unreasonably limited definition of ``Applicant: 
Applicant means the decedent's next-of-kin (NOK), a person authorized 
in writing by the NOK, or a personal representative authorized in 
writing by the decedent to apply for a Government-furnished headstone 
or marker . . . .''

    The Proposed Solution: This regulation, as it applies to veterans 
who answered the call of their country generations ago, is 
inappropriately narrow and should be rescinded. In its place, a 
separate category should be created for applications to mark the 
unmarked graves of veterans who have been separated from service for 62 
years--the time period that the National Archives uses as the 
appropriate period after which a veteran becomes part of history and 
his or her records are made public. If a veteran was separated from 
service more than 62 years ago, anyone--historian, plumber, 
Congressman, upon proof to the satisfaction of the VA of the veteran's 
military service, and with permission of the cemetery where the veteran 
is interred that a marker may be installed, should be allowed to apply 
to the VA for a marker. Or, in the alternative, a more restrictive, but 
still workable rule, would put the line at 62 years after the veteran's 
death.

    My Background: I am the historian at The Green-Wood Cemetery in 
Brooklyn, New York, a National Historic Landmark and one of America's 
first rural cemeteries, where more than half a million individuals are 
interred. Veterans of every war that America has fought are interred 
there. I am also on the board of trustees of the North Shore Civil War 
Roundtable. In 2012, I was the coordinator for New York State Day at 
Antietam National Battlefield. I am a color bearer for the Civil War 
Trust and am a member of the Center for Civil War Photography. I am the 
author or editor of three books, including ``Final Camping Ground: 
Civil War Veterans at Brooklyn's Green-Wood Cemetery, In Their Own 
Words.'' In 2012, I obtained bronze markers from the VA to mark the 
unmarked graves of men who died in Mexico during the Mexican War. I 
created the website marktheirgraves.org to protest the Veteran's 
Administration's overly-restrictive policy concerning who may apply to 
mark the unmarked grave of a United States veteran.
    I very much appreciate this opportunity to submit this statement to 
the House Committee on Veterans' Affairs, Subcommittee on Disability 
Assistance and Memorial Affairs, in conjunction with its hearing, 
``Focused Issues on Dignified Burials: A National Cemetery Update.''

    The Background: Now, as we commemorate the sesquicentennial of the 
Civil War, groups and individuals across the globe (and as far away as 
Australia) have been identifying Civil War and other veterans who lie 
in unmarked graves and have been applying to the Veterans 
Administration for markers for these men.
    Since 2002, I have led Green-Wood's Civil War Project, which has 
identified 5,000 Civil War veterans, including 85 Confederates, who are 
interred there. Remarkably, of those 5,000 men, 2,000 were in unmarked 
graves--nothing bore their name. They were forgotten. But it was 
certainly not the intention of Congress or the federal government that 
they be forgotten.
    The Veterans Administration's Headstones and Markers Program is 
tremendously important. It has been marking the unmarked graves of 
Civil War veterans, as well as veterans of other eras, since 1879. 
However, as of mid-2012, that marker program, in effect, has been shut 
down for many long-forgotten veterans.
    Many veterans lie in unmarked graves. By one sample, 40% of Civil 
War veterans, men who sacrificed so much, had nothing visible at their 
graves with even their name on it, let alone anything that pays tribute 
to their service. The VA, for years, has allowed anyone, upon proof of 
military service, to request a marker, so long as the cemetery where 
the veteran is interred agrees to allow its installation.
    As a result, dedicated volunteer researchers across America and the 
world--as far away as Australia-have been working diligently to 
identify veterans who lie in unmarked graves-and to get their graves 
marked with headstones or bronzes issued by the Veterans 
Administration.
    But, on July 1, 2009, the VA adopted regulations that substantially 
changed the process for applying for a VA marker and, with the 
enforcement of that regulation beginning in 2012, has virtually shut 
that program down. Prior to the enactment of these regulations, a 
cemetery, a museum, an historian, or anyone else was permitted to apply 
for markers. However, the new regulations changed that: Code of Federal 
Regulations section 38.632-(1) created an entirely new and unreasonably 
limited definition of ``Applicant: Applicant means the decedent's next-
of-kin (NOK), a person authorized in writing by the NOK, or a personal 
representative authorized in writing by the decedent to apply for a 
Government-furnished headstone or marker . . . .''
    The Veterans Administration, and its marker program, did not exist 
at the time of the Civil War. Therefore, it is unlikely that any 
Revolutionary War, War of 1812, Mexican War, or Civil War veteran had 
the foresight to appoint a personal representative in writing to apply 
for a Government-furnished headstone or marker-through a program that 
did not even exist before many of these vets already were dead! The 
other two possibilities-next-of-kin or person authorized in writing by 
the next-of-kin, are very limited. We are, for example, approximately 
seven generations removed from the Civil War. It is a tremendous amount 
of work to locate next-of-kin-who would then apply or authorize 
another, in writing, to apply. And what is the point of doing so? Is a 
descendant, who never met the veteran, and is seven generations or so 
removed from that veteran's life, in any way better situated to carry 
out the intent of the veteran? It does not seem that that would be the 
case.
    And, it gets even worse. Friends of Cheltenham and Regional 
Cemeteries in Australia wrote to the Civil War News-and their letter 
was published in the February/March 2013 edition. They had identified 
five men who served during the American Civil War and were ultimately 
interred in Australia. They submitted applications to the VA to finally 
mark these graves; the applications were rejected because they lacked 
the approval of a lineal descendant. When the group reported back to 
the VA that none of these veterans had lineal descendants-some had not 
had children, the lines of others already had died off--the 
applications were again rejected because the veteran has no lineal 
descendant. This requirement of approval from a ``direct/lineal 
descendant'' was repeated by the VA in other rejections of 
applications.
    So, here's the new VA rule, pursuant to CFR section 38.632: you 
only get a marker if you had children and your children had children, 
etc., etc. According to the VA's rule, now a researcher must not only 
find and identify the veteran and prove his service, but also must find 
a lineal descendant and get that lineal descendant to complete an 
application for a marker. The VA further explained in response to the 
applications submitted from Australia:

    The purpose of defining in regulation who may apply for a headstone 
or marker was to ensure that family members were not left out of the 
decision-making process. In the past, there have been instances of 
well-meaning individuals and organizations taking action to mark graves 
or replace headstones without the knowledge of family members.
    The death, burial, headstone, inscription, and gravesite of a loved 
one is a very personal matter, and although we recognize that many 
families are grateful for assistance, we also understand that many 
family members do not want external involvement with decisions 
regarding VA benefits.

    This is the issue that the 2009 regulations sought to address. So, 
those regulations go on for four pages, detailing how disputes within 
the veteran's family are to be resolved.
    Yet, in the real world, such disputes over marking the graves of 
veterans of long ago rarely, if ever, occur. For example, the Green-
Wood Civil War Project, which has installed 1,300 gravestones, has had 
no complaints from descendants upset by the installation of those 
gravestones. There have been no disputes about ``Emblems of belief''-a 
subject addressed at length in the new regulations--because no such 
emblems have been requested by Green-Wood from the VA. And, when in 
2012 Green-Wood mounted bronze plaques obtained from the VA on granite 
bases supplied by the cemetery to finally mark the graves of American 
officers who had given their lives for their country, no one 
complained.
    Bottom line: these changes in the definition of ``applicant,'' 
aimed at dealing with family disputes typically involving veterans who 
have served recently and who have family alive and able to engage on 
the issue of the wishes of the veteran, should not be applied to 
veterans who served long ago. It just makes no sense to do so.
    The VA set up a committee at least mort than a year ago to review 
these regulations. But that committee has failed to act and appears to 
be in no rush to change its ill-conceived regulation. This response, 
concerning the progress of this committee, was recently received from a 
VA official: ``Memorial Programs Service continues to work with the NCA 
Legislative and Regulatory Service on updating the Code of Federal 
Regulations (CFR) for the Headstone and Marker Application Process. 
Unfortunately, this is a long process. I do not have an update for you 
at this time.''
    But the VA already has admitted that its current regulation, so 
severely restricting who may apply for a marker, is 
``overrestrictive.'' On April 10, 2013, Steve Muro, under secretary for 
memorial affairs at the Veterans Administration, testifying before a 
Congressional subcommittee, was questioned by Congressman John Runyan 
on this issue. Muro responded that ``. . . we are actually looking at 
that reg. And we are going to do some rewrites of it . . . they made it 
overrestrictive . . . And when we get ready we will put it out for 
public comment. We will keep the committee in the loop on that to let 
you know when we get ready to do that.''
    The Veterans Administration has realized, after more than a year of 
enforcing an absurd regulation, that it made a mistake. Yet the VA, as 
of yet, has offered no solution to this poorly written regulation. As 
recently as a month ago, Steve Muro wrote to Congressman Steve Israel 
to explain the next-of-kin requirement: ``We realize, however, that the 
definition may be too limiting, and we are reviewing the current 
regulation to include the applicant definition.'' But, again, nothing 
has been done to change this requirement that only next-of-kin may 
apply.
    A year ago, the VA, in effect, shut down its program, which has 
been in existence for more than a century, to mark the graves of 
veterans whose graves were unmarked. It ended that program by 
redefining ``applicant'' for a marker so narrowly that only direct 
descendants, rather than historians, cemeteries, museums, veterans 
associations, and concerned researchers, may apply for a marker. This 
is wrong.
More examples of rejected applications on behalf of veterans who served 
        honorably and sacrificed for their, and our, country:
    George J. Weinmann has several ancestors who served in the Civil 
War. He is a genealogist and historic researcher. He holds office in 
many patriotic organizations and is the vice president of the 
Greenpoint Monitor Museum. George has worked as a volunteer for 20 
years to identify veterans and to mark their graves with VA headstones. 
He does this work, as a volunteer, for one simple reason: because 
marking the graves of men who served and sacrificed for their country 
is the right thing to do. George recently located the final resting 
place of Private William Ellingham (1845 - 1888) at Brooklyn's 
Evergreens Cemetery. Ellingham served with the 128th New York Volunteer 
Infantry during the Civil War. At Cedar Creek, Virginia in October 
1864, he received lacerations and bruising to his legs when a horse 
trampled him as his regiment was overrun. George applied for a 
gravestone to mark this veteran's grave; the Veterans Administration 
rejected the application because George, historian and concerned 
volunteer, was not a direct descendant.

    John Wesley Cunningham (1844 - 1899) served as a private in the 
176th New York Volunteer Infantry during the Civil War. While in 
service, he suffered from pulmonary congestion that required repeated 
hospitalizations. After the war, he suffered from many illnesses, 
including loss of sight, heart, rheumatism and kidney trouble. George 
Weinmann found Cunningham's unmarked grave at Evergreens Cemetery. He 
applied to the Veterans Administration for a gravestone; that 
application was summarily rejected by the VA.
    Volunteer researchers in Melbourne, Australia, have identified 
several veterans of America's Civil War who are interred down under. 
Charles Blume (1842-1914) served with the 11th Maryland Volunteer 
Infantry. By the time of his death, his wife was already dead and he 
apparently had two married daughters living in Germany, but their names 
are unknown. An application was submitted to the Veterans 
Administration in the United States to mark his unmarked grave. It was 
summarily rejected by the VA because the applicant was just a concerned 
citizen in Australia--not his direct descendant.
    Does Charles Blume have a direct descendant alive today? No one 
knows.
    Can that descendant be found? Unlikely.
    Would it help to find that descendant? Can't imagine why it would.
    Will he ever have his grave marked? Not unless the VA changes its 
regulation.
    George Stillie (1839-1919) also is interred in an unmarked grave in 
Melbourne, Australia. He served his country during the Civil War in the 
United States Navy aboard the USS North Carolina, USS Valley City, USS 
Fernandina and USS Roebuck. Stillie's wife died before he did and their 
only child died in New Zealand in 1912. So, at the time of his death, 
he had no living lineal descendants.?Unless the VA reverses its policy, 
George Stillie will lie in an unmarked grave for eternity.
    Charles Purser, Air Force veteran and Civil War detective, spent 25 
years researching Confederates and Union men who are interred in 
Historic Oakwood Cemetery in Raleigh, North Carolina. After solving 
their mysteries one by one, he applied for and received granite 
gravestones from the Veterans Administration to mark their unmarked 
graves.
    But that was then and this is now: no researcher would be able to 
get those gravestones today. That's sad-it is not the way it should be. 
There are people like Charles Purser all across the world-who want to 
do their part to mark the graves of Civil War and other veterans. 
Because it is the right thing to do. Shouldn't the VA do its part?
    William Peter Strickland (1809-1884) served as chaplain of the 48th 
New York Infantry for two years during the Civil War. Strickland, like 
many Northern Evangelicals, believed that serving the Union was ``the 
most sacred duty of every liberty-loving American citizen.'' He is 
interred in Brooklyn's Green-Wood Cemetery in an unmarked grave.
    An application was made to the Veterans Administration for a 
headstone for him. That application was rejected because the applicant, 
the cemetery where he is buried, was not next-of-kin. Chaplain 
Strickland lies today, 150 years after his service to his country, in 
an unmarked grave. We know who he was. We know that he served his 
country. Shouldn't his grave be marked? Shouldn't his service to his 
country be honored? We think so!
    Major James H. Remington of the 7th Rhode Island Infantry and 
Corporal Philip Tavernier of the 4th New York Infantry were wounded at 
the Battle of Fredericksburg, Virginia. Alvah Schofield was a Navy man. 
Sergeant David Bell served with the 2nd U.S. Artillery. First 
Lieutenant James Entwhistle served with the 6th New York Infantry from 
1861 to 1863. Private Wales Jennings served for a year with the 15th 
Connecticut Infantry. Applications, made in June, 2012, on behalf of 
these men to mark their unmarked graves all were rejected by the 
Veterans Administration because the applicant, the cemetery where they 
lie, was not a lineal descendant. They served their country. Shouldn't 
their graves be marked? They certainly should.

    ``All honor to our dead! Let their names be engraved on the tablet 
of our memories, and may those to whom they were near by the ties of 
relationship, find consolation in the thought that their sufferings and 
death were a part of that inestimable price which was paid to secure 
the national life for the present and the future.''

    - Alfred Davenport, Camp and Field Life of the Fifth New York 
Volunteer Infantry.

    Very truly yours,

    Jeffrey I. Richman
    Green-Wood Cemetery Historian

                                 <F-dash>
                       Submission For The Record

       LETTER FROM STEVE L. MURO, DEPARTMENT OF VETERANS AFFAIRS

    DEPARTMENT OF VETERANS AFFAIRS
    UNDER SECRETARY FOR MEMORIAL AFFAIRS
    WASHINGTON DC 20420

    August 5, 2013

    The Honorable Susan W. Brooks
    Member, United States House of Representatives
    8900 Keystone Crossing, Suite 1050
    Indianapolis, IN 46204

    Dear Congresswoman Brooks:

    This is in further response to your inquiry on behalf of Ms. Susan 
D. Bizzel who requested disinterment of the remains of Mr. Michael 
Anderson from a Department of Veterans Affairs (VA) national cemetery. 
Please accept my apologies for the delayed response.

    On June 5, 2012, VA's National Cemetery Administration (NCA) found 
Mr. Anderson eligible for Interment at Fort Custer National Cemetery in 
Michigan. Mr. Anderson was interred on June 7, 2012. NCA first became 
aware of Mr. Anderson's involvement in the Indianapolis shooting death 
of Ms. Alicia Koehl when the cemetery director receiver a voice mail 
from a concerned individual on July 27, 2012. Since that time, VA 
conducted a careful review of all the facts in this case, as well as 
the administrative procedures used to determine eligibility for 
interment in a VA national cemetery. Based on the review, VA finds that 
NCA followed its regulatory process as required by Section 38.618 of 
title 38 of the Code of Federal Regulations because the decision was 
made based on the information known at the time of the burial request. 
In this case, the regulatory requirements for disinterment have not 
been met and VA is unable to disinter Mr. Anderson at this time.
    VA has provided technical drafting assistances to those in Congress 
who seek to make sure VA has the necessary legal authority to preserve 
the sanctity of VA national cemeteries.
    I hope this information will be helpful to you in responding to 
your constituent. Thank you for your continued support of our mission.

    Sincerely,

    Steve L. Muro

                                 [all]

</pre></body></html>
